<html>
<title> - ENGINEERING IN K-12 EDUCATION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                     ENGINEERING IN K-12 EDUCATION

=======================================================================



                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON RESEARCH AND SCIENCE EDUCATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 22, 2009

                               __________

                           Serial No. 111-57

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
52-859                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                   HON. BART GORDON, Tennessee, Chair
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
PARKER GRIFFITH, Alabama             MICHAEL T. MCCAUL, Texas
STEVEN R. ROTHMAN, New Jersey        MARIO DIAZ-BALART, Florida
JIM MATHESON, Utah                   BRIAN P. BILBRAY, California
LINCOLN DAVIS, Tennessee             ADRIAN SMITH, Nebraska
BEN CHANDLER, Kentucky               PAUL C. BROUN, Georgia
RUSS CARNAHAN, Missouri              PETE OLSON, Texas
BARON P. HILL, Indiana
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
VACANCY
                                 ------                                

             Subcommittee on Research and Science Education

                 HON. DANIEL LIPINSKI, Illinois, Chair
EDDIE BERNICE JOHNSON, Texas         VERNON J. EHLERS, Michigan
BRIAN BAIRD, Washington              RANDY NEUGEBAUER, Texas
MARCIA L. FUDGE, Ohio                BOB INGLIS, South Carolina
PAUL D. TONKO, New York              BRIAN P. BILBRAY, California
PARKER GRIFFITH, Alabama                 
RUSS CARNAHAN, Missouri                  
BART GORDON, Tennessee               RALPH M. HALL, Texas
               DAHLIA SOKOLOV Subcommittee Staff Director
            MARCY GALLO Democratic Professional Staff Member
           MELE WILLIAMS Republican Professional Staff Member
                    BESS CAUGHRAN Research Assistant


                            C O N T E N T S

                            October 22, 2009

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Daniel Lipinski, Chair, Subcommittee 
  on Research and Science Education, Committee on Science and 
  Technology, U.S. House of Representatives......................     7
    Written Statement............................................     7

Statement by Representative Vernon J. Ehlers, Minority Ranking 
  Member, Subcommittee on Research and Science Education, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................     8
    Written Statement............................................     9

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Subcommittee on Research and Science Education, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................     9

                               Witnesses:

Dr. Linda P.B. Katehi, Chair, Committee on K-12 Engineering 
  Education, National Academy of Engineering, National Research 
  Council/Center for Education, The National Academies; 
  Chancellor, University of California, Davis
    Oral Statement...............................................    12
    Written Statement............................................    14
    Biography....................................................    19

Dr. Thomas W. Peterson, Assistant Director, Engineering 
  Directorate, National Science Foundation (NSF)
    Oral Statement...............................................    20
    Written Statement............................................    21
    Biography....................................................    29

Dr. Ioannis Miaoulis, President and Director, Museum of Science, 
  Boston; Founding Director, National Center for Technological 
  Literacy
    Oral Statement...............................................    29
    Written Statement............................................    31
    Biography....................................................    42

Dr. Darryll J. Pines, Nariman Farvardin Professor and Dean, A. 
  James Clark School of Engineering, University of Maryland, 
  College Park
    Oral Statement...............................................    44
    Written Statement............................................    46
    Biography....................................................    49

Mr. Rick Sandlin, Principal, Martha and Josh Morriss Mathematics 
  and Engineering Elementary School, Texarkana Independent School 
  District
    Oral Statement...............................................    50
    Written Statement............................................    52
    Biography....................................................    61

Discussion.......................................................    61

             Appendix 1: Answers to Post-Hearing Questions

Dr. Linda P.B. Katehi, Chair, Committee on K-12 Engineering 
  Education, National Academy of Engineering, National Research 
  Council/Center for Education, The National Academies; 
  Chancellor, University of California, Davis                        76

Dr. Thomas W. Peterson, Assistant Director, Engineering 
  Directorate, National Science Foundation (NSF)                     77

             Appendix 2: Additional Material for the Record

Letter to the Honorable Daniel Lipinski and the Honorable Vernon 
  Ehlers from D. Wayne Klotz, President, American Society of 
  Civil Engineers (ASCE), dated October 23, 2009.................    80


                     ENGINEERING IN K-12 EDUCATION

                              ----------                              


                       THURSDAY, OCTOBER 22, 2009

                  House of Representatives,
    Subcommittee on Research and Science Education,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:07 a.m., in 
Room 2325 of the Rayburn House Office Building, Hon. Daniel 
Lipinski [Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                     u.s. house of representatives

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

             SUBCOMMITTEE ON RESEARCH AND SCIENCE EDUCATION

                            HEARING CHARTER

                     Engineering in K-12 Education

                       thursday, october 22, 2009
                         10:00 a.m.-12:00 p.m.
                   2325 rayburn house office building

1. Purpose

    The purpose of this hearing is to examine the potential benefits 
of, challenges to, and current models for incorporating engineering 
education at the K-12 level.

2. Witnesses

        <bullet>  Dr. Linda Katehi, Chair, National Academy of 
        Engineering Committee on K-12 Engineering Education, and 
        Chancellor, University of California, Davis


        <bullet>  Dr. Thomas Peterson, Assistant Director for 
        Engineering, National Science Foundation (NSF)

        <bullet>  Dr. Ioannis Miaoulis, President and Director, Museum 
        of Science, Boston and Founder, National Center for 
        Technological Literacy

        <bullet>  Dr. Darryll Pines, Dean and Nariman Farvardin 
        Professor of Engineering, A. James Clark School of Engineering, 
        University of Maryland, College Park

        <bullet>  Mr. Rick Sandlin, Principal, Martha and Josh Morriss 
        Mathematics and Engineering Elementary School, Texarkana, Texas

3. Overarching Questions


        <bullet>  How can engineering concepts be incorporated at the 
        K-12 level? What are the potential benefits of pre-college 
        engineering education? Can engineering be added to the 
        classroom without sacrificing core competencies in math and 
        science? What are reasonable learning outcomes for engineering 
        education at the elementary school level? What about middle and 
        high school?

        <bullet>  What are the current models and initiatives for 
        teaching engineering at the K-12 level? What kind of curricula 
        have been used and how were such curricula developed? What has 
        been done in terms of curricula that combine K-12 engineering 
        with science and math in an integrated approach? To what extent 
        have these efforts increased student learning and/or interest 
        in STEM, and what metrics were used to carry out those 
        assessments of learning and interest? What are the biggest 
        challenges and barriers to incorporating engineering education 
        in the elementary or secondary school classroom?

        <bullet>  What is the current state of research on engineering 
        education at K-12? What are the biggest unanswered research 
        questions? What assessment tools exist for evaluating the 
        effectiveness of engineering education in primary and secondary 
        school, and what are the bathers to improving assessment?

4. Background

    Over the past decade, a variety of studies have documented the 
decline of American students' interest and achievement in science, 
technology, engineering, and math (STEM) fields, as well as the growing 
gap between American students' achievement compared to their 
international counterparts in these fields. A consensus now exists that 
improving STEM education throughout the nation is a necessary condition 
for preserving the United States' capacity for innovation and for 
ensuring the nation's economic strength and competitiveness. The 2005 
National Academies report, ``Rising Above the Gathering Storm,'' cited 
a vast improvement of science and math education as the highest 
priority policy recommendation for our nation to maintain its 
competitiveness in the 21s' century global economy.
    In recent years, a variety of educators and other STEM education 
stakeholders have advocated for pre-college engineering education, 
arguing that our current STEM education system is out-dated given the 
skills needed by today's workforce.
    Engineering education has been introduced to a small but growing 
number of K-12 classrooms in the United States. The National Academy of 
Engineering study committee on K-12 engineering education estimates 
that six million elementary and secondary students have been exposed to 
engineering-related coursework. However, the implementation of such 
engineering education varies greatly in classrooms across the country, 
ranging from ad hoc infusion of engineering activities and ideas into 
existing science or math classes to stand-alone courses on engineering.
    While K-12 engineering education is a relatively new phenomenon, 
there is much to suggest it has the potential to have profound 
implications for engineering fields as well as STEM education as a 
whole. While there is a critical need for more research and data on the 
impacts of K-12 engineering education efforts, preliminary research 
findings suggest that K-12 engineering education has the potential to 
not only increase the awareness of the work of engineers, boost youth 
interest in pursuing careers in engineering, and increase the 
technological literacy of students, but may also improve student 
learning and achievement in science and math.
    Since it is such a new field for pre-college students, unlike 
science, math, and to a certain extent, technology education, many 
questions remain unanswered regarding how engineering education at the 
K-12 level is defined, designed, and implemented. At present, there are 
no established learning standards for K-12 engineering education, nor 
is there much in the way of professional development for teachers. 
Furthermore, most K-12 engineering education has been implemented in an 
ad hoc fashion and there is very little coordination between the 
various programs and curriculum developers, making it more difficult to 
compare programs and evaluate impacts.

National Academies Report on Engineering in K-12 Education

    In order to begin to address some of these unanswered questions, in 
2006, the National Academy of Engineering (NAE) and the National 
Academies' Center for Education . established the Committee on K-12 
Engineering Education to undertake a study regarding the creation and 
implementation of K-12 engineering curricula and instructional 
practices, focusing on the connections among science, technology, and 
mathematics education. In September 2009, the study committee released 
a report entitled, ``Engineering in K-12 Education: Understanding the 
Status and Improving the Prospects,'' summarizing the key findings of 
the study and providing guidance to key stakeholders regarding future 
research and practice. The committee looked at the current scope and 
nature of K-12 engineering education and examined available curricula 
as well as professional development programs for teachers. Many of the 
recommendations stressed the need for continued investment in research 
in this area. Another key conclusion of the report was that engineering 
education could potentially serve as the catalyst for a less ``siloed'' 
approach to STEM education. Many have argued that our current STEM 
education system does not leverage the natural connections between STEM 
subjects. The NAE Committee suggests that engineering could be used as 
a tool to develop a more interconnected STEM education system in our 
Nation's K-12 schools.

Diversity

    The lack of diversity in engineering fields is a well documented 
problem in the United States. In July of this year, the Subcommittee 
held a hearing to examine the status of participation and achievement 
of female students in STEM fields. Witnesses testified on the continued 
lack of participation of girls and young women in certain STEM fields, 
most notably in the engineering fields. The Subcommittee also plans to 
hold a series of hearings on the participation of historically under-
represented minorities in STEM. Research findings suggest that women 
and other under-represented groups face unique challenges at multiple 
stages of the STEM pipeline, beginning at an early age. By helping to 
make STEM learning more tangible and relevant to students, pre-college 
engineering education has the potential to attract a more diverse group 
of students to STEM fields.

5. K-12 Engineering Education and Research at NSF

    STEM education research and activities are funded by a number of 
federal agencies, with NSF being the primary source of support for STEM 
education research. Historically, NSF's mission has included supporting 
and strengthening the nation's STEM research and education activities 
at all levels. NSF funds research on K-12 engineering education as well 
as a variety of K-12 engineering education activities ranging from 
teacher training to curriculum development. Many of the Foundation's 
STEM education and research activities are housed in the Directorate 
for Education and Human Resources (EHR), but some K-12 engineering 
activities are funded out of NSF's Engineering Directorate through the 
Engineering Education and Centers (EEC) Division, which funds work that 
encourages the integration of engineering research and education with 
the goal of improving the quality and diversity of engineering 
graduates entering the workforce.
    In his testimony, Dr. Peterson will provide more detailed 
information regarding the K-12 engineering research and activities 
funded by NSF. As an example, the GK-12 program, which provides funding 
for graduate students to bring their research practice and findings to 
K-12 classrooms, funds a variety of projects that place graduate 
engineering students into high schools in their communities to do 
hands-on engineering activities. In addition, the Research and 
Evaluation on Education in Science and Engineering (REESE) program has 
funded research on evaluation of pre-college engineering curricula. The 
Museum of Science, Boston, represented at the hearing by Dr. Miaoulis, 
also received support from NSF for the development of their 
``Engineering is Elementary'' Curriculum.

6. Questions for Witnesses

Linda Katehi

        1.  Please summarize the findings and recommendations of the 
        recent National Academy of Engineering report, ``Engineering in 
        K-12 Education: Understanding and Status and Improving the 
        Prospects.''

        2.  What is the current state of research on engineering 
        education at the K-12 level? What do we know about the 
        influence of early exposure to engineering concepts on student 
        interest and achievement in STEM fields in the elementary, 
        middle, and high school years? What are the most important 
        unanswered research questions?

        3.  What metrics and methodologies exist for-evaluation and 
        assessment of K-12 engineering education? What are the bathers 
        to developing better metrics? Is the current level of support 
        for research in these areas adequate?

Thomas Peterson

        1.  How is engineering education incorporated into NSF's K-12 
        STEM education programs, including the Math and Science 
        Partnerships Program and K-12 education programs within the 
        Engineering Directorate?

        2.  What is the current state of research on engineering 
        education at the K-12 level? What do we know about the 
        influence of early exposure to engineering concepts on student 
        interest and achievement in STEM fields in the elementary, 
        middle, and high school years? What are the most important 
        unanswered research questions?

        3.  What is the current level of support and scope of NSF-
        funded research on K-12 engineering education? How much of 
        NSF's research support in this area is funded out of the 
        Engineering Directorate? How much research support is funded 
        through Education and Human Resources Directorate programs? How 
        do you communicate the findings supported by your division to 
        your colleagues in the Education and Human Resources 
        Directorate and vice versa?

        4.  What metrics and methodologies exist for evaluation and 
        assessment of K-12 engineering education? What are the barriers 
        to developing better metrics? What is or should be NSF's role 
        in developing those metrics?

Ioannis Miaoulis

        1.  Please describe the mission and work of the Museum of 
        Science, Boston's National Center for Technological Literacy 
        (NCTL.) How did NCTL develop its 1(42 engineering curricula? 
        What have you learned about combining engineering concepts with 
        science and math in an integrated approach to K-12 STEM 
        education? To what extent increased student learning and/or 
        interest in STEM, and what metrics were used to carry out those 
        assessments of learning and interest?

        2.  Where has NCTL received its financial support? What types 
        of federal resources were most valuable in supporting the 
        development of NCTL's engineering education programming? Has 
        the NCTL partnered with stakeholders in the private sector and/
        or academia for intellectual and financial support? If so, what 
        is the nature of such partnerships?

        3.  What do you see as the biggest challenges and barriers to 
        incorporating engineering education in the elementary or 
        secondary school classroom?

        4.  What is the appropriate role of informal learning 
        environments, such as museums, in educating students and 
        teachers about engineering design?

Darryll Pines

        1.  As a dean of an engineering school, what do you consider to 
        be the necessary skills that make for a successful 
        undergraduate engineering student? Which of those skills should 
        students ideally possess upon enrolling in the university? 
        Which of those skills are better taught and learned at the 
        undergraduate level?

        2.  What do you consider to be the potential benefits of pre-
        college engineering education, and at what grade level would 
        you suggest beginning to introduce engineering concepts? What 
        do you see as potential challenges or disadvantages of pre-
        college engineering education?

        3.  Please describe the University of Maryland's (UMD) K-12 
        engineering programs and initiatives. Do these programs involve 
        formal partnerships with local K-12 schools, and if so, what is 
        the nature of such partnerships? How do you evaluate the 
        effectiveness of these programs and partnerships? What kind of 
        engineering related professional development programs does the 
        University provide for K-12 teachers? Does UMD incorporate 
        engineering into any of its degree or certification programs 
        for pre-service STEM teachers?

Rick Sandlin

        1.  Please describe the establishment of the Martha and Josh 
        Morriss Mathematics and Engineering Elementary School. What was 
        the impetus for its development? What role did partnerships 
        with local businesses and institutes of higher education play 
        in the development of the school?

        2.  What do you consider to be the benefits of pre-college 
        engineering education? Can engineering be added to the 
        classroom without sacrificing core competencies in math and 
        science? What are reasonable learning outcomes for engineering 
        education at the elementary school level? What do you consider 
        to be the biggest challenges and barriers to incorporating 
        engineering education in the elementary school classroom?

        3.  What kind of curricula does the school use? What percentage 
        of your teachers have engineering degrees? What kind of teacher 
        training and professional development opportunities do you 
        provide for your teachers?

        4.  Once a student has completed the elementary grades at your 
        school, do they have the opportunity to go on to a STEM-focused 
        middle school? Are there programs in place to ensure these 
        students maintain an interest in STEM subjects as they 
        transition to middle school and high school?
    Chairman Lipinski. The hearing will now come to order. I am 
glad everyone could find the room here. I feel a little bit 
different being in this committee room rather than the other 
one, so a few things I am just getting used to here. This 
microphone sounds very loud to me.
    Good morning, and welcome to the Research and Science 
Education Subcommittee hearing on Engineering in K-12 
Education.
    Today we will explore the concept of pre-college 
engineering education. Even though I was trained as an 
engineer, this is something that is fairly new to me, simply 
because it was not formally around when I was in school.
    We on the Committee are dedicated to improving STEM 
education in this country, and are always exploring new ideas 
that have the potential to have a positive impact on student 
learning and achievement in STEM fields. This year alone, we 
have held three hearings on K-12 STEM education, but those have 
focused primarily on science and math, and we have yet to 
examine the small but growing movement in K-12 engineering 
education.
    Today we will hear from witnesses who are involved in 
engineering education in a variety of capacities. I look 
forward to hearing the witnesses explain the current models and 
initiatives for teaching engineering in the K-12 setting, to 
what extent these efforts have been successful in teaching 
engineering concepts, and perhaps most importantly, how they 
might be used to improve student learning in all STEM fields.
    We are fortunate to have a new report on this subject from 
the National Academy of Engineering and the National Research 
Council. I hope discussing this report will help us understand 
what questions remain unanswered and what research might need 
to be conducted.
    Finally, I am interested in learning more today about how 
pre-college engineering education might broaden the STEM 
pipeline by helping to make STEM learning tangible and exciting 
to students from all backgrounds.
    I want to thank all of our witnesses for taking the time to 
appear before the Subcommittee this morning and I look forward 
to your testimony.
    The Chair now recognizes Dr. Ehlers for an opening 
statement.
    [The prepared statement of Chairman Lipinski follows:]
             Prepared Statement of Chairman Daniel Lipinski
    Good morning and welcome to this Research and Science Education 
Subcommittee hearing on Engineering in K-12 Education.
    Today we will explore the concept of pre-college engineering 
education. Even though I was trained as an engineer, this is something 
that's fairly new to me, simply because it was not formally around when 
I was in school.
    We on the Committee are dedicated to improving STEM education in 
this country, and are always exploring new ideas that have the 
potential to have a positive impact on student learning and achievement 
in STEM fields. This year alone, we have held three hearings on K-12 
STEM education, but those have focused primarily on science and math, 
and we have yet to examine the small but growing movement in K-12 
engineering education.
    Today we will hear from witnesses who are involved in engineering 
education in a variety of capacities. I look forward to hearing the 
witnesses explain the current models and initiatives for teaching 
engineering in the K-12 setting, to what extent these efforts have been 
successful in teaching engineering concepts, and perhaps most 
importantly, how they might be used to improve student learning in all 
STEM fields.
    We are fortunate to have a new report on this subject from the 
National Academy of Engineering and the National Research Council. I 
hope discussing this report will help us understand what questions 
remain unanswered and what research might needed to be conducted.
    Finally, I am interested in learning more today about how pre-
college engineering education might broaden the STEM pipeline by 
helping to make STEM learning tangible and exciting to students from 
all backgrounds.
    I want to thank all of the witnesses for taking the time to appear 
before the Subcommittee this morning and I look forward to your 
testimony.

    Mr. Ehlers. Thank you, Mr. Chairman, and actually I like 
this cozy room. We may have to pull in a few extra chairs or 
you will have to take people on your lap or something like 
that. At any rate, it will be a fun session here.
    Today's hearing will look at what we know and what we need 
to know about fostering K-12 engineering education, and I have 
become known as the great pusher of STEM education here. 
Engineering is definitely a part of STEM education. In fact, if 
you count the letters, it is one-fourth of the package. But it 
faces unique challenges in the classroom, and I am very pleased 
that the witnesses are here today that are going to help us 
understand what that unique place is and what the unique 
challenges are that are faced.
    I happen to be a great believer in using engineering in the 
elementary schools, and if I had my druthers, the Federal 
Government would give a free set of Tinker Toys and Lincoln 
Logs to every child born in this country, male or female, and 
get them started off right, right from the start.
    Engineering is nothing but making things that work, making 
things out of materials that are at hand and that you make into 
useful devices that work, and I can't think of a more valuable 
skill for students to learn in school, regardless of whether or 
not they go into engineering. But if they don't explore math, 
science and engineering in elementary school, they almost 
certainly are not going to take the Advanced Placement courses 
in high school. If they don't take the Advanced Placement 
courses in high school, they get to the university and they 
find well, if they want to become an engineer, they are going 
to have to spent at least one extra year there to make up time, 
and so what student wants to do that, especially when faced in 
their freshman year, and so suddenly we have lost an engineer 
just because the elementary schools have not instilled that 
excitement of discovery, the excitement of putting things 
together and making it work when the students were younger.
    I suspect that many innovative teachers have been including 
engineering in their classrooms for many years and it is our 
job collectively in this committee to tap that knowledge that 
is out there, and you are going to be important channels today 
in helping us begin that education. It is pretty rare you have 
the opportunity to educate Members of Congress. Most Members by 
nature assume they know everything already. And so here is a 
golden opportunity for you to educate us. I hope that we can 
really get something started here. We have so many forward-
thinking ideas on this committee, but if you don't start with a 
good idea and you don't push it, you are not going to get 
anywhere, and that is our effort here today. Thank you for 
participating and thank you for your interest, and I yield 
back.
    [The prepared statement of Mr. Ehlers follows:]
         Prepared Statement of Representative Vernon J. Ehlers
    Today's hearing will look at what we know and what we need to know 
about bolstering K-12 engineering education. Though engineering is a 
part of the ``STEM'' acronym, it faces unique challenges not shared by 
math and science. Our witnesses today will help us explore how we can 
more effectively integrate engineering into our elementary and 
secondary schools.
    I suspect that many innovative teachers have been including 
engineering in their classrooms for years without explicitly calling it 
such; however, there is a benefit to students knowing that it is indeed 
engineering they are learning and how it may be applied in the 
workforce. Furthermore, it is impossible to research the engineering in 
the classroom without a common nomenclature. It is critical that we 
understand the current types of engineering being taught in order to 
have a strong research base supporting future policy actions to 
strengthen engineering education.
    To advance K-12 engineering education, it will also be necessary to 
improve communication and collaboration between the various STEM 
disciplines. Knowing that we all share the goal of our students 
receiving a high-quality education, I look forward to hearing from our 
witnesses today about how engineering can be a part of that goal.

    Chairman Lipinski. Thank you, Dr. Ehlers. If there are 
Members who wish to submit additional opening statements, your 
statements will be added to the record at this point.
    [The prepared statement of Ms. Johnson follows:]
       Prepared Statement of Representative Eddie Bernice Johnson
    Good afternoon, Mr. Chairman. I am pleased that the Subcommittee is 
holding today's hearing on K-12 education in the area of engineering. I 
would like to welcome our witness from Texarkana. Mr. Sandlin, we 
appreciate you taking time away from your duties at the Martha and Josh 
Morriss Mathematics and Engineering Elementary School to testify today.
    My colleagues may know that middle school is a critical period when 
students are forming their opinions about math and science. It is also 
a time in which we begin to see an achievement gap between White and 
African American students, in terms of math test score performance. In 
fact, the disparities are greatest in fifth grade and in seventh grade, 
for the math standardized test scores. Today's hearing will cover 
witness views on teaching models that have the greatest impact for 
engineering education.
    We'll also cover some of the challenges that exist to incorporating 
engineering education in the elementary or secondary school classroom. 
Programs like the Noyce Teacher Scholarship have made great strides in 
putting highly qualified teachers in the classrooms. What we need are 
more people like them, who are passionate about the subject matter, to 
ignite the imaginations of their students.
    I also hope that this hearing will include a discussion of the lack 
of diversity in the engineering workforce, and how we can address that 
from the K-12 education standpoint. We know that minority students 
begin to under-achieve at a young age. What we don't understand is the 
complex challenges that they face and what specific interventions would 
make the greatest difference for them.
    Townview is a multi-school complex that is located in Dallas. The 
schools are public schools, and they are among the very best in the 
Nation. The schools are diverse, and they are competitive. Townview has 
received tremendous support from Texas Instruments and other members of 
the local community. Students at Townview excel. I would like to see 
this model studied further and replicated around the Nation. I want to 
invite Members of this subcommittee to come to Dallas and visit 
Townview. It really is a special place and a model of educational 
excellence.
    The National Academy of Engineering has released a report entitled, 
``Engineering in K-12 Education: Understanding and Status and Improving 
the Prospects.'' The report should provide guidance to Congress on how 
to best leverage our public resources for the betterment of education 
for all. Clearly, the National Science Foundation has a role to play in 
this area. Other federal agencies should become more involved in 
educational enrichment activities.
    Again, I want to welcome today's witnesses to the hearing. This 
subject, K-12 engineering education, is one of great interest to me, 
and I stand ready to partner with you to guide federal policies toward 
a better-educated engineering workforce.
    Thank you, Mr. Chairman. I yield back the remainder of my time.

    Chairman Lipinski. At this time I would like to introduce 
our witnesses. First, we have Dr. Linda Katehi, who is the 
Chair of the National Academy of Engineering Committee on K-12 
Engineering Education and a Chancellor of the University of 
California, Davis. Dr. Thomas Peterson is the Assistant 
Director for Engineering at the National Science Foundation. 
Dr. Ioannis Miaoulis is the President and Director of the 
Museum of Science, Boston, and the Founding Director of the 
National Center for Technological Literacy. Dr. Darryll Pines 
is Dean and Professor of Engineering at the A. James Clark 
School of Engineering at the University of Maryland, College 
Park. I will now yield to Ranking Member Hall to introduce our 
fifth and final witness.
    Mr. Hall. I thank you, Mr. Chairman, and I thank you for 
calling this meeting here today, and Professor Ehlers, thank 
you for your good advice. I have always admired the Chairman, 
his history of success and leadership that he gives to this 
committee. I always admired Professor Ehlers but I never really 
liked him. He is the kind of guy that ruined the curve for 
ordinary students like me.
    But I would like to thank all the witnesses here today, and 
my basic job is to introduce my favorite witness and some of my 
folks, Mr. Chairman, if I might, that are in the audience, but 
I respect all of you for the dedication to strengthening K-12 
STEM education and specifically K-12 engineering education. Our 
nation has always, as you know, been the leader in cutting-edge 
innovation and our young children and grandchildren are the key 
to our success. How we inspire them and how we keep them 
inspired as they continue their education are very critical 
questions.
    And I might say on behalf of the Chairman here that don't 
have dismay at the lack of Members that are here because we all 
have several Committees and there are Committee meetings 
everywhere and we are trying to wind up and get away from here, 
maybe tonight or first thing in the morning. But everything you 
testify to will be put into writing by our court reporter there 
and it goes into the books and every Member of Congress will 
read it. So you are not just testifying to a good Chairman and 
a couple of Members and their groups.
    Sometimes it is hard to grasp how a seven- or eight-year-
old can understand engineering, but when you put it in terms of 
toys with which they play and see them light up with 
excitement, and I was excited to learn that Silly Putty was 
invited by a chemical engineer trying to find a rubber 
substitute. A mechanical engineer invented the Slinky when he 
saw a spring fall off of a table, and a basic water gun was 
transformed into the very popular Super Soaker Max D-6000 Giant 
Water Blaster, they say, by a NASA mechanical engineer. You 
know, during World War II, I flew for the Navy and I landed 
probably 50 times right there in Pearl Harbor and I never 
really realized anything historical had taken place there, 
didn't even get a picture of the Arizona that was still 
floating partially and it is down into the mud now. And Mr. 
Chairman, to bring it more home, one of my sons cut my garden 
hose and had it wrapped around his arm and was ringing it 
around like that, and I whipped him with the rest of the garden 
hose. Three years later they came out with the hula hoop. I 
just don't ever see anything that is successful. I see 
successful people here that are testifying for us today and we 
are very grateful to them.
    I applaud the Subcommittee for taking up this issue, and my 
job is to introduce him. He has influenced the lives of 
Texarkana children since 1974, first as a teacher, then as an 
assistant principal and now as the principal of the Martha and 
Josh Morriss Mathematics and Engineering Elementary School, and 
what great and giving people are the Morrisses. He is a Senior 
Administrator for the Texarkana Independent School District. He 
along with a lot of others including Texas Independent School 
District Superintendent James Henry Russell are here, City 
Manager Larry Sullivan, a former Superintendent, and his wife 
Roseanne Stripling, Provost of Texas A&M, Texarkana, and the 
Morriss family were instrumental in the construction and 
development of Morriss Elementary in 2006. Now, Bart Gordon was 
with me there when we honored them and recognized that some 
time ago and it is good to see my friend, James Henry, in the 
audience as well as well as other members of the Texarkana 
Independent School District staff, Autumn Thomas Davis, the 
Superintendent, and Ronnie Thompson, Assistant Superintendent 
for Instructional Services.
    As I say, Mr. Chairman, Chairman Gordon and I were 
privileged to visit this very phenomenal campus last year and 
see firsthand one of only a very few public model schools 
currently in the Nation focused specifically on elementary 
engineering and mathematics, and I was pleased to see that the 
National Academy study ``Engineering in K-12 Education'' also 
recognizes the Morriss School as a model. Hopefully it can be 
replicated in other towns suitable for a similar experience.
    Mr. Sandlin, welcome to Washington and thank you for being 
here and for your willingness to share your Morriss Elementary 
experiences with us. I look forward to learning more about it 
and believe that my colleagues also find your testimony along 
with the testimony of those other very knowledgeable and 
respected witnesses to be very beneficial.
    Mr. Chairman, I thank you for allowing me to recognize my 
favorite group of people.
    Chairman Lipinski. Thank you, Mr. Hall.
    Mr. Hall. I yield back my time if I have got any left.
    Mr. Ehlers. Thank you, Mr. Chairman. Mr. Hall, you don't 
have to worry about me destroying the curve. I did get a B once 
in advanced electrodynamics.
    Mr. Hall. I never did get a B. One time my dad whipped me. 
They said that I made four F's and a D and he whipped me for 
spending too much time on one subject.
    Chairman Lipinski. Thank you, Mr. Hall.
    I just--at the beginning you were talking about--you know, 
you said those nice things about me and then you were 
criticizing Dr. Ehlers here, but I noted that you didn't use 
the slur of professor with me as you did with Dr. Ehlers, so I 
thank you for that. It is always good to have you and always 
get a few good stories, so thank you always for your 
contributions.
    As our witnesses should know, you each will have five 
minutes for your spoken testimony. Your written testimony will 
be included in the record for the hearing. When you all have 
completed your spoken testimony, we will begin with questions. 
Each Member will have five minutes to question the panel.
    We will start the testimony here with Dr. Katehi.

 STATEMENT OF DR. LINDA P.B. KATEHI, CHAIR, COMMITTEE ON K-12 
    ENGINEERING EDUCATION, NATIONAL ACADEMY OF ENGINEERING, 
 NATIONAL RESEARCH COUNCIL/CENTER FOR EDUCATION, THE NATIONAL 
     ACADEMIES; CHANCELLOR, UNIVERSITY OF CALIFORNIA, DAVIS

    Dr. Katehi. Good morning, Mr. Chairman and Members of the 
Subcommittee. My name is Linda Katehi. I am Chancellor at the 
University of California, Davis, and I served as the Chair of 
the Committee on K-12 Engineering Education of the National 
Academy of Engineering and the National Research Council Center 
for Education. I am sure you are familiar with the history and 
role of the National Academy so I will not say anymore on that 
front.
    My written testimony goes into some detail about the 
Committee's recently released report which is titled 
``Engineering in K-12 Education: Understanding the Status and 
Improving the Prospects.''
    In my brief remarks today, I am going to focus on our key 
findings and recommendations. I would like to start by noting 
that our study was motivated by several factors. One was a 
desire to get a handle on what is happening nationally 
regarding efforts to introduce engineering into K-12 
classrooms. For example, how many kids and teachers have taken 
part in these initiatives, what impact various programs had on 
student learning, what is the relationship between engineering 
and the other STEM subjects. Another motivator was the concern 
about the uneven quality of our K-12 STEM education system. The 
system provides the feedstock for the country's STEM workforce 
which in turn fuels the U.S. innovation engine and U.S. 
economy. We wanted to better understand the potential of K-12 
engineering education to support a broader national interest.
    At this point I want to very briefly define engineering so 
that the Subcommittee has some sense of what I mean when I use 
the term. Whereas science can be thought of as a process of 
discovering what is, engineering is a process used to create 
something new, something useful, typically a technological 
product, process or a service. In our report, we call 
engineering design under constraint. These constraints include 
the laws of nature. Engineers cannot design anything that 
violates those laws but they also include other things such as 
research availability, environmental impact, manufacturability, 
time deadlines, government regulations, political realities and 
ethical considerations. The engineering designing process 
relies heavily on science and mathematics, and engineers work 
collaboratively with scientists, technicians and many others, 
often in dispersed and global teams.
    The most intriguing finding from our study in my view is 
the idea that K-12 engineering education might become a 
catalyst for more integrated and effective STEM education in 
the United States. In the real world of research and technology 
development, science, technology, engineering and mathematics 
are not isolated from one another. Our committee wondered then 
why the subjects should continue to be isolated or siloed when 
taught at schools. To begin moving down the path toward 
integration, the Committee recommends that the National Science 
Foundation support research to characterize or define STEM 
literacy including how much literacy might develop over the 
course of a student's K-12 school experience.
    A major element of our study involved reviewing a 
representative sample of K-12 engineering education curricula. 
Most of these curricula recognize that scientific inquiry and 
engineering design are closely related activities that can be 
mutually reinforcing, but we found that the connection is not 
systematically emphasized to improve learning in both domains. 
Similarly, mathematical analysis and modeling are essential to 
engineering design but very few curricula or professional 
development initiatives we reviewed used mathematics in ways 
that support modeling and analysis. To address these 
shortcomings, the Committee recommends that the National 
Science Foundation or the U.S. Department of Education fund 
research to determine how science inquiry and mathematical 
reasoning can be better connected to engineering design in K-12 
curricula and teacher professional development.
    Our study also evaluated a variety of claims that have been 
made for the benefit of teaching engineering to K-12 students. 
Although only limited reliable data are available to support 
these claims, we found that most evidence for benefit relates 
to improved student learning and achievement in mathematics and 
science. For engineering education to become a more mainstream 
component of K-12 education, the Committee believes there will 
have to be much more and much higher quality outcome-based 
data. To this end, we recommendation that foundations and 
federal agencies with an interest in K-12 engineering education 
support long-term research to confirm and refine the findings 
of earlier studies of the impacts of engineering education.
    At this point I would like to note that the Committee was 
unanimous that whatever benefit K-12 engineering education 
provides, they should be made available to all students--what 
we term the mainline, not just to those relatively few students 
who wish to pursue a career in engineering or another technical 
field, what we normally call the pipeline. Our study determined 
that teacher professional development opportunities for K-12 
engineering are seriously lacking. The roughly 18,000 teachers 
we estimate who have received some training to teach 
engineering have almost all participated in service initiatives 
associated with existing curricula. We uncovered no pre-service 
initiatives that are likely to contribute significantly to the 
supply of qualified engineering teachers in the near future. 
Given this situation, the Committee recommends that the 
American Society of Engineering Education begin a national 
dialogue on preparing K-12 engineering teachers to address the 
very different needs and circumstances facing elementary and 
secondary teachers and the pros and cons of establishing a 
formal credentialing process.
    The Committee concluded that lack of gender and ethnic 
diversity is an issue for K-12 engineering education just as it 
is an issue for the engineering workforce. To expand access and 
participation, the Committee recommends that K-12 engineering 
curricula should be developed with special attention to 
features that appeal to girls and students from under-
represented groups and programs that promote K-12 engineering 
education should be strategic in their outreach to these 
populations.
    Many questions remain about the best way to deliver 
engineering education in the K-12 classroom. In the Committee's 
view, there are at least three options: ad hoc infusion, 
standalone courses and interconnected STEM education. These 
approaches would fall along a continuum in terms of ease of 
implementation as described in greater detail in our report. We 
believe that implementation of K-12 engineering education must 
be flexible because no single approach is likely to be 
acceptable or feasible in every district or school. Ideally, we 
believe that all K-12 students in the United States should have 
the option of experiencing some form of formal engineering 
design. To help reach that goal, the Committee recommends that 
philanthropic foundations or federal agencies with an interest 
in STEM education and school reform fund research to identify 
models of implementation for K-12 engineering education.
    Our project did not attempt to calculate the Nation's 
investment in K-12 engineering education. It is clear, however, 
that the greatest spending over time has been on curriculum 
development. A much, much smaller amount has been devoted to 
research on comprehension and learning, on assessment and 
evaluation and on professional development. K-12 engineering 
education could benefit from addressing the research questions 
suggested by many of our recommendations.
    I want to return briefly to the ideas of integrated STEM 
education and STEM literacy. The Committee believes that STEM-
literate students would be better prepared for life in the 21st 
century and better able to make career decisions or pursue 
post-secondary education. They will also become better citizens 
and our country will greatly benefit from them. Integrated STEM 
education could include teaching and learning in all four 
subjects by reducing excessive expectations for K-12 STEM 
teaching and learning. This does not mean that teaching should 
be dumbed down, but rather the teaching and learning in fewer 
key STEM areas could be deepened and then more time should be 
spent on the development of a set of STEM skills that includes 
engineering design and scientific inquiry.
    I would like to thank the Subcommittee for the invitation 
to speak here today and welcome your questions.
    [The prepared statement of Dr. Katehi follows:]
                Prepared Statement of Linda P.B. Katehi
    Good morning, Mr. Chairman, and Members of the Subcommittee. My 
name is Linda Katehi. I am Chancellor at the University of California, 
Davis, and served as the Chair of the Committee on K-12 Engineering 
Education of the National Academy of Engineering (NAE) and National 
Research Council (NRC) Center for Education. The NAE and NRC, along 
with the National Academy of Sciences (NAS) and Institute of Medicine 
(IOM), are part of the National Academies. The National Academies 
provide science, technology, and health policy advice under a 
congressional charter signed by President Abraham Lincoln that was 
originally granted to the NAS in 1863. Under this charter, the NRC was 
established in 1916, the NAE in 1964, and the IOM in 1970. My testimony 
today focuses on the report of the study committee I chaired. The 
report, Engineering in K-12 Education: Understanding the Status and 
Improving the Prospects, was released a little over a month ago. The 
bulk of funding for the study came from Mr. Stephen D. Bechtel, Jr., a 
member of the NAE. Additional support was provided by the National 
Science Foundation and PTC Inc.

Introduction

    Although K-12 engineering education has received little attention 
from most Americans, including educators and policy makers, it has 
slowly been making its way into U.S. K-12 classrooms. Today, several 
dozen different engineering programs and curricula are offered in 
school districts around the country, and our research suggests about 
18,000 teachers have attended professional development sessions to 
teach engineering-related course work. In the past 15 years, our 
committee estimates, some six million K-12 students have experienced 
formal engineering education.
    The presence of engineering in K-12 classrooms is an important 
phenomenon, not because of the number of students impacted, which is 
still small relative to other school subjects, but because of the 
implications of engineering education for the future of science, 
technology, engineering, and mathematics (STEM) education more broadly. 
In fact, our committee came to the conclusion that engineering 
education could be a catalyst for more integrated, and effective, STEM 
education in the United States. I will talk more about this at the end 
of my remarks.
    In recent years, as you know, educators and policy-makers have come 
to a consensus that the teaching of STEM subjects in U.S. schools must 
be improved. The focus on STEM topics is closely related to concerns 
about U.S. competitiveness in the global economy and about the 
development of a workforce with the knowledge and skills to address 
technical and technological issues.
    However, in contrast to science, mathematics, and even technology 
education, all of which have established learning standards and a long 
history in the K-12 curriculum, the teaching of engineering in 
elementary and secondary schools is still very much a work in progress. 
Not only have no learning standards been developed, little is available 
in the way of guidance for teacher professional development, and no 
national or State-level assessments of student accomplishment have been 
developed. In addition, no single organization or central clearinghouse 
collects information on K-12 engineering education.
    Thus a number of basic questions remain unanswered. How is 
engineering taught in grades K-12? What types of instructional 
materials and curricula have been used? How does engineering education 
``interact'' with other STEM subjects? In particular, how has K-12 
engineering instruction incorporated science, technology, and 
mathematics concepts, and how has it used these subjects as a context 
for exploring engineering concepts? Conversely, how has engineering 
been used as a context for exploring science, technology, and 
mathematics concepts? And what impact have various initiatives had?
    In 2006, the NAE and NRC established the Committee on K-12 
Engineering Education to begin to address these and related questions. 
The goal of our effort was to provide carefully reasoned guidance to 
key stakeholders regarding the creation and implementation of K-12 
engineering curricula and instructional practices, focusing especially 
on the connections in science, technology, engineering, and mathematics 
education.

Principles for K-12 Engineering Education

    In part because there are no standards for K-12 engineering and 
also because the specifics of how engineering is taught vary from 
school district to school district, the Committee felt it important to 
lay out several general principles that could guide all pre-college 
engineering education efforts. The first principle is that K-12 
engineering education should emphasize engineering design, the approach 
engineers use to identify and solve problems. The second principle is 
that K-12 engineering education should incorporate important and 
developmentally appropriate mathematics, science, and technology 
knowledge and skills. And the third principle is that K-12 engineering 
education should promote engineering habits of mind, including systems 
thinking, creativity, optimism, collaboration, communication, and 
attention to ethical considerations. These principles are described 
more fully in our report.

Review of Curricula

    A major element of our study involved identifying and reviewing a 
representative sample of K-12 engineering education curricula. Our 
analysis included 31 such curricula and examined 15 in great detail. We 
found that engineering design is predominant in most K-12 curricular 
and professional development programs. This is encouraging. However, we 
also found that the treatment of key ideas in engineering, many closely 
related to engineering design, is much more uneven and, in some cases, 
suggests a lack of understanding on the part of curriculum developers.
    In part, these shortcomings may be the result of the absence of a 
clear description of which engineering knowledge, skills, and habits of 
mind are most important, how they relate to and build on one another, 
and how and when (i.e., at what age) they should be introduced to 
students. In fact, it seems that no one has attempted to specify age-
appropriate learning progressions in a rigorous or systematic way; this 
lack of specificity or consensus on learning outcomes and progressions 
goes a long way toward explaining the variability and unevenness in the 
curricula.
    Although there are a number of natural connections between 
engineering and the three other STEM subjects, we found that existing 
curricula in K-12 engineering education do not fully explore them. For 
example, scientific investigation and engineering design are closely 
related activities that can be mutually reinforcing. Most curricula 
include some instances in which this connection is exploited (e.g., 
using scientific inquiry to generate data that can inform engineering 
design decisions or using engineering design to provide contextualized 
opportunities for science learning), but the connection is not 
systematically emphasized to improve learning in both domains.
    Similarly, mathematical analysis and modeling are essential to 
engineering design, but very few curricula or professional development 
initiatives reviewed by the Committee used mathematics in ways that 
support modeling and analysis. The Committee believes that K-12 
engineering can contribute to improvements in students' performance and 
understanding of certain mathematical concepts and skills.
    Based on its review of curricula, the Committee recommended that 
the National Science Foundation and/or U.S. Department of Education 
fund research to determine how science inquiry and mathematical 
reasoning can be better connected to engineering design in K-12 
curricula and teacher professional development. Our report details a 
number of specific areas the research should cover.

Impacts of K-12 Engineering Education

    A variety of claims have been made for the benefits of teaching 
engineering to K-12 students, ranging from improved performance in 
related subjects, such as science and mathematics, and increased 
technological literacy to improvements in school attendance and 
retention, a better understanding of what engineers do, and an increase 
in the number of students who pursue careers in engineering. Although 
only limited reliable data are available to support these claims, we 
found the most intriguing possible benefit of K-12 engineering 
education relates to improved student learning and achievement in 
mathematics and science. The Committee believes that for engineering 
education to become a mainstream component of K-12 education there will 
have to be much more, and much higher quality outcomes-based data. To 
this end, the Committee recommended that foundations and federal 
agencies with an interest in K-12 engineering education support long-
term research to confirm and refine the findings of earlier studies of 
the impacts of engineering education. The Committee additionally 
recommended that funders of new efforts to develop and implement 
curricula for K-12 engineering education include a research component 
that will provide a basis for analyzing how design ideas and practices 
develop in students over time and determining the classroom conditions 
necessary to support this development. After a solid analytic 
foundation has been established, a rigorous evaluation should be 
undertaken to determine what works and why.

Professional Development Programs

    Compared with professional development opportunities for teaching 
other STEM subjects, the opportunities for engineering are few and far 
between. Our study found that nearly all in-service initiatives are 
associated with a few existing curricula, and many do not have one or 
more of the characteristics (e.g., activities that last for at least 
one week, ongoing in-classroom or online support following formal 
training, and opportunities for continuing education) that have been 
proven to promote teacher learning.
    The Committee found no pre-service initiatives that are likely to 
contribute significantly to the supply of qualified engineering 
teachers in the near future. Indeed, the ``qualifications'' for 
engineering educators at the K-12 level have not even been described. 
Graduates from a handful of teacher preparation programs have strong 
backgrounds in STEM subjects, including engineering, but few if any of 
them teach engineering classes in K-12 schools.
    Given this situation, the Committee recommended that the American 
Society of Engineering Education, through its Division of K-12 and Pre-
College Education, begin a national dialogue on preparing K-12 
engineering teachers to address the very different needs and 
circumstances of elementary and secondary teachers and the pros and 
cons of establishing a formal credentialing process. Participants in 
the dialogue should include leaders in K-12 teacher education in 
mathematics, science, and technology; schools of education and 
engineering; State departments of education; teacher licensing and 
certification groups; and STEM program accreditors.

Diversity

    The lack of gender and ethnic diversity in post-secondary 
engineering education and the engineering workforce in the United 
States is well documented. Based on evaluation data, analysis of 
curriculum materials, anecdotal reports, and personal observation, the 
Committee concluded that lack of diversity is probably an issue for K-
12 engineering education as well. This problem is manifested in two 
ways. First, the number of girls and under-represented minorities who 
participate in K-12 engineering education initiatives is well below 
their numbers in the general population. Second, with a few exceptions, 
curricular materials do not portray engineering in ways that seem 
likely to excite the interest of students from a variety of ethnic and 
cultural backgrounds.
    For K-12 engineering education to yield the many benefits its 
supporters claim, access and participation will have to be expanded 
considerably. To this end, the Committee recommended that K-12 
engineering curricula should be developed with special attention to 
features that appeal to students from under-represented groups, and 
programs that promote K-12 engineering education should be strategic in 
their outreach to these populations. In doing so, the Committee 
suggested, curriculum developers and outreach organizations should take 
advantage of recent market research that suggests effective ways of 
communicating about engineering to the public, such as the 2008 NAE 
publication Changing the Conversation: Messages for Improving Public 
Understanding of Engineering.

Policy and Program Issues

    Many questions remain to be answered about the best way to deliver 
engineering education in the K-12 classroom and its potential on a 
variety of parameters of interest, such as science and mathematics 
learning, technological literacy, and student interest in engineering 
as a career. Despite these uncertainties, engineering is already being 
taught in K-12 schools scattered around the country, and the trend 
appears to be upward. Given this situation, it is important that we 
consider the best way to provide guidance and support to encourage this 
trend.
    In the Committee's view, there are at least three options for 
including engineering education in U.S. K-12 schools--ad hoc infusion, 
stand-alone courses, and interconnected STEM education. These 
approaches, which fall along a continuum in terms of ease of 
implementation, are described in greater detail in the report. Each has 
strengths and weaknesses and is not mutually exclusive. Indeed, the 
Committee believes that implementation of K-12 engineering education 
must be flexible, because no single approach is likely to be acceptable 
or feasible in every district or school.
    Broader inclusion of engineering studies in the K-12 classroom also 
will be influenced by State education standards, which often determine 
the content of State assessments and, to a lesser extent, curriculum 
used in the classroom. It is worth noting that the No Child Left Behind 
Act of 2001 (NCLB; P.L. 107-110) puts considerable pressure on schools 
and teachers to prepare K-12 students to take annual assessments in 
mathematics, reading/language arts, and science, and these assessments 
are based on State learning standards. Thus NCLB currently provides 
little impetus for teaching engineering.
    The Committee believes that plans for implementing engineering 
education in a school curriculum at any level must take into account 
places and populations (e.g., small rural schools, urban schools with 
high proportions of students of low socioeconomic status, etc.) with a 
limited capacity to access engineering-education resources. Such plans 
also will benefit by approaches that emphasize coherence, that is, the 
alignment of standards, curricula, professional development, and 
student assessments, and that include support from school leadership.
    Finally, the Committee believes that, ideally, all K-12 students in 
the United States should have the option of experiencing some form of 
formal engineering studies. To help us reach that goal, the Committee 
recommended that philanthropic foundations or federal agencies with an 
interest in STEM education and school reform fund research to identify 
models of implementation for K-12 engineering education that embody the 
principles of coherence and can guide decision-making that will work 
for widely variable American school systems. The research should 
explicitly address school populations that do not currently have access 
to engineering studies and take into account the different needs and 
circumstances of elementary and secondary school populations.

Integrated STEM Education

    After considerable discussion and thought, the Committee came to 
the conclusion that the most compelling argument for K-12 engineering 
education can be made if it is not thought of as a topic unto itself, 
but rather as part of integrated STEM education. After all, in the real 
world engineering is not performed in isolation--it inevitably involves 
science, technology, and mathematics. The question is why these 
subjects should be isolated, or ``silo-ed,'' in schools.
    Although the Committee did not target K-12 STEM education 
initiatives specifically, we believe that the great majority of efforts 
to promote STEM education in the United States to date focus on either 
science or mathematics (generally not both) and rarely include 
engineering or technology (beyond the use of computers). By contrast, 
the Committee's vision of integrated STEM education in U.S. K-12 
schools sees all students graduating from high school with a level of 
``STEM literacy'' sufficient to (1) ensure their success in employment, 
post-secondary education, or both, and (2) prepare them to be 
competent, capable citizens in a technology-dependent, democratic 
society. Engineering education, because of its natural connections to 
science, mathematics, and technology, might serve as a catalyst for 
achieving this vision.
    To begin to tackle this critical issue, the Committee recommended 
that the National Science Foundation should support research to 
characterize, or define, ``STEM literacy,'' including how such literacy 
might develop over the course of a student's K-12 school experience. 
Researchers should consider not only core knowledge and skills in 
science, technology, engineering, and mathematics, but also the ``big 
ideas'' that link the four subject areas.
    Pursuing a goal of STEM literacy in K-12 will require a paradigm 
shift by teachers, administrators, textbook publishers, and policy-
makers, as well as by scientists, technologists, engineers, and 
mathematicians involved in K-12 education. Standards of learning, 
instructional materials, teacher professional development, and student 
assessments will have to be re-examined and, possibly, updated, 
revised, and coordinated. Professional societies will have to rethink 
their outreach activities to K-12 schools in light of STEM literacy. 
Colleges and universities will have to cope with student expectations 
that may run counter to traditional departmental stovepipe conceptions 
of courses, disciplines, and degrees.
    Why do we suggest such a comprehensive change? First, the Committee 
believes that STEM-literate students would be better prepared for life 
in the 21st century and better able to make career decisions or pursue 
post-secondary education. Second, integrated STEM education could 
improve teaching and learning in all four subjects by reducing 
excessive expectations for K-12 STEM teaching and learning. This does 
not mean that teaching should be ``dumbed down,'' but rather that 
teaching and learning in fewer key STEM areas should be deepened and 
that more time should be spent on the development of a set of STEM 
skills that includes engineering design and scientific inquiry.

The Important Role of Research

    A major component of our study was the collection and synthesis of 
research evidence related to 1) how children learn engineering concepts 
and skills and 2) what impact K-12 engineering education has had on a 
variety of parameters of interest. In the former case, we learned that 
certain experiences can support sophisticated understanding and skill 
development, even in young children, but several conditions seem 
important: students need sufficient classroom time; there must be 
opportunities for iterative, purposeful revisions of designs, ideas, 
models; and learning is most successful when ideas are sequenced from 
less to more complex. Overall, however, there are still significant 
gaps in our understanding of how K-12 students learn and might best be 
taught engineering.
    In the latter case, as noted previously, the most intriguing 
possible benefit of K-12 engineering education relates to improved 
student learning, achievement, and interest in mathematics and science. 
Interestingly, some of the evidence suggests that learning gains may be 
greatest for minorities and low-SES students. Limited data support 
other possible benefits, including that engineering experiences can 
increase awareness of engineering and engineers, improve understanding 
of engineering design, and increase interest in engineering-related 
careers. But none of these benefits have been shown to occur 
universally, which reinforces the need for more and higher quality 
evaluation and assessment research. As my testimony demonstrates, many 
of the Committee's recommendations address this need.
    One major obstacle to determining whether and how K-12 engineering 
education is having an impact is that, in many cases, curriculum 
developers do not build in adequate time or resources for this kind of 
research. Assessments require advanced planning and viable pre-tests. 
Longitudinal research demands even greater planning and financial 
support. Another weakness of much of the extent literature on impacts 
is a tendency to study self-selected populations. Thus the findings 
about effectiveness cannot be generalized to students who choose not to 
participate. And a great many impact studies neglect to collect 
information on subgroups, such as girls or under-represented 
minorities. This kind of disaggregation is only possible, of course, if 
the research includes a sufficiently large study population.
    We also attempted to uncover what was known from a research and 
practice standpoint about the professional development of K-12 
engineering teachers. There is a considerable literature on teacher 
professional development in other domains, including science education, 
and we believe that many of these findings can be applied to 
engineering education. However, there is almost no documented pre-
service teacher professional development in K-12 engineering, and only 
a small number of qualitative studies have been done that examine in-
service training initiatives.
    Our project did not attempt to calculate the amount of investment 
in research related to K-12 engineering. It is clear, however, that the 
greatest investment over time has been on curriculum development. A 
much, much smaller amount has been devoted to research on cognition and 
learning, on assessment and evaluation, and on professional 
development. K-12 engineering education could benefit from a major 
infusion of research dollars, as suggested by many of our 
recommendations.

Conclusion

    In the course of our efforts to understand and assess the potential 
of engineering education for K-12 students, the Committee underwent an 
epiphany of sorts. To put it simply, for engineering education to 
become more than an afterthought in elementary and secondary schools in 
this country, STEM education as a whole must be reconsidered. The 
teaching of STEM subjects must move away from its current silo-ed 
structure, which may limit student interest and performance, toward a 
more integrated whole. The Committee did not plan to come to this 
conclusion but reached this point after much thought and deliberation.
    We feel confident that our instincts are correct, but other 
organizations and individuals will have to translate our findings and 
recommendations into action. Meaningful improvements in the learning 
and teaching of engineering and movement toward interconnected STEM 
education will not come easily or quickly. Progress will be measured in 
decades, rather than months or years. The changes will require a 
sustained commitment of financial resources, the support of policy-
makers and other leaders, and the efforts of many individuals both in 
and outside of K-12 schools. Despite these challenges, the Committee is 
hopeful that the changes will be made. The potential for enriching and 
improving K-12 STEM education is real, and engineering education can be 
the catalyst.
    I thank the Subcommittee for the invitation to testify today and 
welcome your questions.

                    Biography for Linda P.B. Katehi
    Linda Katehi became the sixth Chancellor of the University of 
California, Davis, on August 17, 2009. As Chief Executive Officer, she 
oversees all aspects of the University's teaching, research and public 
service mission.
    Chancellor Katehi also holds UC-Davis faculty appointments in 
electrical and computer engineering and in women and gender studies. A 
member of the National Academy of Engineering, she chairs the 
Presidents Committee for the National Medal of Science and is Chair of 
the Secretary of Commerces Committee for the National Medal of 
Technology and Innovation. She is a fellow and board member of the 
American Association for the Advancement of Science and a member of 
many other national boards and committees.
    Previously, Chancellor Katehi served as provost and Vice Chancellor 
for academic affairs at the University of Illinois at Urbana-Champaign; 
the John A. Edwardson Dean of Engineering and Professor of Electrical 
and Computer Engineering at Purdue University; and Associate Dean for 
Academic Affairs and Graduate Education in the College of Engineering 
and Professor of Electrical Engineering and Computer Science at the 
University of Michigan.
    Since her early years as a faculty member, Chancellor Katehi has 
focused on expanding research opportunities for undergraduates and 
improving the education and professional experience of graduate 
students, with an emphasis on under-represented groups. She has 
mentored more than 70 post-doctoral fellows, doctoral and Master's 
students in electrical and computer engineering. Twenty-one of the 42 
doctoral students who graduated under her supervision have become 
faculty members in research universities in the United States and 
abroad.
    Her work in electronic circuit design has led to numerous national 
and international awards both as a technical leader and educator, 16 
U.S. patents, and an additional six U.S. patent applications. She is 
the author or co-author of 10 book chapters and about 600 refereed 
publications in journals and symposia proceedings.
    She earned her Bachelor's degree in electrical engineering from the 
National Technical University of Athens, Greece, in 1977, and her 
Master's and doctoral degrees in electrical engineering from UCLA in 
1981. and 1984, respectively.
    The University of California, Davis, is one of 10 UC campuses and 
one of a select group of 62 North American universities admitted to 
membership in the prestigious Association of American Universities.
    For 100 years, UC-Davis has engaged in teaching, research and 
public service that matter to California and transform the world. 
Located close to the State capital, UC-Davis has 31,000 students, an 
annual research budget that exceeds $600 million, a comprehensive 
health system and 13 specialized research centers. The university 
offers interdisciplinary graduate study and more than 1.00 
undergraduate majors in four colleges--Agricultural and Environmental 
Sciences, Biological Sciences, Engineering, and Letters and Science--
and advanced degrees from six professional schools--Education, Law, 
Management, Medicine, Veterinary Medicine and the Betty Irene Moore 
School of Nursing.

    Chairman Lipinski. Thank you, Dr. Katehi.
    Dr. Peterson.

   STATEMENT OF DR. THOMAS W. PETERSON, ASSISTANT DIRECTOR, 
   ENGINEERING DIRECTORATE, NATIONAL SCIENCE FOUNDATION (NSF)

    Dr. Peterson. Chairman Lipinski, Ranking Member Ehlers and 
distinguished Members of the Subcommittee on Research and 
Science Education, I want to thank you for inviting me to 
participate in this hearing on engineering and K-12 education. 
I am Thomas Peterson, the Assistant Director for Engineering at 
the National Science Foundation.
    Every student who takes either the SAT or the ACT college 
entrance exam is asked to indicate the discipline of study that 
they intend to pursue after graduation from high school. The 
fraction of total test takers who intend to pursue engineering 
declined from 7.7 percent in 1994 to 4.6 percent in 2006. As a 
former engineering dean, I along with my colleagues, Dr. 
Katehi, Dr. Miaoulis and Dr. Pines, all either current or 
former engineering deans themselves, have firsthand experience 
with the challenges of finding a diverse and qualified pipeline 
of domestic students interested in pursuing the study of 
engineering. The introduction to basic engineering concepts in 
pre-college curricula, even in the elementary and middle 
schools, can be an important factor in addressing these 
challenges. Engineering education in the K-12 curriculum holds 
promise to encourage student learning in fundamental science 
and mathematics, to raise the level of understanding and 
awareness of engineering and what engineers do, to stimulate 
interest in a rapidly changing demographic population to pursue 
careers in engineering and to increase the basic technological 
literacy for all of our citizens. In other words, far from 
being an additional burden for schools, engineering education 
in the K-12 environment is an enabler for motivating students 
to learn other aspects of the curriculum as well.
    The key to inclusion of engineering in the K-12 curriculum 
is the emphasis on the elementary principles of engineering 
design. It illustrates the importance and application of the 
basic science and mathematics principles. It stimulates 
creativity within students. It encourages them to work in 
partnership with other students because design is fundamentally 
a team-based activity. It helps to develop communication skills 
as students work together and describe their work to each 
other, and it even promotes a platform for the consideration of 
important social, environmental and ethical issues.
    At the National Science Foundation, the Engineering and the 
Education and Human Resources Directorates have partnered on 
numerous K-12 activities. For example, we have teamed to 
support a GK-12 fellowship program at the University of 
Colorado in Boulder and these fellows work with Skyline High 
School in Longmont to bring highly interactive, hands-on 
engineering projects into the classroom. Another partnership 
supports Design Squad, a PBS reality competition series with an 
accompanying outreach campaign and web site designed to inspire 
a new generation of engineers. The series is making a special 
effort to reach out to girls and minorities, groups that are 
critically under-represented in engineering, as we all know. 
The Engineering is Elementary Project developed by the National 
Center for Technological Literacy with NSF support holds 
promise to reach very deeply into elementary schools throughout 
the Nation. And it is also noteworthy and reassuring that 
support for engineering in K-12 education extends beyond 
government agencies like the NSF. In 1992, FIRST Robotics, an 
extracurricular program, was launched in New Hampshire under 
the visionary leadership of Dean Kamen. While he received 
support from NSF in the early stages of that competition, FIRST 
Robotics is now supported by industry partners in over 2,000 
high schools in the United States, and a significant number of 
alumni are now studying in engineering colleges.
    In summary, the NSF is not about providing long-term and 
sustained funding for programs. We provide the support for new 
ideas, new curriculum, new approaches to engineering education 
and educational pedagogy. We provide the support for targeted 
programs in schools and institutions with new and creative 
ideas. The challenge is twofold. First, we must find the 
support to continue programs developed under NSF sponsorship 
once NSF support is no longer provided, and second, we must 
find the means to financially support the dissemination of 
these best ideas developed through NSF support to a much 
broader range of institutions and schools.
    Mr. Chairman, this concludes my remarks and I would be 
happy to answer any questions following the testimony.
    [The prepared statement of Dr. Peterson follows:]
                Prepared Statement of Thomas W. Peterson
    Chairman Lipinski, Ranking Member Ehlers, and distinguished Members 
of the Subcommittee on Research and Science Education, thank you for 
inviting me to participate in this hearing on ``Engineering in K-12 
Education.'' I am Dr. Thomas Peterson, Assistant Director for 
Engineering at the National Science Foundation.
    Today I will address the challenges we face in attracting and 
retaining talented students in engineering education as well as your 
questions focusing on: (1) How engineering education is incorporated 
into NSF's K-12 STEM education programs; (2) What the current state of 
research on engineering education is at the K-12 level; (3) What the 
current level of support and scope of NSF-funded research on K-12 
engineering education is; and, (4) What metrics and methodologies exist 
for evaluation and assessment of K-12 engineering education.

The Challenge We Face

    Every student who takes either the SAT\1\ or ACT college entrance 
examination is asked to indicate the discipline of study that they 
intend to pursue after graduation from high school. An analysis of this 
data reveals that the fraction of total test takers (both SAT and ACT) 
who intend to pursue engineering declined from 7.7 percent in 1994 to 
4.6 percent in 2006. In absolute numbers, Almost 150,000 test takers 
expressed a preference for engineering in 1994 compared to fewer than 
120,000 in 2006. In 1983 about 1.9 percent of all four-year 
baccalaureate degrees received by women were in engineering. Twenty 
years later, 1.7 percent of female baccalaureate recipients were 
engineers.
---------------------------------------------------------------------------
    \1\ Source: Derived from data provided by the College Board. 
Copyright  1993-2008 The College Board. www.collegeboard.com
---------------------------------------------------------------------------
    As a former Engineering Dean I, along with my colleagues Dr. Katehi 
and Dr. Miaoulis, also both former Engineering Deans, have first-hand 
experience in dealing with the challenges of finding a diverse and 
qualified pipeline of domestic students interested in pursuing the 
study of engineering. There are many extenuating factors that 
contribute to this situation, but I personally believe that the absence 
of introducing basic engineering concepts in pre-college curricula, 
even down to the elementary and middle school levels, is a dominant 
factor in this situation. Not only will the profession of engineering 
benefit, but so will society as a whole, if a much larger fraction of 
our general populace understands the basic elements of the highly 
technological society in which we all live.
    I believe that the presence of engineering education in the K-12 
curriculum holds promise to encourage student learning in the 
fundamental science and mathematics subjects, to raise the level of 
understanding and awareness of engineering and what engineers do, to 
stimulate interest in a rapidly changing demographic population to 
pursue careers in engineering, and to increase the basic technological 
literacy for all of our citizens. In other words, far from being an 
additional burden that must be shouldered by the already challenged 
curriculum, engineering education in the K-12 environment should be 
viewed as an enabler for motivating students to learn other aspects in 
the curriculum as well.

Engineering Education at the K-12 level--Influence of Early Exposure

    Engineering in the K-12 curriculum provides instruction in numerous 
basic areas, but the key to inclusion of engineering concepts is the 
emphasis on engineering design. Previously, the standard engineering 
curriculum at a university culminated in a year-long course in the 
concepts and practice of engineering design. Undergraduate engineering 
students would see little, if any of the basic elements of engineering 
design until they reached that course in the senior year. Engineering 
design, after all, is that element, more than any other that separates 
and distinguishes engineering from the basic sciences. More recently, 
however, Engineering, both the profession and the academic discipline, 
has come to realize that this approach of postponing the introduction 
of design principles until the last possible moment in one's 
educational career is counterproductive and frustrating for many 
students. After all, in this previous approach students never really 
truly understood the basis for engineering, the joy of discovery and 
creative endeavor, until they had almost completed their studies. As a 
consequence, a large fraction of students who would otherwise become 
productive practicing engineers left the field in favor of other 
pursuits.
    The modern engineering curriculum, while still maintaining a 
capstone design experience, now begins the engineering curriculum with 
an introduction to the basic concepts of design. Why? Because this 
structure allows us to demonstrate to students very early on what 
engineering is all about.
    For exactly this same reason, the inclusion of engineering design 
principles within the K-12 education system could not only increase the 
level of understanding of what engineering is, but it can also provide 
a motivation to students for learning basic concepts in science and 
mathematics, which will always be the foundational building blocks of 
engineering. Obviously, engineering design in its complete 
implementation by a professional engineer is an elaborate and complex 
process. Nonetheless, there are many elements of the design process 
that can easily be illustrated even at elementary school levels. Design 
is an iterative process, it is illustrative of the concept that more 
than one solution to a problem may exist, and that the major challenge 
is to find the best, or optimum solution. Finally, it illustrates the 
importance and application of basic science and mathematics principles.
    Engineering design also stimulates creativity within students. It 
encourages them to work in partnership with other students because 
design is fundamentally a team-based activity. It helps to develop 
communication skills as students work together and describe their work 
to each other, and even provides a platform for the consideration of 
important social, environmental and ethical issues.

Support and Scope of NSF-funded research on K-12 Engineering Education

    The National Science Foundation plays an important role in 
encouraging the development and dissemination of materials for 
engineering education in the K-12 environment. In addition to support 
provided by the Education and Human Resources (EHR) directorate, the 
Engineering directorate, through our division of Engineering Education 
and Centers (or EEC), has supported numerous engineering education 
programs, the primary purpose of many being to introduce engineering 
education into the K-12 curriculum. For example, the Innovations in 
Engineering Education, Curriculum, and Infrastructure (IEECI) program 
supports research which addresses three basic issues related to 
engineering education: (1) how students learn, (2) how to attract a 
more talented and diverse student body, and (3), how to evaluate and 
assess successful teaching, advising, and mentoring. One of the project 
areas we directly solicited ideas for was ``Strategic Supply-Chain 
Partnerships for Engineering,'' where we strongly encouraged the 
establishment of ``leadership partners'' between Engineering Deans and 
K-12 school district Superintendents and Principals. Such partnerships 
could improve guidance and cooperation on developing pre-engineering 
curricula, career opportunities for students, K-12 faculty development, 
and, importantly, provide a stronger image of engineering in local 
communities.
    Just this past summer, EEC supported an Engineering Education 
Summit here in Washington, where we brought together the thought 
leaders from those key universities (such as Purdue, Virginia Tech, 
Clemson and Utah State) focusing directly on engineering education. 
While much of their focus was on improving the engineering curriculum 
in universities, these engineering education programs are leading the 
profession in establishing partnerships with Colleges of Education to 
include engineering content in elementary, middle and high school 
teacher preparation. Just as Education colleges turn to colleges of 
Science for content preparation in chemistry, physics and biology, we 
want them to turn to colleges of engineering for content preparation in 
engineering.

Engineering Education and NSF STEM Education programs

    The Engineering and EHR directorates have partnered on numerous K-
12 activities. For example, we have teamed to support a GK-12 
Fellowship program at the University of Colorado, Boulder. These 
Fellows are working with Skyline High School (SHS) in Longmont to bring 
highly interactive, hands-on projects into the classroom. The projects 
are targeted at moderately at-risk students and allow them to receive 
high school credit. SHS has a large Hispanic student population and is 
a school where 49 percent of the students qualify for free and reduced 
lunches. SHS also has the largest English Language Learners program in 
the District.
    As a direct result of the funding, the initial new STEM course 
offerings introduced include ``WIRED'' (a technology-based course 
designed for all 9th grade students), Exploration in STEM, Engineering 
Design I, Introduction to Computer Programming, AP Computer Science, 
and AP Chemistry. The enrollment demographics in these courses are 
encouraging. 40 percent of students accepted into the academies are 
minority and 33 percent are female.
    Another EHR/ENG partnership supports Design Squad, a PBS reality 
competition series-with an accompanying outreach campaign and web site 
designed to inspire a new generation of engineers. Over 10 weeks, six 
high school and college-aged kids learn to think smart, build fast, and 
contend with a wild array of engineering challenges-all for real-life 
clients. Targeted to nine- to twelve-year-olds and fun for people of 
all ages, this fast-paced TV series is the fuel behind a national, 
multimedia initiative designed to attract kids to engineering.
    The series is making a special effort to reach out to girls and 
minorities, groups that are critically under-represented--comprising 
just 11 percent and 21 percent of engineers, respectively. By casting 
teens from a range of racial, ethnic, and socioeconomic backgrounds (50 
percent of the Season I and II cast are female and 56 percent 
minority), Design Squad provides positive, diverse role models for 
younger viewers. These casting decisions have a measurable impact. 16 
percent of the Design Squad audience is comprised of Black or African 
American households and 27 percent is comprised of Hispanic households.
    Since its premiere in 2007, Design Squad has conducted 71 trainings 
for 3,479 engineers and educators, and engaged 89,453 kids and families 
with hands-on engineering activities through 263 events and workshops 
across the country. 64 engineering and education organizations have 
become formal partners, and 2,700 programs have used Design Squad's 
educational materials, which include six educators' guides (containing 
step-by-step directions and leaders notes for 30 activities) targeted 
to after-school providers, engineers, and teachers. Recent data 
estimates that approximately 500,000 viewers watch Design Squad each 
week. A selected list of current K-12 Engineering projects supported by 
EHR is found in the Appendix.
    Finally, it is noteworthy, and reassuring, that interest and 
support in expanding opportunities in engineering among K-12 students 
extends beyond government-related programs. In 1992, FIRST Robotics, an 
extra-curricular program, was launched in New Hampshire under the 
visionary leadership of Dean Kamen. Dean received support from NSF in 
the early stages of his national robotics competition. FIRST Robotics 
is now supported in over 2000 high schools in the U.S. and a 
significant number of FIRST alumni are now studying in engineering 
colleges. Another program, Project Lead the Way, started in New York 
State in the early 1990s, is a curricular program with engineering-
based courses now embedded in about 3,000 schools and boasts student 
participation of upwards of 300,000 students. Programs like this (and 
several others) will hopefully motivate boys and girls of all 
ethnicities to become the innovative engineers of the future.

Evaluation and Assessment

    Assessment for success in such programs is absolutely critical. 
Much of our assessment analysis to date has been anecdotal, and true 
successful assessment metrics can only be defined over a fairly long 
time horizon. For example, how many students who experience the 
excitement of discovery and creativity through simple engineering 
projects in the third and fourth grades end up pursuing academic 
studies and professional careers in engineering? Obviously longitudinal 
analyses over decades are required to quantitatively answer that 
question. But we must begin collecting that information now.
    The Engineering and Education and Human Resources directorates held 
a joint retreat this past summer, for the purpose of delineating the 
many opportunities for continued and future collaborations on 
engineering education issues of particular interest to both of us. One 
topic of discussion was precisely this question of developing better 
metrics for assessment and evaluation. Suggested metrics and measures 
for evaluating our investments in K-12 engineering education included:

        <bullet>  Number of K-12 development intensive projects that 
        employ appropriate methods to evaluate efficacy and that apply 
        them rigorously

        <bullet>  Number of teachers and students who engage in the 
        capacity building efforts, including increasing awareness, 
        interests, and skills in K-12 engineering education.

Summary

    The National Science Foundation continues to play a role in this 
important task of educating future engineers and society decision-
makers. Moreover, an equally important responsibility is to provide the 
intellectual rationale and framework for developing educational tools 
that will give all our citizens the basic engineering and technological 
skills to live in this complex society. But we must also engage local 
school districts and the Department of Education in this endeavor. The 
Boston Museum of Science, which received support from NSF for 
technological literacy, directs the National Center for Technological 
Literacy and is, I believe, one good example of an approach to take in 
this regard.
    The NSF is not about providing long-term and sustained funding for 
programs. We provide the support for new ideas, new curricula, new 
approaches to engineering education and educational pedagogy. We 
provide that support for targeted programs in schools and institutions 
with new and creative ideas. The real challenge is twofold. First, we 
must find the support to continue programs developed under NSF 
Sponsorship once NSF support is no longer available. Second, and 
equally important, is to find the means to financially support the 
dissemination of the best ideas developed through NSF support to a much 
broader range of institutions and schools. For this, we must rely on 
individual school districts throughout our country. I believe that the 
Skyline High School in Longmont, Colorado, mentioned above, is one 
example that shows promise in this regard.
    Mr. Chairman, this concludes my remarks and I would be happy to 
answer any questions at this time.

APPENDIX

                 Active Engineering Education projects

                                 in the

               Education and Human Resources Directorate

                      National Science Foundation

<bullet>  UTeachEngineering: Training Secondary Teachers to Deliver 
Design-Based Engineering Instruction (MSP, 0831811, University of Texas 
at Austin)

    The University of Texas at Austin's Cockrell School of Engineering 
is partnering with the successful UTeach Natural Sciences program and 
the Austin Independent School District to develop and deliver 
UTeachEngineering, an innovative, design- and challenge-based 
curriculum for preparing secondary teachers of engineering. To meet the 
growing need for engineering teachers in Texas, and to serve as a model 
in engineering education across the Nation, UTeachEngineering has the 
following four professional development pathways to teacher 
preparedness, two for in-service teachers and two for pre-service 
teachers: UTeach Master of Arts in Science and Engineering Education 
(MASEE); Engineering Summer Institutes for Teachers (ESIT); Engineering 
Certification Track for Physics Majors; and Teacher Preparation Track 
for Engineering Majors. UTeachEngineering anticipates reaching 650 
teachers (80 pre-service and 570 in-service) over the first five years. 
In the future, it is expected that UTeachEngineering will be sustained 
as a vital program at the University of Texas at Austin. 
UTeachEngineering is firmly rooted in current research in the field of 
engineering education and affords a much-needed opportunity to study 
the teaching and learning of engineering. While the focused goal of 
UTeachEngineering is to train a cadre of secondary teachers, the 
project's vision is that all students are ``engineering enabled,'' 
acquiring the design and interaction skills that would enable them to 
be successful in an engineering career should they choose one, while 
enhancing their lives and participation as global citizens even if they 
do not become engineers.

<bullet>  Partnership for Student Success in Science (MSP, 0315041, 
Palo Alto Unified School District)

    The Partnership consisting of nine Silicon Valley school districts 
and San Jose State University's (SJSU) Colleges of Engineering and 
Education is taking a regional approach to improving science education 
by building institutional capacity, instructional quality, and student 
achievement in a major urban region and providing pre-service 
preparation, new teacher induction, on-going in-service and leadership 
development for over 1,300 pre-service students and in-service 
teachers. Elementary and middle school students experience exemplary 
inquiry and laboratory-based lessons linked appropriately to math, 
literacy, and technology resulting in higher achievement. Engineering 
faculty devote time as consultants in middle schools. While they 
contribute scholarship and content background they also learn by 
viewing the variety of teaching strategies that serve diverse student 
needs. Undergraduate engineering education is improved through close 
collaboration between engineers and teachers.

<bullet>  GK-12--Engineering in Practice for a Sustainable Future (GK-
12, 0538655, University of Oklahoma-Norman Campus)

    This project builds upon two awards: The Authentic Teaching 
Alliance (ATA); and the Adventure Engineering (AE). The outcomes from 
the first two grants include: (1) a dual degree program in engineering 
education; (2) greater than 50 percent of the undergraduate Fellows 
were accepted into STEM graduate programs; (3) four competitive grants 
were awarded to the ATA teachers and Fellows; (4) over 100 teaching and 
learning modules were developed of which 30 are available through the 
Internet on the ATA web site; and (5) improvements in the Fellows 
communications and teaching skills. The current work focuses on the 
integration of the 100 units referenced to include more utilization of 
the engineering processes; conducting summer engineering academies 
(SEA) that would serve to disseminate the material and be professional 
development opportunities for the teachers; and preparing Future 
Faculty through a proposed dual STEM education degree between the 
Colleges of Engineering and Education.

<bullet>  NJ Alliance for Engineering Education (GK-12, 0742462, 
Stevens Institute of Technology)

    The objective of the New Jersey Alliance for Engineering Education 
(NJAEE) is to create a partnership that promotes the integration of 
problem-solving, innovation and inventiveness within mainstream high 
school STEM curricula, while fostering the cross-fertilization of 
innovative teaching methods across K-12 and university level education. 
A cohort of graduate engineering students (Fellows) is collaborating 
with engineering professors, education professionals, and high school 
STEM teachers to design, develop, and implement innovative and 
motivating educational modules based on the Fellows' research areas. 
The modules will be aligned with the NJ science curriculum requirements 
and will incorporate themes of engineering design, innovation and 
inventiveness within the STEM curriculum. Stevens Institute of 
Technology (SIT) faculty, education professionals and Lawrence Hall of 
Science staff will collaborate in the creation of a new course 
``Communicating Engineering,'' which all Fellows will experience. While 
completing their engineering studies, Fellows will also complete a 
nine-credit graduate certificate in education from SIT. NJAEE will 
enhance STEM learning for approximately 11,700 high school students, 
will provide considerable professional development opportunities to 130 
participating K-12 teachers, and will immerse the next generation of 
engineering professors in innovative teaching methodologies.

<bullet>  Transforming Elementary Science Learning through LEGOTM 
Engineering Design (REESE, 0633952, Tufts University)

    This project involves development, implementation, and evaluation 
of innovative engineering-based science curriculum for grades 3-5. A 
major activity is to measure what and how students learn from 
engineering design challenges tailored to standards-based science 
concepts. Another aim is to establish best practices for designing 
engineering curricula that are more effective at promoting students' 
fundamental understanding of and interest in science content. The third 
objective is to determine whether engineering contexts improve 
elementary teachers' practice of science instruction. The research team 
seeks to advance theory, design, and practice in the emerging field of 
elementary school engineering education, which they believe can 
motivate and deepen the learning of science. To accomplish the project 
goals, researchers are collaborating closely with participating Boston-
area teachers to develop a series of curriculum modules that pose 
engineering design challenges whose solutions require understanding of 
specific science content. The learning objectives of these modules will 
be aligned with the National Science Education Standards (NSES) for 
grades K-4 and the Massachusetts Science and Technology/Engineering 
Curriculum Frameworks for grades 3-5. The instruction and assessments 
will be designed according to three sets of requirements: (1) the 
concerns and experience of the collaborating classroom teachers, (2) 
the Project 2061 criteria for science curriculum set forth by the 
American Association for the Advancement of Science, and (3) the 
analytical, creative, and practical domains of Sternberg's Triarchic 
Theory of Intelligence. The curriculum will use the LEGOTM MINDSTORMS 
toolset for prototype construction and ROBOLABTM software for algorithm 
development. These instructional materials have been proven to be 
engaging and authentic tools for children's engineering. The data from 
teacher and student studies will be analyzed to answer the following 
three driving research questions: (1) Does engineering-based science 
instruction improve 3rd-5th grade students' analytical, creative, 
practical abilities related to science content, as well as their memory 
of science content? (2) How are the attitude, engagement, and self-
efficacy of both teachers and students affected by the use of 
engineering design problems to teach science? (3) Does the efficacy of 
engineering based science instruction depend on demographic 
characteristics of the students? The primary intellectual merit of the 
proposed activity includes (1) the contribution of needed systematic 
research on the efficacy of elementary-level engineering education for 
science instruction, and (2) the development of new and potentially 
more effective methods for engineering-based science instruction.

<bullet>  Exploring Content Standards for Engineering Education in K-12 
(Discovery Research K-12, 0733584, National Academy of Sciences) and

   National Symposium on K-12 Engineering Education (Discovery Research 
K-12, 0935879. National Academy of Sciences)

    The National Academy of Sciences is assessing the potential value 
and feasibility of developing and implementing K-12 content standards 
for engineering education. The specific objectives of this exploratory 
project, to be carried out by the National Academy of Engineering 
(NAE), are (1) to review existing efforts to define what K-12 students 
should know, (2) to identify elements of existing standards documents 
for K-12 science, mathematics, and technology that could link to 
engineering, (3) to consider how the various possible purposes for K-12 
engineering education might affect the content and implementation of 
standards, and (4) to suggest what changes to educational policies, 
programs, and practices at the national and State levels might be 
needed to develop and implement K-12 engineering standards. To 
accomplish these objectives, the project will conduct literature 
reviews, two commissioned background papers, three meetings of the 
project committee, and a two-day workshop to solicit expert views on 
the subject. The principal product of the project will be a peer-
reviewed workshop summary report, which will be distributed to key 
stakeholders and presented in various professional meetings. This 
report is expected to set the stage for discussions and future actions 
related to the establishment of engineering standards.
    The National Academy of Engineering and the National Research 
Council will hold a workshop to disseminate the findings of a 
privately-funded, two-year study of the status and nature of efforts to 
teach engineering to U.S. K-12 students. The symposium and other 
dissemination activities inform key stakeholders about the role and 
potential of engineering as an element of K-12 STEM education and also 
inform the programmatic activities of organizations and individuals 
concerned about engineering education. The report provides a brief 
history of engineering, reviews the evidence for the benefits of K-12 
engineering education, discusses a large number of curriculum projects 
and associated teacher professional development efforts, summarizes the 
cognitive science literature related to how students learn engineering 
concepts and practices, and concludes with the Committee's findings and 
recommendations. The report is of special interest to individuals and 
groups interested in improving the quality of K-12 STEM education in 
the U.S.: engineering educators, policy-makers, employers, and those 
concerned with development of the technical workforce, as well as those 
working to boost technological literacy of the general public. For 
educational researchers and for cognitive scientists, the report 
exposes a rich set of questions related to how and under what 
conditions students come to understand engineering and design thinking.

<bullet>  Family Engineering for Parents and Elementary-Aged Children 
(ISE, 0741709, Michigan Technological University)

    Michigan Technological University is collaborating with David Heil 
and Associates to implement the Family Engineering Program, working in 
conjunction with student chapters of engineering societies such as the 
American Society for Engineering Education (ASEE), the Society of 
Hispanic Professionals (SHP) and a host of youth and community 
organizations. The Family Engineering Program is designed to increase 
technological literacy by introducing children ages 5-12 and their 
parents/caregivers to the field of engineering using the principles of 
design. The project will reach socio-economically diverse audiences in 
the upper peninsula of Michigan including Native American, Hispanic, 
Asian, and African American families. The secondary audience includes 
university STEM majors, informal science educators, and STEM 
professionals that are trained to deliver the program to families. A 
well-researched five step engineering design process utilized in the 
school-based Engineering is Elementary curriculum will be incorporated 
into mini design challenges and activities based in a variety of fields 
such as agricultural, chemical, environmental, and biomedical 
engineering. Deliverables include the Family Engineering event model, 
Family Engineering Activity Guide, Family Engineering Nights, project 
web site, and facilitator training workshops. It is anticipated that 
300 facilitators and 7,000-10,000 parents and children will be directly 
impacted by this effort, while facilitator training may result in more 
than 27,000 program participants.

<bullet>  A Comprehensive Pathway for K-Gray Engineering Education 
(NSDL, 0532684, Colorado School of Mines)

    The K-Gray Engineering Education Pathway is the engineering 
``wing'' of the National Science Digital Library (NSDL). It provides a 
comprehensive engineering portal for high-quality teaching and learning 
resources in engineering, computer science, information technology and 
engineering technology. Project goals are to: 1) merge NEEDS and 
TeachEngineering into a unified K-Gray engineering educational digital 
library, 2) significantly grow high quality resources in the NSDL 
Engineering Pathway in a sustainable way, 3) align the unified 
curricular materials with appropriate undergraduate and K-12 
educational standards, 4) grow the participation of content providers 
and users, 5) enhance quality control and review protocols for 
Engineering Pathway content, and 6) create a nonprofit strategy and 
partnership for the sustainability of the Engineering Pathway. This 
project also expands the Pathway's gender equity and ethnic diversity 
components by cataloging and reviewing curricular resources created by 
female-centric and minority-serving organizations. The K-Gray 
Engineering Education Pathway is having far-reaching impact by engaging 
K-12 communities and institutions of higher education, engineering 
professional societies, engineering research centers, NSF K-12 
programs, and ABET.

<bullet>  Engineering Equity Extension Service (GSE, 0533520, National 
Academy of Sciences)

    The Center for the Advancement of Scholarship on Engineering 
Education of the National Academy of Engineering will, over a five-year 
period, implement an Engineering Equity Extension Service (EEES) as a 
comprehensive research-based consultative and peer mentoring 
infrastructure in support of enhanced gender equity in engineering 
education in the U.S. Based on key leverage points identified from the 
literature, EEES will focus its efforts on bringing expertise in gender 
studies and the research base on science and engineering education to 
a) academic preparation for engineering study for students at the 
middle school (grade 6) through collegiate sophomore levels, b) the 
out-of-class social environment, c) the in-class social environment, c) 
curricular content, d) curricular scope and sequence design, e) 
curriculum delivery and instructional style. A key part of our strategy 
is reaching those teachers and faculty who do not have an a priori 
interest in gender equity activities by suffusing attention to gender 
equity into other core areas of concern. The study team is developing a 
handbook on proposing and managing engineering education projects and 
conducting workshops on this topic at national and regional engineering 
meetings. The handbook will fuse attention to gender equity, 
engineering education, and project management into a seamless whole.

<bullet>  Examining Engineering Perceptions, Aspirations and Identity 
among Young Girls (GSE, 0734091, Purdue University)

    The primary goal of this research project is to examine girls' 
(grades 1-5) conceptions of self and engineering and how these 
conceptions are shaped by their engagement and learning in various 
engineering activities. More specifically, the study seeks to learn how 
girls approach, experience, and interact with engineering activities 
and how their learning informs who girls think they are (what community 
of practice they participate in) and who they want to be (what 
communities of practice they aspire to). The context of this research 
study is Purdue University's Institute for P-12 Engineering Research 
and Learning (INSPIRE), a new initiative focused on creating an 
engineering literate society through P-12 engineering education 
research and scholarship. The specific research questions that guide 
the study include: 1) What are elementary school children's perceptions 
of engineering and career aspirations? How do girls' perceptions and 
aspirations compare to boys' perceptions and aspirations? 2) What do 
elementary school girls report as who they think they are and who they 
want to be? How do girls' self-images compare to boys' self-images? 3) 
What new engineering content knowledge do children construct and are 
there gender-related differences in the new knowledge children 
construct? and 4) What is the relationship between girls' perceptions, 
career aspirations, identity development, and learning in engineering? 
Using a mixed-methods approach (Engineering Identity Development Scale 
[EIDS], Pre/Post Engineering Knowledge Tests, semi-structured 
interviews, and document review), the three year study measures 
individual differences in relational, school, and occupational 
identity; engineering perceptions and aspirations; and engineering 
content knowledge construction through problem solving and modeling. 
The research team works with elementary school teachers and students 
from school sites in Detroit, MI and Lafayette, IN.

<bullet>  Girls Understand, Imagine, and Dream Engineering (GSE, 
0735000, Girl Scouts of the USA)

    Girl Scouts of the USA (GSUSA) is developing three separate 
culturally-relevant parent/girl engineering career toolkits entitled 
``GUIDE--Girls Understand, Imagine and Dream Engineering,'' for 
dissemination to African American, Native American and Hispanic parents 
and their daughters ages 13-17. The goal of this informal education 
resource is to inform and engage parents from the three racial/ethnic 
groups about engineering in a culturally-relevant manner, so that they 
may take an active role in encouraging their daughters to consider 
engineering careers. The GUIDE Toolkit will consist of: (1) the GUIDE 
Handbook, a customized, culturally-appropriate engineering career 
resource for use with both parents and girls; and (2) GUIDE Workshops 
to introduce the GUIDE Handbook to parents and girls from the target 
racial groups at Girl Scout councils and the larger community.

                    Biography for Thomas W. Peterson
    Thomas W. Peterson is Assistant Director of the National Science 
Foundation, for the Engineering Directorate. Prior to joining NSF, he 
was Dean of the College of Engineering at the University of Arizona. He 
received his B.S. degree from Tufts University, M.S. from the 
University of Arizona, and Ph.D. from the California Institute of 
Technology, all in Chemical Engineering. He has served on the faculty 
of the University of Arizona since 1977, as head of the Chemical and 
Environmental Engineering Department from 1990-1998, and as Dean from 
1998 until January 2009.
    During his service as Dean, Dr. Peterson was a member of the 
Executive Board for the Engineering Deans' Council of ASEE, and was 
Vice-Chair of EDC from 2007-2008. He has served on the Board of 
Directors of the Council for Chemical Research, and on the Engineering 
Accreditation Commission (EAC) of the Accreditation Board for 
Engineering and Technology (ABET). He was one of the founding members 
of the Global Engineering Deans' Council, and at Arizona made global 
education experiences a high priority for his engineering students. He 
is a Fellow of the American Institute of Chemical Engineers and a 
recipient of the Kenneth T. Whitby Award from the American Association 
for Aerosol Research.
    The Engineering Directorate at NSF provides critical support for 
the Nation's engineering research and education activities, and is a 
driving force behind the education and development of the Nation's 
engineering workforce. With a budget of approximately $640 million, the 
directorate supports fundamental and transformative research, the 
creation of cutting edge facilities and tools, broad interdisciplinary 
collaborations, and through its Centers and Small Business Innovation 
Research programs, enhances the competitiveness of U.S. companies.

    Chairman Lipinski. Thank you, Dr. Peterson.
    Dr. Miaoulis.

  STATEMENT OF DR. IOANNIS MIAOULIS, PRESIDENT AND DIRECTOR, 
 MUSEUM OF SCIENCE, BOSTON; FOUNDING DIRECTOR, NATIONAL CENTER 
                   FOR TECHNOLOGICAL LITERACY

    Dr. Miaoulis. Mr. Chairman, Ranking Member Ehlers and 
Members of the Committee, I would also like to thank you for 
calling this hearing and inviting me to share my experiences. 
K-12 engineering has been my passion since 1993. I was then the 
Dean of the School of Engineering at Tufts University, and now 
my passion continues as President and Director of the Museum of 
Science in Boston.
    We claim that science is a discipline that teaches children 
about the world around them, but I would like you to take a 
look at this room and tell me how many things you see around 
you are natural things and how many are human made, and I would 
argue that about 98 percent of the world around us is human 
made. If you look at the science curriculum in schools, it is 
primarily focused on the natural world, so it captures pretty 
much two percent of the world of children, and we leave out 98 
percent. So understanding 98 percent of the world around us, I 
would argue, is basic literacy, and is not an extra. So 
technological literacy is basic literacy. But there are a few 
other reasons why engineering should be part of the formal 
curriculum.
    Engineering offers a wonderful vehicle for problem solving 
and project-based learning, pulling all the other disciplines 
together and bringing them to life. It brings, in particular, 
math and science to life and makes them relevant, and we all 
know that relevance in science is what attracts or retains 
girls in science. If you look at the science fields that women 
gravitate to, they are the ones that truly benefit the world, 
like medicine, veterinary medicine, life sciences, 
environmental engineering. Also, by introducing engineering 
into schools, we will ensure that we have a technologically 
literate and diverse workforce. Seven out of 10 U.S. engineers 
have had a relative that is an engineer, so it is parents that 
mentor the kids to become engineers. And popular television 
does not help either, because for all of the wonderful popular 
shows that glorify wonderful professions such as law and 
medicine, there are no real engineers in popular TV to 
encourage kids to go into engineering. Actually, the only 
engineer in prime time TV is Homer Simpson from the Simpsons, 
the cartoon, which is unfortunate. By introducing engineering 
as a main discipline, kids of all ethnic groups would know what 
it is and they can choose to pursue it or not.
    At the National Center for Technological Literacy, which is 
housed within the Museum of Science, we do three things to 
promote engineering literacy nationwide, and, please, if I 
could have the slide so that we are all looking at it as I am 
speaking. I would appreciate it.
    [See slide in written statement.]
    So we do three things. First, we create curriculum. We 
have, I would argue, probably the broadest and most diverse 
curriculum development effort for children in engineering in 
the world. We have an elementary curriculum that is being used 
by over a million children, including the children at Mr. 
Sandlin's school, actually, in Texas. They are using our 
curriculum. And we have also middle school and high school 
engineering curricula. This is all standard-based, research-
based engineering curricula that integrates mathematics and 
science. We also have an extensive number of pre-service and 
in-service workshops for teachers. Our model is to develop 
partnerships nationwide. We have dozens of partners at 
university science centers, corporations that do professional 
development of teachers in the region. We also work with 
universities to assist in developing curriculum for future 
teachers, and we also have an extensive advocacy effort both at 
the State level--we work with many State legislative bodies and 
departments of education--as well as federal entities, such as 
the National Governors Association, to introduce engineering 
standards, assessments and programs.
    There are a few challenges, of course, with this 
initiative. There is apprehension and fear. Engineering for 
many people is a scary word. Some believe it is not for young 
children. I don't agree with that. You can do engineering at 
different levels like you can do physics at different levels. 
There is a lack of resources. Although there is a lot of talk 
and enthusiasm about STEM, all the money goes to the SM of 
STEM, the science and the math, and the T and E are left out. 
So there is still a lack of resources.
    There is concern over lack of time to teach engineering. 
Well, our children spend about a month during middle school 
learning how a volcano works, and spend no time learning how a 
car works. How much time do you have to spend on a volcano 
compared to a car in your life, and why should we spend a month 
learning about volcanoes and no time learning about cars? And 
don't get me wrong; I think volcanoes are a wonderful way to 
teach plate tectonics, which is very important for children to 
learn, but I would argue that we could make some space to teach 
engineering as well.
    Here are three recommendations. First, that we increase 
funding on professional development of teachers to enable them 
to include engineering in their teaching and to enable informal 
science organizations such as science museums and science 
centers to provide such support. The second recommendation is 
to provide resources for development of more curriculum and 
materials. And the third is to support legislation that would 
provide states planning grants to figure out how they would 
introduce engineering in their formal standards and 
assessments; implementation grants after they have the plan 
down of how they are going to do it, to actually support 
funding teacher professional development and curriculum 
materials; and also support evaluation studies so that we can 
build research that will help us understand how we should 
introduce engineering better for children. Thank you very much.
    [The prepared statement of Dr. Miaoulis follows:]
                 Prepared Statement of Ioannis Miaoulis
    On behalf of the Museum of Science, Boston and our National Center 
for Technological Literacy (NCTL), I applaud Chairman Lipinski and the 
Members of the Subcommittee for holding this hearing on the occurrence 
and effect of K-12 engineering education. This has been my passion and 
focus for the past 20 years.
    The Museum of Science, Boston is one of the world's largest science 
centers and New England's most attended cultural institution. We work 
to bring science, technology, engineering, and mathematics alive for 
about 1.5 million visitors a year through our interactive exhibits and 
programs, serving 186,000 students and 100,000 more in traveling and 
overnight programs. The goal of the NCTL is to introduce engineering 
into K-12 classrooms nationwide.

Why K-12 Engineering?

    With an economy in flux and a workforce at risk, educating the 
Nation's future engineers and scientists and advancing technological 
literacy are more important than ever. We need a strong technical and 
engineering workforce to remain competitive and innovative. To maintain 
our country's vitality and security, we must expand students' 
understanding of technology and engineering and widen the pipeline to 
careers in these fields so that a diverse array of talented students 
can pursue them.
    The key to educating students to thrive in this competitive global 
economy is introducing them to the engineering design skills and 
concepts that will engage them in applying their math and science 
knowledge to solve real problems. This is the way to harness the 
creativity of young minds. This is also the process that fuels 
innovation of new technologies.
    Lately, K-12 math and science education has received a lot of 
attention, while K-12 technology and engineering education has been 
largely overlooked. The problem is that the school science curricula 
still focus more on the natural, not the human-made or technological, 
world, and have taught little or no engineering. The beauty of 
engineering is that it is the connector that uses science and math to 
create the technological innovations that facilitate daily experience.
    Our curricula frameworks were established in the nineteenth century 
society, when the society was largely agrarian--no phones, automobiles, 
or computers. Obviously, our world has changed but most curricula have 
not, leaving a huge gap in students' learning. While most people spend 
95 percent of their time interacting with technologies of the human-
made world, few know these products are made through engineering. We 
need to add technology and engineering as standard subjects in U.S. 
schools.
    There are many reasons to introduce engineering in K-12 schools:

    First, engineering is rich in hands-on experiences. Children are 
born engineers, fascinated with building and taking things apart to see 
how they work. Describing these activities as engineering can help them 
develop positive associations with the field.
    Second, engineering brings math and science to life, demonstrating 
that they are relevant subjects thereby motivating students to pursue 
them. Relevance is particularly significant for girls and other under-
represented groups. Engineering pulls together many other disciplines, 
including math, science, language arts, history, and art, engaging 
children of differing abilities in problem-based learning, where 
teamwork is important.
    Third, to create a diverse, technologically literate workforce, we 
need to support engineering in K-12 schools. Most engineers will tell 
you they were inspired by an engineer in their family. Unfortunately, 
the engineering profession is not diverse--we are mostly white men. 
Therefore, many children are not exposed to such role models nor have 
access to enhancement experiences which will lead them to pursue 
engineering careers. To break this cycle, expand opportunities, and 
diversify the profession, we must offer engineering education in K-12 
classrooms to make those careers more desirable and accessible to all 
children from all backgrounds.
    The fourth and major reason to start engineering early is that 
technological literacy is basic literacy for the 21st century. We live 
in a technological world. We need to understand how human-made things 
like shoes and band-aids are created, how they work, and how to improve 
them.
    However, according to, Technically Speaking: Why All Americans Need 
to Know More About Technology (National Academy of Engineering/National 
Research Council, 2002, page 1), ``Although the United States is 
increasingly defined by and dependent on technology . . . its citizens 
are not equipped to make well-considered decisions or think critically 
about technology.'' The report also said, ``Neither the educational 
system . . . nor the policy-making apparatus has recognized the 
importance of technological literacy.'' Far beyond a facility with 
computers, ``technological literacy'' involves understanding what 
technology is, how it is created, and how it influences our lives. To 
paraphrase from Technically Speaking (page 4), a technologically 
literate person should:

        <bullet>  recognize technology in its many forms;

        <bullet>  understand basic engineering concepts and terms such 
        as systems, constraints, and trade-offs;

        <bullet>  have a range of hands-on skills in using a variety of 
        technologies;

        <bullet>  know that people shape technology and technology 
        shapes behavior;

        <bullet>  know there are risks and benefits in using or not 
        using technology to solve problems; and,

        <bullet>  be able to use math concepts to make informed 
        decisions about technological risks and benefits.

    An important goal of engineering education is to introduce students 
to engineering as a profession which takes skill, creativity, and 
knowledge of science and mathematics, but which novices can begin to 
practice in an intellectually honest way, just as they can practice 
scientific inquiry at an amateur level in an intellectually honest way. 
We want students to feel that engineering design can be fun, can help 
people, and is worth learning to do better. In addition, we want them 
to be exposed to the enormous range of technologies in use today, as 
well the enormous inheritance they receive of accumulated design know-
how. Engineering is ongoing, and can be used to solve human problems. 
These are goals worthy of students' time and effort.
    Understanding the importance of technological literacy and the need 
for trained engineers, the Museum of Science launched the National 
Center for Technological Literacy in 2004 to enhance knowledge of 
engineering and technology for people of all ages and to inspire the 
next generation of engineers and scientists. A detailed description of 
our work follows the Challenges and Recommendations sections.

Challenges

    While the NCTL has made tremendous progress in advancing K-12 
engineering education in Massachusetts and in an increasing number of 
states, we have encountered a number of challenges that can be 
overcome.
    Because K-12 engineering education is not terribly widespread, the 
one challenge lies in the sense of apprehension and misunderstanding by 
teachers and administrators. Engineering may frighten some teachers, 
especially those uncomfortable with science. However, once they have 
received our training, which ranges from a day and a half to three 
weeks, most are excited and willing to implement.
    Through our professional development training, we explain that the 
engineering design process is similar to scientific inquiry that 
explores the natural world, except that engineering explores the human-
made world (see comparison chart in appendices). This provides a frame 
of reference and comfort level. We do not expect our teachers to teach 
something as complex as tribology and finite element analysis. We do 
want them to expose students to open-ended problem-solving using 
limited resources or designing under constraint.
    Lack of appropriate resources is another challenge. Schools and 
teachers need access to effective instructional materials and hands-on 
kits so students can actually apply their skills.
    Some argue there is no time to add a new topic to an already packed 
school year. They express concern that adding another subject or topic 
will simply extend the content rather than allow deeper exploration. 
Our engineering curricula allow students to multi-task--applying 
science, math, language arts, and technology in engineering design 
challenges thereby covering multiple subjects at once. As one 
elementary teacher says, ``it's an add-in, not an add-on.''
    Another concern we hear is that there are no separate engineering 
education standards for curricula development, teacher preparation, 
student achievement, etc. Some advocate for the creation and 
implementation of new separate K-12 engineering standards and 
assessments. Some advocate the revision of existing standards including 
math, science and technology standards to incorporate and integrate 
engineering education. The National Academies of Engineering is 
currently studying these options and that report is due to be published 
next year. We support the integration of engineering in all grades, 
particularly in science and math, and separate courses for both middle 
and high school students.
    It is important to note, on the assessment front, that the National 
Assessment of Educational Progress--Science 2009 will include a number 
of items that will assess student technological design skills. Further, 
the National Assessment Governing Board is currently developing a 
Technological Literacy study that will likely assess design and systems 
thinking, as well as information and computer technology literacy, and 
technology and society.
    Another challenge is the lack of recognition by some policy makers 
and education leaders that K-12 engineering education is taking place 
in classrooms across the Nation and that positive results are 
occurring. This is further complicated by the fact that there are no 
existing federal programs to specifically support K-12 engineering 
education in core academic classrooms. Many agencies espouse support 
for STEM programs; however, most focus on science and math to the 
exclusion of technology and engineering. While the National Science 
Foundation, which has awarded several grants to the Museum and the 
NCTL, and other science and engineering agencies support STEM 
education, there are no specific programs designed to help all states 
pursue K-12 engineering education nor has there been any large scale 
research programs to measure the efficacy of the various curricular 
programs.

Recommendations

    To respond to these challenges, we encourage the Chairman, the 
Committee and the Congress to consider legislation that will further 
implementation and research of K-12 engineering education. We suggest a 
three part grant program that would allow states to plan and to 
implement K-12 engineering education more broadly in their schools and 
to participate in a large scale evaluation. We suspect this research 
will confirm the promising preliminary results uncovered by the 
National Academy of Engineering K-12 Engineering Education study group 
and provide tremendous guidance to future development and 
implementation of K-12 engineering education, student learning and 
STEM, career aspirations.
    Furthermore, as Congress considers revising the Elementary and 
Secondary Education Act, we suggest the following:

        <bullet>  Allow informal STEM education centers and other non-
        profit educational organizations to receive funds for teacher 
        professional development;

        <bullet>  Expand and rename the Math/Science Partnerships to 
        STEM Partnerships to include technology and engineering 
        educators in teacher professional development opportunities;

        <bullet>  Encourage states to adopt technology and engineering 
        standards and assessments;

        <bullet>  Encourage states to include technology and 
        engineering in the definition of ``rigorous curricula'' for 
        high school graduation;

        <bullet>  Expand the definition and requirement for 
        ``technology literacy'' to go beyond the use of computers to 
        include the engineering design process;

        <bullet>  Include engineering/technology teachers alongside 
        math/science teachers in all incentive programs to recruit, 
        train, mentor, retain, and further educate teachers; and

        <bullet>  Support after-school programs that include technology 
        and engineering activities.

National Center for Technological Literacy: Mission and Function

    The NCTL is integrating engineering as a new discipline in schools 
via: 1) standards-based, teacher-tested K-12 curricula development; 2) 
pre-service and in-service teacher professional development and 
leadership training programs; and, 3) advocating for aligned standards, 
assessments, and policies promoting K-12 engineering education. The 
Museum of Science is the only science museum in the country with a 
comprehensive strategy and infrastructure to foster engineering 
education and technological literacy in both K-12 schools and science 
museums nationwide.

I. Curricula Development

    Our curricula follow in large measure the three core principles for 
K-12 engineering education recommended in the recent report by the 
National Academy of Engineering (NAE) and the National Research Council 
(NRC), Engineering in K-12 Education: Understanding the Status and 
Improving the Prospects. Our materials: 1) emphasize the engineering 
design process; 2) incorporate important and developmentally 
appropriate mathematics, science, and technology knowledge and skills; 
and, 3) promote engineering habits of mind including systems thinking, 
creativity, collaboration, communication and attention to ethical 
considerations.
    The curricula we create are not intended to replicate college level 
sources. We intend to impart habits of mind that include an engineering 
design process, optimization, efficiency and economy. It allows 
students to apply their math and science skills to solve community-
based problems. It opens their minds to a variety of technology and 
engineering careers they may have never heard of before. It 
demonstrates that all students are capable of engineering.
    An early project of the NCTL was to examine existing K-12 
engineering curricula. Our online Technology and Engineering Curriculum 
Review includes instructional materials in a searchable database. The 
most promising have been peer reviewed and mapped to national 
standards. During this review process, we discovered that very little 
was available to address the elementary grades. www.mos.org/TEC
    Our philosophy is that children construct a much deeper 
understanding of the world around them, including science, technology, 
and engineering, when they interact with meaningful, challenging 
activities. The NCTL curricula development team performs a detailed 
curriculum development process that is based heavily on, Understanding 
by Design (Wiggins & McTighe, 1998).
    For example, each of our elementary units entails more than 3,000 
hours of development over the course of two years. In addition to this 
development time, units are pilot tested across Massachusetts and field 
tested across the United States. A typical unit development cycle 
begins with background research and ends with a unit release two years 
later.
    A major focus of our work is to expand interest in engineering 
across all demographics. Our curricular resources emphasize diversity, 
including both genders, and people of races, ethnic backgrounds, 
physical abilities, and cultures. We also work to integrate with other 
topics including science, mathematics and language arts.
    The Engineering is Elementary series is closely aligned with 
popular elementary science topics and is steeped in language arts. The 
middle school series, Building Math, integrates algebra with 
engineering design challenges and is typically taught by math teachers 
and also used in technology education classes. The new middle grades 
series, Engineering Today, is aligned with science subjects. 
Engineering the Future is a full year course that is taught by either 
technology/engineering educators or physics teachers.

A. Engineering is Elementary
    The Engineering is Elementary (EiE) project integrates engineering 
and technology with science, language arts, social studies, and 
mathematics via storybooks and hands-on design activities. Each unit 
begins with an illustrated storybook, in which a child from a different 
country uses the engineering design process to solve a community-based 
problem, and includes four lessons. Elementary school teachers 
nationwide can use these curricular materials to teach technology and 
engineering concepts to children in grades 1-5. The development of this 
series is funded in large measure by a National Science Foundation 
Instructional Materials Development grant as well several corporate 
sponsors.
    The NAE report, Engineering in K-12 Education, cites EiE as one of 
the curricula offering the ``most comprehensive'' resources to support 
implementation. Materials ``are clearly written to enrich and 
complement existing instruction . . . the emphasis on literacy is 
especially noteworthy.'' The EiE series ``illustrates how a wide range 
of problems can be overcome through a systematic engineering design 
process that involves the application of math, science, and creativity 
. . . the idea that engineers combine creativity with their knowledge 
of math and science to solve problems is introduced and reinforced.''
    As of May 14, 2009, EiE had reached 15,660 teachers (750 in MA) and 
1,021,725 students in 50 states and Washington, DC. Of those states, 34 
have a significant presence with larger orders and professional 
development participants. Sales have also reached over one million 
dollars over the five years of sales. The receipts are reinvested into 
the enhancement and implementation of the curricula. These units can be 
obtained at www.mos.org.eie.

B. Building Math
    Building Math, created with Tufts University, provides innovative 
practices for integrating engineering with math to help middle school 
students develop algebraic thinking. Building Math consists of three 
middle school instructional units that uniquely integrate inquiry-based 
mathematics investigations and engineering design challenges. The 
engineering design challenges provide meaningful and engaging contexts 
to learn and use mathematics, and to develop students' teamwork, 
communication, and manual skills. The mathematics investigations yield 
useful results to help students make informed design decisions.
    Building Math was pilot tested in Massachusetts and has sold almost 
1,900 units and is estimated to reach almost 95,000 students. Six 
states have ordered more than 100 units and the curriculum is placed in 
42 states at some level.
    According to Engineering in K-12 Education, the units are ``very 
deliberative in their use of contextual learning to make the study of 
math more interesting, practical, and engaging.'' The math activities 
have a ``direct bearing on the solution to the problem.'' The materials 
are also ``very consistent'' in using the engineering design process to 
``orchestrate learning.'' The ``richest'' portion of the design process 
involves doing research and testing the final design and the 
``richest'' analysis in the materials involves interpreting data and 
discovering ``quantitative patterns and relationships.''
    Awarded the 2008 Distinguished Curriculum Award by the Association 
of Educational Publishers, the Building Math series for grades 6-8 are 
available from Walch Publishing www.walch.com.

C. Engineering Today: New Middle School Series
    The NCTL is developing a new series of middle-school supplemental 
units that meet engineering and science standards by integrating the 
two subjects. Introduced by WGBH Design Squad reality TV shows, the 
hands-on units engage students in engineering design challenges that 
are informed by the relevant science topics. Students work in teams to 
tackle the challenges and learn about engineers and scientists who work 
on similar projects in the U.S. Department of Defense laboratories. It 
will focus on 10 areas including communications, energy, aerospace, 
bioengineering, construction, and transportation. Pilot testing will 
begin in Fall 2010.

D. Engineering the Future(r): Science, Technology, and the Design 
        Process:
    This standards-based, full year course engages high school students 
in hands-on design and building challenges reflecting real engineering 
problems. The textbook, narrated by practicing engineers from various 
ethnic and cultural backgrounds, encourages students to explore what 
engineering and technology are and how they influence our society. 
According Engineering in K-12 Education, one of the most prominent 
features of this curriculum is the ``emphasis placed on people and 
story telling.'' All the laboratory activities ``are broken down into 
very small pieces that build upon one another in a very incremental 
manner.'' The ``culminating design problems provide students a lot of 
latitude to be creative and to operationalize the problem in a way that 
capitalizes on their interests.''
    Engineering the Future is currently taught in over 25 states. Over 
the past three years, on site and online professional development has 
been delivered to more than 500 teachers. Preliminary studies show that 
students increase their understanding of engineering in all four 
Engineering the Future units. The Engineering the Future textbook and 
related materials are available from Key Curriculum Press 
www.keypress.com.etf.

E. Efficacy
    Our curricula development process incorporates research, 
evaluation, and assessment into all aspects of its design and testing. 
During the development, pilot and field testing, students complete pre-
and post-assessments that measure pupils' understandings of 
engineering, technology, and science or math concepts. Most of our 
post-implementation research has focused on EiE and to a lesser extent, 
Building Math.
    National, controlled studies indicate that children who engage with 
engineering and science through EiE learn engineering, technology, and 
related science concepts significantly better than students who study 
just the science (without engineering). This was true for both sexes 
and all racial/ethnic groups. They were also more positive about the 
prospect of being an engineer after participating in EiE.
    Teachers also report that EiE curricular materials work well, 
whether students are low-or high-achieving, including those with 
cognitive, linguistic, and behavioral challenges, who are girls, 
children of color, or at risk in other ways.
    Promising preliminary research indicates that EiE may be narrowing 
the achievement gap. In a national controlled study, thousands of 
students who participated in an EiE unit and related science 
instruction were compared to a control group that studied only the 
related science instruction. In two of the three units studied, the 
performance gap between low and high socioeconomic students was 
significantly smaller after participation in an EiE unit.
    In summary, EiE students:

        <bullet>  are much more likely to correctly answer science 
        content questions relating to the unit after completing an EiE 
        unit;

        <bullet>  are much more likely to correctly identify the work 
        of the field of engineers related to the unit on the post-
        assessment after completing an EiE unit;

        <bullet>  are much more likely to correctly identify relevant 
        aspects and types of technologies featured in the unit after 
        completing an EiE unit;

        <bullet>  demonstrate a much clearer understanding of relevant 
        criteria for a design, as well as how to judge a design against 
        those criteria, after completing the Designing Plant Packages 
        or the Evaluating a Landscape unit;

        <bullet>  are significantly more likely to choose a more 
        scientific method for answering a hypothetical question after 
        completing the Designing Plant Packages unit;

        <bullet>  show that they understand what a model is after 
        completing the Evaluating a Landscape unit;

        <bullet>  demonstrate a clearer understanding of materials, 
        their properties, and their uses in different engineering 
        design scenarios after completing the EiE unit Designing Maglev 
        Systems; and

        <bullet>  show evidence of increased data analysis skills after 
        completing the Designing Maglev Systems unit.

    EiE professional development is also influencing teachers, who 
report large gains in their knowledge and understanding of the range of 
engineering disciplines, what engineers do, and the pervasiveness of 
engineering. They also report changes in their pedagogy after learning 
about EiE and teaching. All EiE research can be found here: 
www.mos.org/eie/research<INF>-</INF>assessment.php#formalfindings
    At the Science and Technology Committee field hearing in Texarkana, 
then Assistant Director of the NSF, Education & Human Resources 
Directorate, Dr. Cora Marrett noted, ``Studies show that children using 
the Engineering is Elementary materials gain in their understanding of 
engineering and science topics, compared to children not using the 
materials. In addition, children in the experimental group come to know 
what engineers do and what technology entails . . .. Initial research 
suggests that this approach has been successful in helping young 
children envision themselves as engineers.''
    With the Building Math units, students engage in algebraic 
reasoning by modeling physical phenomena, analyzing change in both 
linear and non-linear relationships, extrapolate and interpolate data 
based on trends, describe the shapes of graphs within meaningful 
contexts, represent data in tables and graphs, and generalize patterns.
    Our research shows that when engaged in Building Math design 
challenges, middle school students at different grade levels use 
algebraic reasoning when analyzing changing rates of an exponential 
function, interpret slope in a meaningful context, and use a 
mathematical model to make reasonable predictions. They then use this 
understanding to inform their engineering designs to meet the criteria 
and constraints of the challenge. (ASEE, 2008)
    Integrating algebra and engineering can be done effectively by 
having math be essential to informed engineering decisions. A 
contextual approach for the units provides engagement in the activity, 
especially when students can learn together in small groups. Through 
the Building Math activities, students can find meeting the engineering 
design challenges satisfying without being overly competitive. The 
findings from this analysis indicate that it is possible to make non-
linear, exponential functions accessible to students of different grade 
levels using different approaches.

II. Professional Development

    While science centers and museums are known to spark life-long 
interest in and understanding of science, engineering, mathematics, and 
technology, few appreciate the extent to which these informal science 
education organizations impact the formal education setting. Science 
centers and museums have resources that many schools do not and offer 
interactive, professional development activities that support school 
curriculum.
    The Museum of Science and the NCTL routinely work with school 
districts to bring the excitement of the science, technology and 
engineering to the classroom, while providing support and resources for 
teachers through field trip workshops, pre-and post-visit activities, 
teacher professional development, outreach, and linking resources to 
State and national learning standards.
    We understand that professional development necessitates 
partnership. We work closely with local or State agencies to provide 
professional development for teachers about engineering and technology. 
We employ a train-the-trainer model, working jointly with teacher 
educators to help them better understand core engineering and 
technology concepts, how to most effectively communicate these to other 
teachers, and how to structure and run workshops about engineering and 
technology.
    We also work with other educational institutions to offer 
professional development opportunities. Two such partnerships are noted 
below:

<bullet>  The NCTL is working with three Massachusetts community 
colleges to help educate pre-service elementary teachers with a three-
year NSF Advanced Technology Education grant. The Advancing 
Technological Literacy and Skills (ATLAS) Project builds their 
understanding of technology and engineering content and teaching tools 
in community college course work. Faculty engage in engineering design 
challenges, connect technology and engineering concepts with science, 
mathematics, literacy, and other subjects, learn about technical career 
options, and modify courses to include technology and engineering. The 
project includes outreach to four-year colleges and high schools 
working with the community colleges to ensure continuity and create a 
cadre of faculty to introduce this technology and engineering pedagogy 
to colleagues across the state. More details can be found here: 
www.mos.org/eie/atlas/index.php

<bullet>  To address the national shortage of technology educators, 
``Closing the Technology & Engineering Teaching Gap,'' a new K-12 
initiative, is integrating NCTL materials into the fully accredited 
online technology education programs of Valley City State University 
(VCSU), North Dakota. The goal is to improve the technological literacy 
of K-12 teachers and prepare qualified teachers. The NCTL is making its 
curriculum materials and training available to VCSU via this innovative 
online teacher certification program.

    The NCTL's train-the-trainer approach to professional development 
helps teacher educators understand engineering and technology concepts, 
communicate them to other teachers, and run workshops. The NCTL has 
worked with teacher educators from over 25 states and Washington, DC, 
through institutes and online courses to familiarize them with 
engineering and lead professional development workshops in their 
region. A list of our educational partners appears in the Appendices.
    We also conduct education leadership training for school and 
district administrators. The Gateway to Engineering and Technology 
Education project builds a community of school and district leaders in 
sharing best practices, experiencing hands-on engineering activities, 
and helping each other solve problems in order to implement technology 
and engineering standards. An Institute of Museum and Library Services 
grant allowed us to support 50 school district leadership teams over 
the first three years. Participant district leadership teams 
collaborated during summer institutes, call-back days and online forums 
with other Gateway teams.
    In Massachusetts, the Gateway program has reached nearly 300 
teachers and administrators and 319,028 students (34.1 percent of MA 
public school enrollment). This Gateway model is being used in a 
partnership with Maine Math and Maine Mathematics and Science Alliance 
and Transformation 2013 in Austin and San Antonio, TX.
    The Museum and the NCTL enhance the capacity of teachers to engage 
their students in STEM learning. Early evaluation findings suggest 
that, in addition to increased knowledge, teachers participating in the 
programs report feeling ``renewed enthusiasm'' and ``rejuvenation'' for 
teaching and learning about science. Future research could explore the 
longitudinal impacts of such programs for teacher interest and 
motivation for teaching and learning about science, as well as the 
impact on increased teacher retention.

III. Advocacy

    Another function of the NCTL is advocacy. We work to develop policy 
and programs to support the advancement of K-12 technology and 
engineering education. We work at all levels of government to inform 
policy makers of the benefits of engineering education and how they can 
help promote and sustain it. We also work with like-minded 
organizations to further K-12 technology and engineering education 
across the Nation.
    We have been involved in the following advocacy efforts: 1) 
incorporating questions on technological design alongside those on 
scientific inquiry in the National Assessment of Educational Progress 
(NAEP) Science Framework for 2009; 2) the National Governors 
Association STEM agenda which calls for the adoption of technology and 
engineering standards and assessments, among other things; 3) the 
America COMPETES Act, which creates opportunities for technology 
teachers and engineering instruction at several federal agencies; and 
4) the Higher Education Act expands the definition of ``technology 
literacy'' to include the engineering design process.
    In 2001, I had the privilege of working with the State of 
Massachusetts to develop the first statewide K-12 curriculum framework 
and assessments for technology and engineering in the Nation. While 
forty states address technology education in their standards (often 
found I career and technical education standards), several states are 
also moving to include engineering in their core academic State 
standards. The NCTL has been in contact with people interested in K-12 
education in all 50 states and Washington, DC, in various ways. We have 
worked specifically with New Hampshire, Minnesota, North Carolina, 
Ohio, Florida, Oregon, and Washington in revising State standards to 
include engineering in some form.

Conclusion

    Thank you for the opportunity to present our efforts to promote, 
develop and implement K-12 engineering education across the Nation. The 
National Center for Technological Literacy stands ready to assist in 
re-engineering today's schools, inside and out. Please visit our web 
site, www.nctl.org. If we can provide any additional information, 
please let me know.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                     Biography for Ioannis Miaoulis
    On January 1, 2003, Ioannis (Yannis) N. Miaoulis, became President 
and Director of the Museum of Science, Boston. Originally from Greece, 
Dr. Miaoulis, now 48, came to the Museum after a distinguished 
association with Tufts University. There, he was Dean of the School of 
Engineering, Associate Provost, Interim Dean of the University's 
Graduate School of Arts and Sciences, and Professor of Mechanical 
Engineering. In addition to helping Tufts raise $100 million for its 
engineering school, Miaoulis greatly increased the number of female 
students and faculty, designed collaborative programs with industry, 
and more than doubled research initiatives. Founding laboratories in 
Thermal Analysis for Materials Processing and Comparative Biomechanics, 
he also created the Center for Engineering Educational Outreach and the 
Entrepreneurial Leadership Program.
    An innovative educator with a passion for both science and 
engineering, Miaoulis championed the introduction of engineering into 
the Massachusetts science and technology public school curriculum. This 
made the Commonwealth first in the Nation in 2001 to develop a K-12 
curriculum framework and assessments for technology/engineering. At 
Tufts, he originated practical courses based on students', and his own, 
passions for fishing and cooking: a fluid mechanics course from the 
fish's point of view and Gourmet Engineering, where students cook in a 
test kitchen, learn about concepts such as heat transfer, and then eat 
their experiments.
    His dream is to make everyone, both men and women, scientifically 
and technologically literate. Miaoulis has seized the opportunity as 
the Museum's president to achieve his vision, convinced science museums 
can bring together interested parties in government, industry, and 
education to foster a scientifically and technologically literate 
citizenry. One of the world's largest science centers and Boston's most 
attended cultural institution, the Museum of Science is ideally 
positioned to lead the nationwide effort.
    The Museum drew over 1.5 million visitors in the fiscal period 
ending June 30, 2009, including 186,000 school children, and served 
over 100,000 more students in traveling and overnight programs. 
Receiving the Massachusetts Association of School Committees' 2005 
Thomas P. O'Neill Award for Lifetime Service to Public Education, the 
Museum was also ranked #3 of the 10 best science centers in 2008 by 
Parents Magazine, one of the top two most visited hands-on science 
centers on Forbestraveler.com's ``America's 25 most visited museums'' 
list in 2008, and one of the top two science museums in the Zagat 
Survey's ``U.S. Family Travel Guide.''
    With the Museum's Boards of Trustees and Overseers, Miaoulis 
spearheaded creation of the National Center for Technological Literacy 
(NCTL) at the Museum in 2004. Supported by corporate, foundation, and 
federal funds, the NCTL aims to enhance knowledge of engineering and 
technology for people of all ages and to inspire the next generation of 
engineers, inventors, and scientists. The Museum of Science is the 
country's only science museum with a comprehensive strategy and 
infrastructure to foster technological literacy in both science museums 
and schools nationwide. Through the NCTL, the Museum is creating 
technology exhibits and programs and integrating engineering as a new 
discipline in schools via standards-based K-12 curricular reform. The 
NCTL has been in contact with interested parties in 50 states. A 2006 
$20 million gift from the Gordon Foundation, established by Sophia and 
Bernard M. Gordon, endorses the Museum's vision to transform the 
teaching of engineering and technology. The largest single individual 
gift in the Museum's 179 years, the Gordon gift will help educate young 
people to be engineering leaders. The Museum has also been able to 
create the Gordon Wing, headquarters of the NCTL and home of the 
Museum's Exhibits and Research & Evaluation teams. Designed to be 
``green,'' the wing is the Museum's largest building project since 
1987.
    Recognizing that a 21st century curriculum must include the human-
made world, the NCTL advances technological literacy in schools by 
helping states modify their educational standards and assessments, by 
designing K-12 engineering materials, and by offering educators 
professional development. The NCTL's Engineering is Elementary 
curriculum has reached over 15,600 teachers and one million students in 
50 states (and Washington, DC). In 2007, the Museum launched its first 
school textbook publishing partnership, introducing the Engineering the 
Future high school course and reaching teachers and students in over 
25 states. A Building Math middle school course, created with Tufts 
University, has reached teachers and almost 95,000 students in 42 
states (plus Washington, DC).
    Under Miaoulis' leadership, the Museum has strengthened its 
financial position, diversifying its revenue sources and increasing its 
annual operating budget by 42 percent. In 2005, the Museum of Science, 
in partnership with the Science Museum of Minnesota and the 
Exploratorium in San Francisco, was selected by the NSF to lead a $20 
million effort to form a national Nanoscale Informal Science Education 
Network (NISE Network) of science museums and research institutions. In 
the fiscal period ending June 30, 2009, the Museum's Annual Fund 
exceeded $2.4 million, individual/family/library membership income 
surpassed $4.6 million, and member households reached 47,000. Gifts and 
pledges for NCTL-led formal and informal technology education 
initiatives have surpassed $57 million, underlining the importance of 
the Museum's strategy for science, engineering, and technology 
education.
    Exploring with national leaders how the Museum can help further to 
educate students, Miaoulis speaks often on science and technological 
literacy. Examples include the U.S. Senate Science, Technology, 
Engineering, and Mathematics (STEM) caucus and before the U.S. Senate 
Commerce Committee's Subcommittee on Technology, Innovation, and 
Competitiveness, as well as keynoting at numerous education reform 
conferences nationwide.
    Miaoulis earned Bachelor's and doctorate degrees in mechanical 
engineering and a Master's in economics at Tufts, and received a 
Master's degree in mechanical engineering from the Massachusetts 
Institute of Technology. He has published over 100 research papers and 
holds two patents. He has also been honored with awards for his 
research efforts and community service, including the Presidential 
Young Investigator award, the Allan MacLeod Cormack Award for 
Excellence in Collaborative Research, the William P. Desmond Award for 
outstanding contributions to Public Education, the Boston Jaycees 
Outstanding Young Leader Award, and a Mellon Fellowship. A former WGBH 
Trustee, Miaoulis has co-chaired the Mass. Technology/Engineering 
Education Advisory Board. Named in 2006 by President George W. Bush to 
the National Museum and Library Services Board, Miaoulis is also on 
Mass. Governor Deval Patrick's Commonwealth Readiness Project 
Leadership Council, charged with creating a plan to improve statewide 
public education. Miaoulis is a member of the Boards of Trustees of 
Wellesley College and Tufts University and in 2007 was appointed to the 
NASA Advisory Council by NASA Administrator Michael Griffith.

    Chairman Lipinski. Thank you.
    Dr. Pines.

STATEMENT OF DR. DARRYLL J. PINES, NARIMAN FARVARDIN PROFESSOR 
 AND DEAN, A. JAMES CLARK SCHOOL OF ENGINEERING, UNIVERSITY OF 
                     MARYLAND, COLLEGE PARK

    Dr. Pines. Good morning, Chairman Lipinski and Ranking 
Member Ehlers and other distinguished Members of the 
Subcommittee and all who are concerned about STEM education, 
especially in the K-12 area. My name is Darryll Pines and I am 
the Nariman Farvadin Professor and Dean of A. James Clark 
School of Engineering. I want to thank you for inviting me.
    The Clark School attracts a large number of outstanding 
young people from the highly regarded Maryland school system 
and also the Maryland private school system as well as from 
excellent schools across the country and around the world, in 
fact. We have created an array of programs to interest these 
younger students in engineering and develop insights concerning 
the inclusion of engineering concepts and approaches to their 
pre-college education. One simple but important insight is the 
following fact: In K-12 engineering education, proper pacing 
and mentorship are crucial. By engaging students at the proper 
level at the proper time with the proper mentors, schools can 
ensure that students are neither intimidated by the 
difficulties of engineering nor deluded that engineering means 
dreaming up ideas about creating, analyzing, testing and 
refining a solution using math and science. With proper pacing 
and mentors, we can inspire students with engineering potential 
for a positive impact in the world while beginning to train 
them in the skills they would need to make that impact. To 
achieve these goals, the Clark School and other university 
programs must do a better job of educating high school and 
middle school teachers about the field of engineering, academic 
requirements for engineering students as well, and the proper 
level of engineering concepts to include in their lesson plans.
    To answer the first question that was posed by the 
Committee, a successful undergraduate engineering student 
should graduate with the following attributes: number one, high 
awareness of the areas in which engineering can impact our 
quality of life; number two, time spent in direct work in one 
or more of the areas through related research, internships or 
voluntary service programs; number three, the entrepreneur 
skills and confidence to organize and launch an initiative in 
one of those areas number four, the ability to solve open-ended 
problems by applying engineering methods, mathematics and the 
sciences; number five, the ability to focus on a problem and 
imagine one or more ways to solve it; number six, a strong work 
ethic and the ability to learn autonomously; number seven, 
skills in communicating with professionals and laypeople; and 
number eight, the ability to work alone or in teams or to lead 
when necessary. To ensure that undergraduates possess these 
skills and attributes on graduating from college and to 
increase the number who do graduate, we must first ensure that 
high school students come to us possessing all of these skills 
in some part and to some degree and the last five to a high 
degree. A useful example of the boundary between high school 
and college is a project that is commonly implemented in high 
school science or engineering courses--that is, the making of a 
truss bridge. In high school, students will build a truss 
bridge based on how they think it should look, how they think 
they can make it stronger, relying really on their experience 
and their intuition. This is appropriate for high school for 
middle school. However, in a mechanics class in college, 
students will learn the concepts of stress and strain, axle 
loading, material properties and other concepts that allow them 
to design the truss, then build it rather than simply putting 
something together to see how it stands up to a load. This is 
expected and appropriate for students that are in college.
    In response to Question 2, pre-college engineering 
education can inspire students with the potential of 
engineering to improve our world and prepare them for the 
challenges of the university engineering program. First, 
schools must identify students who are proficient in 
mathematics and science. Without proficiency, students cannot 
succeed in the field of engineering. Next, schools must show 
students how they apply that proficiency through engineering in 
fields such as energy, cybersecurity, health care, 
transportation, homeland security, space flight, communications 
and so on. This provides the spark of excitement so that 
students begin to know what engineering really matters and what 
matters in engineering. It also allows them to be creative, an 
important and highly satisfying aspect of engineering. Middle 
school is indeed the right time to weave in some of these very 
basic applications of engineering, but too early to do more 
rigorous engineering-type classes. The four years of high 
school are the right time for this type of training. Making an 
engineering elective available in each of the four years would 
be appropriate for high school.
    In response to Question 3, the Clark School delivers K-12 
programs during the academic year and the summer. Our Center 
for Minorities in Science and Engineering offers two academic-
year programs, and I will just highlight them right now. The 
ESTEEM program brings the students together with a faculty 
mentor in a yearlong research project through a research 
practicum for high school students. Our Maryland Mathematics, 
Engineering and Science Achievement program, also referred to 
as MESA, engages students in Saturday academies, summer 
programs and in-service and after-school enrichment programs. 
Our additional lead academies are offered through our Women in 
Engineering program. They introduce female students to one of 
our academic programs such as aerospace engineering or 
bioengineering or electrical and computer engineering using 
demonstrations and hands-on projects.
    Evaluating the program effectiveness is very challenging 
for all of our K-12 STEM programs. We do have in fact case-by-
case evidence that students who participate in these particular 
programs become more positive about engineering and actually 
enroll in our school. Regarding partnerships, we have 
identified the top 25 Maryland high schools that send us the 
greatest number of engineering students and propose a stronger 
partnership with those schools, an opportunity for students to 
engage in engineering activities, training for teachers and 
availability of merit scholarships. We have also produced 
summer programs for high school STEM teachers. They witness 
presentations. They do hands-on projects, tour our facilities 
and speak with our faculty, all to enhance their understanding 
of engineering and encourage them to take their new knowledge 
back to their students.
    Our next step is to partner with our College of Education 
to ensure that teachers can be certified in engineering 
education, and parallel, we are meeting with the Maryland State 
Department of Education STEM coordinator to explore ways to 
establish closer cooperation between our two organizations.
    So in concluding, I would like to thank the Committee for 
the opportunity to report on Clark School's programs in support 
of K-12 education, and I will be happy to answer any additional 
questions. Thank you very much.
    [The prepared statement of Dr. Pines follows:]
                 Prepared Statement of Darryll J. Pines
    Good morning to Chairman Lipinski, Ranking Member Ehlers, and other 
Members of the Subcommittee; to fellow witnesses; and to all who share 
an interest in and concern for the future of engineering. Thank you for 
inviting me to testify on the specific subject of ``Engineering in K-12 
Education.'' My name is Darryll Pines and I am the Nariman Farvardin 
Professor and Dean of the A. James Clark School of Engineering at the 
University of Maryland, College Park.
    The Clark School is fortunate to attract a large number of 
outstanding young people from the highly regarded Maryland school 
system and Maryland private schools, as well as from excellent schools 
across the country and around the world. We have developed a strong 
sense of the skills and attributes students need to complete our 
rigorous curriculum and developed programs that are proving effective 
in retaining and graduating more of those students. We have also 
developed an array of programs to interest younger students in the 
field of engineering and a few insights concerning the inclusion of 
engineering concepts and approaches in pre-college education. Chief 
among these is the following very simple, but sometimes forgotten, 
idea:
    In K-12 engineering education, the proper pacing is critical. By 
engaging students at the proper level at the proper time, schools can 
ensure that students are neither intimidated by the difficulties of 
engineering, nor deluded that engineering is essentially dreaming up 
ideas without the foundation of creating, analyzing, testing, and 
refining a solution using math and science.
    If we can achieve proper pacing, we can show students engineering's 
potential for positive impact in the world, the great satisfactions 
engineers experience in creating that impact, and the rewards and 
challenges of doing so, while beginning to train them in the skills 
they will need to take on those challenges and succeed in the 
university setting.
    For proper pacing to occur, those of us in the Clark School and 
other university programs must do a better job of educating high school 
and middle school teachers about the field of engineering, the academic 
capabilities their students must develop to enter the field, and the 
right level of engineering concepts teachers can include in their 
lessons. By providing such support, we can show students, parents, 
teachers, counselors, and administrators that introducing engineering 
in K through 12 education is both feasible and of great benefit to the 
students themselves and to progress in our nation and our world.
    In my testimony I will report on current Clark School activities 
and propose a number of new ideas that may be of value.
    Let us begin at the end of the educational process for most 
engineers: obtaining the bachelor of science degree. The successful 
undergraduate engineering student should leave the university with the 
following knowledge, skills, characteristics, and experiences:

        1.  A high awareness of the areas of opportunity and challenge 
        in which engineering can make a positive difference in our 
        quality of life.

        2.  Time spent in direct work in one or more of those areas, 
        whether through participation in related research, internships, 
        or volunteer and service programs.

        3.  The entrepreneurial drive, skills, and confidence to 
        organize and launch an initiative--even a company--in one of 
        those areas, where none existed before.

        4.  Demonstrated ability to solve open-ended problems in those 
        areas by applying engineering methods, mathematics, and current 
        knowledge of physics, chemistry, and/or biology.

        5.  Demonstrated ability to focus on a situation or problem and 
        imagine one or more ways to improve it or solve it.

        6.  Evidence of a strong work ethic in pursuing assignments and 
        activities, and an ability to learn autonomously.

        7.  The ability to communicate with professionals and lay 
        people, both to express ideas and listen to and appreciate 
        feedback.

        8.  The ability to work alone or in teams, and to lead teams 
        when required.

    To make it more likely that students will possess these skills and 
attributes on graduating from college, and indeed to increase the 
number of students who achieve that goal, we must ensure that students 
come to us from high school possessing all of the skills in some 
degree, and the last five in a high degree.
    Thus, if the process works correctly, freshmen come to us with the 
ability to:

        <bullet>  Solve problems using mathematics and science

        <bullet>  Focus on an opportunity or challenge and imagine 
        solutions

        <bullet>  Apply themselves at a high level, consistently over 
        time, and not be deterred by difficulties and failures

        <bullet>  Communicate ideas and information through speech and 
        writing

        <bullet>  Work alone or in teams, and lead when required.

    If students also know about some of the areas in which engineering 
can make a positive difference, and have engaged in low-level aspects 
of engineering thinking, they are more likely to consider engineering 
as a path, and succeed in that path in college.
    An example would be making a truss bridge, a project that many high 
school students do in a science or engineering class. They will build a 
truss bridge according to how they think it should look, how they think 
they can make it stronger, relying largely on experience and intuition. 
This is appropriate for high school.
    In their mechanics class in college, students will learn the 
concepts of stress and strain, axial loading, material properties, and 
other concepts that allow them actually to design the truss, then build 
it, rather than simply put something together and see how it stands up 
to a load. This is appropriate for college.
    Pre-college engineering education can make the student aware of and 
excited by the potential impact of engineering to improve our world, 
and prepare him or her for the challenges of the university engineering 
program.
    The first step is to identify students who are proficient in 
mathematics and science, because without these strengths, it will not 
be possible for students to succeed in the field.
    Next, introduce students to the many real-world opportunities to 
apply that proficiency--from health care to transportation to homeland 
security to space flight to communications. This introduction can 
provide the spark of excitement so that students know, at least in an 
elementary way, what engineering is all about. Challenging students to 
apply their proficiency also allows them to be creative, an important 
and highly satisfying aspect of engineering, which they might not have 
the opportunity to do except in these classes.
    Throughout, pacing must be part of the process. Young students must 
have a firm grasp of fundamentals, especially mathematics, before they 
are introduced to substantial engineering concepts. Middle school is 
probably the right time to weave in some of the basic applications of 
engineering, but too early to do any rigorous engineering-type classes. 
The four years of high school are the right time for this. The typical 
high school curriculum is fairly packed, but having engineering 
electives available in each of the four years could be appropriate. 
These should be coordinated with what the students are learning in math 
and science.
    Students must not be overwhelmed. They must have the firm grasp of 
the basics. If they do not, they end up not really understanding what 
they are doing beyond a superficial level.
    The Clark School delivers an extensive variety of K through 12 
programs and initiatives.
    Our summer programs target students from elementary school to 
rising high school seniors. They include residential and non-
residential offerings, and typically are one week in length. Each 
program allows students to explore engineering in a variety of 
different ways, including hands-on projects, design problems, lab 
tours, and presentations by faculty members. We also offer our 
Introduction to Engineering Design course to high school students 
(typically rising seniors). They obtain college credit for the course 
and a more in-depth engineering hands-on experience.
    We deliver a number of programs throughout the academic year as 
well. Our Center for Minorities in Science and Engineering offers two:

        <bullet>  The ESTEEM Program brings students to campus in the 
        summer, and arranges for them to begin a research project with 
        a faculty mentor. Students will continue to work on the project 
        with the mentor during the school year.

        <bullet>  The Maryland MESA program, meaning Mathematics, 
        Engineering and Science Achievement, engages students from a 
        large number of Prince George's County Public Schools in 
        Saturday Academies, summer programs, and in-service and after 
        school enrichment programs to prepare them for university 
        science and math. Our Center for Minorities is a regional MESA 
        center.

    Another academic year K-12 offering is the Lead Academies offered 
through our Women In Engineering program. The academies introduce 
students to one of the Clark School's academic programs, such as 
aerospace engineering or bioengineering, again using demonstrations, 
hands-on projects, and so forth.
    Evaluation of these programs' effectiveness can be a challenge, 
especially for the younger students. We have case by case evidence that 
students who participate, and their parents, become more positive about 
engineering and the students go on to apply to the Clark School.
    Regarding formal partnerships, we have identified the twenty-five 
Maryland high schools that send us the greatest number of students, and 
sent them letters proposing closer relationships involving information 
exchange, opportunities for students to engage in engineering 
activities at the Clark School, training for teachers, and the 
availability of merit scholarships. We hope that this is the beginning 
of strong partnerships that increase awareness and involvement in 
engineering, and bring still more great students to the Clark School. 
Historically, we have worked closely with a small number of local high 
schools. The Top 25 program should expand this process to a much wider 
field.
    We have produced a number of different summer programs for high 
school STEM teachers. They have received presentations from faculty, 
done hands-on projects, toured our facilities, spoken with faculty, all 
to enhance their understanding of engineering, and encourage them to 
take their new knowledge back into their classrooms. We have submitted 
NSF proposals (which weren't funded) for a summer educational program 
which, as a key element, includes high school teachers who would work 
closely with STEM faculty (math and engineering) and incoming at-risk 
university freshmen. We also work individually with teachers on 
request.
    We do not at present incorporate engineering into College of 
Education programs, although these discussions have been initiated. We 
have arranged a meeting with the Maryland State Department of 
Education's STEM coordinator to explore ways to establish closer 
cooperation between our two organizations. We hope through this process 
to make a presentation about engineering education to Maryland high 
school math and science chairs in the summer of 2010. Through a 
discussion of their interests and needs, we hope to create a more 
extensive program that will not only assist current teachers but become 
the basis for including engineering in our College of Education degree 
and pre-service certification programs.
    I would like to add a few ideas on future programs that would be 
pertinent to this discussion--ideas that could have a highly positive 
impact on our current Clark School students and current high school 
students.
    First: ``Students Without Borders.'' The idea is to establish a 
program for Clark School students of mandatory community service (40 
hours per academic year) to earn credit through mentoring, tutoring, 
judging science competitions, and other activities with middle and high 
school students. We find that today's Gen Y student is excited to do 
something useful to help society and add social value experiences to 
his or her education.
    Second: Online STEM Education System. Here we would use existing TV 
communications systems and the Internet to bring the best high school 
and middle school STEM teachers into the areas where they are in short 
supply, whether in the form of complete courses or highlight sessions 
that add excitement to local courses.
    Third: University-Based STEM Governor's Schools. Modeling our 
existing and highly successful living/learning programs, create STEM 
living/learning programs on university campuses for academically 
talented and mature students who have completed 11th or even 10th 
grade. This would enable them to complete their university degrees 
early and obtain early access to internship and employment 
opportunities with partnering corporations and government agencies.
    Fourth: Nationwide Keystone Professors Program. Modeling the Clark 
School's highly successful Keystone Professors Program, create an 
expanded, nationwide university-based program that brings the best 
teachers into the most elementary university STEM courses and thus 
improves retention of students over four years. Keystone provides funds 
to increase the base salaries of participating professors and to 
support technicians and equipment used in the courses.
    Fifth: Articulated Agreements with Community Colleges. Develop 
agreements with community colleges to ensure that their courses align 
with university requirements. This will enable students automatically 
to transfer all credits after two years rather than require evaluation 
of each course for transfer.
    My thanks to the Subcommittee for the opportunity to report on the 
Clark School's experience with K-12 engineering education and suggest a 
few ideas for expanded use. I will be happy to answer any additional 
questions, and to make myself available to work out these ideas as 
deemed appropriate.

                     Biography for Darryll J. Pines
    Dr. Darryll Pines became Dean of the Clark School on January 5, 
2009. He came to the University of Maryland in 1995 as an Assistant 
Professor in the Clark School and has served as Chair of the Department 
of Aerospace Engineering since 2006.
    Under his leadership, the Department was ranked 8th overall among 
U.S. universities, and 5th among public schools in the U.S. News and 
World Report graduate school rankings. In addition, during his tenure 
as Chair, the Department has ranked in the top five in Aviation Week 
and Space Technology's workforce undergraduate and graduate student 
placement study. The undergraduate program was ranked 9th during that 
time. Pines has been Director of the Sloan Scholars Program since 1996 
and Director of the GEM Program since 1999, and he also served as Chair 
of the Engineering Council, Director of the NASA CUIP Program, and 
Director of the SAMPEX flight experiment. Last year, he served on the 
University's Strategic Planning Steering Committee.
    During a leave of absence from the University (2003-2006), Pines 
served as Program Manager for the Tactical Technology Office and 
Defense Sciences Office of DARPA (Defense Advanced Research Projects 
Agency). While at DARPA, Pines initiated five new programs primarily 
related to the development of aerospace technologies for which he 
received a Distinguished Service Medal. He also held positions at the 
Lawrence Livermore National Laboratory (LLNL), Chevron Corporation, and 
Space Tethers Inc. At LLNL, Pines worked on the Clementine Spacecraft 
program, which discovered water near the south pole of the Moon. A 
replica of the spacecraft now sits in the National Air and Space 
Museum.
    Pines' current research focuses on structural dynamics, including 
structural health monitoring and prognosis, smart sensors, and 
adaptive, morphing and biologically-inspired structures as well as the 
guidance, navigation, and control of aerospace vehicles. He is a Fellow 
of the Institute of Physics and an Associate Fellow of AIAA, and he has 
received an NSF Career Award.
    Pines received a B.S. in mechanical engineering from the University 
of California, Berkeley. He earned M.S. and Ph.D. degrees in mechanical 
engineering from the Massachusetts Institute of Technology.

    Chairman Lipinski. Thank you, Dr. Pines.
    Mr. Sandlin.

   STATEMENT OF MR. RICK SANDLIN, PRINCIPAL, MARTHA AND JOSH 
    MORRISS MATHEMATICS AND ENGINEERING ELEMENTARY SCHOOL, 
             TEXARKANA INDEPENDENT SCHOOL DISTRICT

    Mr. Sandlin. Chairman Lipinski, Ranking Member Ehlers and 
Congressman Hall and other Members of the Research and Science 
Subcommittee, I am certainly honored today and privileged to be 
here today to share with you what is taking place at Martha and 
Josh Morriss Mathematics and Engineering Elementary School as 
we attempt to implement an integrated engineering. Morriss 
Elementary is part of the Texarkana Independent School District 
(TISD) located in Texarkana, Texas. During this oral report, 
there will be some slides playing to show you what our campus 
looks like and the activities taking place.
    The idea for the school began when a group of citizens, 
educators, engineers and business leaders under the leadership 
of then-Superintendent Dr. Larry Sullivan and the President of 
Texas A&M University-Texarkana, Dr. Stephen Hensley, determined 
that a high priority for the Texarkana area was to somehow 
close the gap between supply and demand for professionals in 
engineering and mathematics careers. So was born the 
collaboration between Texas A&M University-Texarkana and 
Texarkana ISD to develop a K-16 pipeline which would expose 
children to engineering concepts and careers at an early age. 
We attempt to raise the bar of excellence by requiring higher 
standards for our students and our teachers. Students attend 
Morriss on a first-come, first-served, open enrollment basis, 
but once enrolled, the students must meet certain academic 
behavior and attendance standards to remain enrolled. All 
teachers at Morriss must either have a Master's degree or be 
willing to complete a Master's degree. Our district provides 
the funds for the coursework and there is no cost to the 
teacher as long as the teacher remains with the district for 
four years after completing the coursework. Teachers who 
already have a Master's degree must also complete four 
additional courses of math along with two curriculum design and 
delivery courses. Teachers are then qualified to take the 
Master of Mathematics teacher certification examination.
    TISD provides continuous professional development in STEM 
education through workshops offered through its instructional 
services department; plus, the American Society of Engineering 
Education offers a free workshop to STEM educators each year. 
Some of our teachers attended in Austin in 2009 and plan on 
returning in the summer of 2010 in Louisville, Kentucky. Our 
curriculum coach meets with our teachers on a regular basis in 
planning sessions.
    With much input from the educators and engineers along with 
the donation of 10.6 acres of land by the Morriss family, the 
construction of a new elementary school became a reality. We 
have been very fortunate that we have been able to design a 
physical plant which enhances the delivery of our engineering 
curriculum by offering some unique features not normally found 
in elementary schools. Some of these unique features include 
exposed color coded pipes, clear wall panels and clear ceiling 
tiles, which allow students to view ductwork, wiring and other 
pipes to show them that there is a path for everything that 
comes to them. Somebody had to design it, put it in place and 
maintain it. Also, we use irregular-shaped classrooms located 
in a pod setting that also has a common area. The data cabinets 
also with wiring is exposed. In each classroom we have a clear-
case computer. There is a clear tile area in the entrance to 
each pod that shows pipes and rebar, and it is located in the 
foundation. We design each class like a lab instead of just 
having one lab per pod. We use tables instead of desks in order 
to provide hands-on activity space for teachers to use. We also 
have students work in groups, cooperative groups to work 
together. A research and design center is used to promote 
research in robotics. The school's file server also has an open 
design.
    So although we are very proud of our physical plant, it is 
our curriculum that sets us apart from the other elementary 
schools. Instruction at Morriss Elementary is a student-
centered, hands-on and concept-based instruction. Teachers 
facilitate inquiry-based learning which they tap into students' 
natural interest in problem solving. Classrooms are equipped 
with state-of-the-art technology and equipment and teachers 
create a learning environment where learners assume the 
responsibility of their own learning where student autonomy and 
initiative are encouraged. We are trying to raise the bar 
through the thrill of discovery.
    Our curriculum coach plays a vital role in making sure we 
are implementing the engineering curriculum in the classroom 
daily. Each morning all grades have an engineering period first 
period and then we integrate the engineering concepts of that 
period into the other subjects whenever possible. In attempt to 
avoid the science fair mentality where the parents do the 
projects at home and then send them to school for everyone to 
admire, we hold at least three engineering encounters per year. 
These engineering encounters give parents the opportunity to 
view and participate in the engineering activities with the 
students.
    Our students love robotics. In addition to daily robotics 
activities, our students like to compete in robotic 
competitions. So far we have competed at the University of 
Texas-Dallas and also the University of Texas at Tyler.
    We strive to share the arena with our other schools and 
school districts by giving tours of facilities and by inviting 
educators to visit our classrooms. We also believe in the 
ripple or spillover effect which means that we are willing to 
share strategies that work at Morriss with teachers at our 
other campuses in our district.
    In reality, we realize that not all 400 students at Morriss 
will choose careers in engineering. However, we feel that if 
they can learn the process of learning like an engineer, then 
they can use this process of learning regardless of which field 
they go into. This process includes the steps of imagine, plan, 
design, improve and share, which we adapted from Engineering is 
Elementary. Our students are encouraged to continue their study 
of engineering and mathematics after they leave Morriss by 
enrolling in the engineering and mathematics academy at our 
Texas Middle School and then they can take engineering courses 
at our high school at Texas High and then to go on to Texas A&M 
University-Texarkana to major in engineering, completing the K-
16 journey.
    Martha and Josh Morriss Mathematics and Engineering 
Elementary School is a great place for kids to explore and 
learn. We don't have all the answers but we do feel like the 
bicycle has begun to move. We certainly would extend an open 
invitation to anyone to visit our campus at any time. We 
certainly want to thank Congressman Hall for an opportunity to 
come today and his strong support of STEM education and also 
his support of Morriss Elementary.
    I would like to conclude our testimony with a short video 
that shows the activities at Morriss and the learning process. 
Once again, I want to thank the Committee for the opportunity 
and I will be glad to answer any questions.
    [Video.]
    Thank you.
    [The prepared statement of Mr. Sandlin follows:]
                   Prepared Statement of Rick Sandlin
1.  Please describe the establishment of the Martha and Josh Morriss 
Mathematics and Engineering Elementary School. What was the impetus for 
its development?

    A growing gap between the supply and demand for professionals in 
engineering and mathematics careers has alerted stakeholders across the 
Nation. At the national level, resolution of this dilemma has been 
identified as a federal priority via appropriation of the Science, 
Technology, Engineering, and Mathematics (STEM) project and the 
American Competitiveness Initiative unveiled by President Bush in his 
January 2006 State of the Union Address. Texas Senator Kay Bailey 
Hutchison publicly recognized the growing need for engineering 
education and research in Texas when she announced the creation of the 
Texas Academy of Science, Engineering, and Medicine in San Antonio in 
January 2004. The regional need for more engineers was documented in 
the late 1990s when Texarkana area businesses (e.g., International 
Paper, Domtar Paper Mill, and Alcoa) identified the need for an 
engineering program at Texas A&M-Texarkana as the number one community 
priority. The need for more regionally available engineers, coupled 
with the need for an increase in the quantity and quality of United 
States grown and educated engineers, sparked the development of the 
Texas A&M University-Texarkana--Texarkana ISD K-16 Engineering 
Collaborative.
    Although the effectiveness of a K-16 engineering collaborative as a 
means of improving the supply and demand gap of engineers is a very 
logical, research-based approach, a comprehensive search has not 
identified another partnership of this kind across the United States. 
The Texas A&M University-Texarkana--Texarkana ISD K-16 Engineering 
Collaborative is a unique, sustainable, and replicable model that sets 
a gold standard for public schools and universities.

What role did partnerships with local businesses and institutions play 
in the development of the school?

    In January 2005, Texarkana ISD convened the first meeting of the 
Blue Ribbon Committee, a group of parents, community and business 
leaders, and school district representatives. This panel's purpose was 
to review the school district's facilities, finances, and curriculum, 
and to make recommendations concerning future plans for the district. 
Following a series of planning sessions, the Committee recommended the 
establishment of a new elementary school, a school that would become a 
national model for K-16 collaboration in how young children can become 
engaged in and educated for STEM careers.
    The first concrete step to this concept becoming a reality occurred 
in spring 2006 when the Josh Morriss, Jr. family donated 10.6 acres of 
land near the new 375 acre Texas A&M-Texarkana campus site for the new 
elementary school.
    Along with the contributions of the Blue Ribbon Committee and the 
Josh Morriss, Jr. family, Texas A&M University-Texarkana became an 
integral partner in the school's development. The University's 
involvement included consultation in the floor plan and architectural 
design, in integrated curriculum development, and in professional 
development for teachers.
    Local business leaders have found it increasingly more difficult to 
find and recruit highly skilled people with a strong background in 
Science, Engineering, and Mathematics. They recognized and supported a 
strong STEM competency that can only be enhanced through the local 
school system and University.

2.  What do you consider to be benefits of pre-college engineering 
education?

    Benefits of a pre-college engineering education are produced 
through the delivery of an integrated STEM curriculum. When the 
curriculum is delivered through an inquiry based hands-on approach, 
students become the benefactors of becoming Critical Thinkers. A key 
component to delivering the curriculum at Morriss elementary, is 
teaching students to utilize the engineering design process (see 
Appendix A). By imbedding the engineering design process as part of a 
project based learning concept, students learn to synthesize 
information and continually improve on their cognitive abilities.
    The number of engineers that are being produced in this country has 
decreased drastically over the past few decades. Less than fifty years 
ago over half of all engineers in the world were produced in the United 
States, in 1999, America produced 12 percent of all engineers globally. 
This preparation for the world in which our students will be expected 
to compete must be held to a more rigorous standard. We are meeting 
that challenge at the Martha and Josh Morriss Mathematics & Engineering 
Elementary School.

Can Engineering be added to the classroom without sacrificing core 
competencies in math and science?

    Engineering is the perfect accompaniment to math and science and we 
must also make sure that technology is included in the statement 
because STEM education is a ``meta discipline.'' When people hear the 
acronym, STEM, they immediately focus on the four separate disciplines. 
STEM is actually an integration of the four disciplines thus producing 
a ``meta discipline.'' Integrated STEM education refers to a new name 
for the traditional approach to teaching science and mathematics. 
Integrated STEM education is not just the grafting of ``technology'' 
and ``engineering'' layers onto standard science and mathematics 
curricula. Instead, integrated STEM education is an approach to 
teaching that is larger than its academic parts.
    The following statement from the National High School Alliance on 
STEM education describes the ``meta-discipline'' as one that ``removes 
the traditional barriers erected between the four disciplines by 
integrating the four subjects into one cohesive means of teaching and 
learning. The engineering component puts emphasis on the process and 
design of solutions instead of the solutions themselves. This approach 
allows students to explore mathematics and science in a more 
personalized context, while helping them to develop the critical 
thinking skills that can be applied to all facets of their work and 
academic lives. Engineering is the method that students utilize for 
discovery, exploration, and problem-solving.''
    Morriss elementary employs a self-contained concept for the 
classroom setting. In other words each teacher is responsible for 
teaching all core subjects to the 22 students in their classroom. An 
example of a third grade schedule is shown below:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The daily schedule for Morriss Elementary reflects all grade levels 
starting out the morning with one hour of engineering. Engineering is 
not a typical course taught at the elementary level and thus is unique 
to Morriss Elementary; thus the engineering course is considered part 
of the core curriculum for the school. While the course schedule also 
reflects a normal block of time for the other core content areas, it is 
the instructional methods employed by the teachers that are uniquely 
different.

What are reasonable learning outcomes for engineering education at the 
elementary school level?

    Engineering curriculum in the elementary classroom setting 
incorporates the Engineering Design Process which includes the steps: 
Imagine Plan, Design, Improve and Share. This five step system allows 
students to work through open-ended, hands on and project-based 
learning experiences that develop higher-order thinking skills in 
students. Following the methods delineated by Bloom's Taxonomy, 
students are able to identify problems that are to be solved, determine 
possible solutions, and evaluate their own work for improvements. 
Students will be able to:

        <bullet>  Reflect on attitudes toward engineers and engineering

        <bullet>  Develop professional relationships with engineers

        <bullet>  Teamwork through cooperative-learning

        <bullet>  Understand the tools, equipment, technology and 
        procedures used in the design process

        <bullet>  Identify the problem

        <bullet>  Research scientific principles

        <bullet>  Brainstorm solutions

        <bullet>  Draw a diagram or schematic

        <bullet>  Decide which materials to use

        <bullet>  Create a cost-analysis based on a rubric

        <bullet>  Use mathematical problem-solving techniques

        <bullet>  Follow the plan to create a design

        <bullet>  Test their design

        <bullet>  Apply statistical analysis to data

        <bullet>  Modify and improve the design

        <bullet>  Evaluate Design and retest

        <bullet>  Apply statistical analysis to data

        <bullet>  Communicate their achievements

What do you consider to be the biggest challenges and barriers to 
incorporating engineering education in the elementary school classroom?

        <bullet>  Quality Integrated STEM education professional 
        development

        <bullet>  Elementary education teacher preparation programs 
        lack of math and science content

        <bullet>  Funding to help support professional development at 
        the elementary level (beginning of the STEM pipeline)

        <bullet>  Buy-in of public and educators in preparing students 
        for careers in engineering

        <bullet>  Females entering mathematical and engineering careers

        <bullet>  Student exposure to technological advances

3.  What kind of curricula does the school use?

    Morriss Elementary curriculum is standards-based, integrated and 
connected to the lives of learners. The curriculum is designed to be 
compelling-to move beyond information and support the transfer of 
learning. The goal of Morriss Elementary is to facilitate integrated, 
higher level critical thinking which promotes STEM education. Resources 
utilized in the curriculum: Engineering is Elementary from the Museum 
of Science in Boston, Sci-Tek, Scan-Tek, along with state-of-the-art 
technology and equipment. NASA engineering projects are also employed. 
NXT Mindstorm robotics are implemented to enhance the engineering 
program as well as compete in State competitions. Engineering is 
spiraled through a six weeks matrix that provides exposure to 
engineering concepts in areas of environmental, civil, Earth & space, 
bioengineering, electrical & mechanical and manufacturing. In order to 
follow the Link-Learn-Extend model, students are guided through 
accelerated mathematics that extend into the next grade level. Envision 
mathematics is the State adopted curriculum, but that is a resource 
that is used along with other materials such as Hands-on Equations to 
advance the mathematics curriculum. Materials usage is supported 
through the Texarkana ISD's dedication to development of STEM education 
as well as support from local businesses and parents.

What percentages of your teachers have engineering degrees?

    Although none of the teachers at Morriss Elementary have an 
engineering degree, they all have an understanding of what engineers do 
because of a quality professional development model developed between 
the school district and Texas A&M University-Texarkana. Immersion was 
the key to understanding the engineering concepts that needed to be 
taught at the elementary level. Much like learning a new language, 
teachers were immersed in the culture of engineering through research 
and consulting with area engineers. Local engineers served as a 
sounding board during panel discussions to determine how to teach 
engineering at the elementary level. Many of the local engineers could 
not articulate what to teach at the elementary level, but were able to 
convey some simple concepts such as, more math and solving puzzles. 
Teachers quickly learned that the curriculum would have to be developed 
by working together in a collaborative atmosphere. By listening to 
engineers, Morriss was able to develop and accelerated math concept 
using a link-learn-extend model (see appendix A) which helped teachers 
push mathematics forward by a full grade level by the time a student 
reaches the 5th grade. The accelerated mathematics will help us fulfill 
the pipeline of students who need to have calculus by the 11th grade so 
they can enroll in the dual credit engineering courses currently taught 
by Texas A&M University-Texarkana.
    The teachers completed four Graduate level mathematics courses and 
completed the Master Mathematics Teacher certification. The remainders 
of the three required elective courses in their Master's Degree program 
were science electives designed by the University to meet the needs of 
engineering implementation. The curriculum coach participated in a 
summer program (2006) through Texas A&M-College Station funded by the 
National Science Foundation (EBAT) that developed educator knowledge in 
biomedical engineering through live-animal research. She also served 
the National Science Foundation as a Science and Mathematics Specialist 
through the Texas Rural Systemic Initiative. In the summer of 2009, six 
teachers from Texarkana ISD attended the American Society for 
Engineering Education annual conference in Austin Texas and will attend 
the 2010 conference in Louisville, Kentucky. The Curriculum Coach and 
Counselor from Morriss Elementary attended the Engineering is 
Elementary Training for Trainers Fall 2008 to create a professional 
development opportunity for Morriss Elementary teachers.
    Maintaining membership in professional learning communities allows 
Morriss teachers to share experiences and expertise with others 
pursuing STEM education.

What kind of teacher training and professional development 
opportunities do you provide for your teachers?

    Providing a quality teacher professional development program for an 
integrated STEM curriculum was essential to establishing Morriss 
Elementary. The essential foundation and approach to professional 
development for the Morriss teachers had been established through a 
district led commitment to seeking methods and strategies to support 
changing the way students learn, and to producing students who possess 
critical thinking and problem solving skills and abilities. Utilizing 
integrated STEM education to promote this shift in teaching values and 
teaching methods provided the district with the necessary framework for 
implementing a dramatically different approach to teaching. This has 
resulted in creating a school culture that embraces teachers as 
facilitators. The result has been the acceptance of integrated STEM 
education and an expectation of achievement and renewed commitment to 
educational excellence shared by the Morriss teachers. The following 
information describes the expectations for professional development 
through required course work in order to be employed at the Morriss 
school.

Teachers with a Master's Degree (K-5)

    Teachers who already had a Master's degree were required to take 
eighteen (18) hours of specific graduate level course work with Texas 
A&M University/Texarkana within the first two years of assignment at 
the school. Graduate level course work consisted of two courses in 
curriculum and instruction, and four courses in mathematics. The 
specified course work lead to a Master Teacher Certification in 
Mathematics (EC-4).

Teachers without a Master's Degree (K-5)

    Teachers who do not currently have a Master's Degree were required 
to complete a Master's Degree in Curriculum and Instruction within the 
first three years. Teachers without a Master's degree were required to 
take eighteen (18) hours of specific graduate level course work with 
Texas A&M University/Texarkana within the first two years of 
assignment. The course work consisted of two courses in curriculum and 
instruction, and four courses in mathematics. Finally, teachers had to 
complete the remaining 18 hours of graduate course work needed to 
complete a Master's Degree in Curriculum and Instruction from TAMUT. 
The specified course work led to a Master Teacher Certification in 
Mathematics (EC-4).
    Two key courses were identified as being imperative to the teacher 
professional development program, Curriculum Design and Curriculum 
Delivery. The syllabus for each course presented new STEM teachers with 
a variety of tasks and exercises that included research and information 
gathering, exploration of curriculum and instruction methods, project-
based classroom instruction, and self-evaluation. The courses were team 
taught, utilizing the expertise of the Curriculum Coordinator, Ronda 
Jameson, who is a former secondary mathematics teacher, along with the 
Curriculum Specialist, Lori Ulmer, who is a former elementary math 
teacher who brought experience and knowledge from outside the district 
to support the curriculum and instruction design process. The four-week 
course work was structured to foster team-work and collaborative 
curriculum development through the project-based outcomes designed for 
the course, and through modeling of these practices by the course 
instructors.
    Emphasis on research and self-evaluation as a method for constant 
improvement are also an important dimension of the course work that 
prepare teachers to actively use technology in the classroom to access 
new information and ideas. Additionally, the course instructors built 
the course upon the combined experience of both instructors in 
classroom teaching. Together with their experiences in providing 
teacher professional development to a broad range of teachers over a 
number of years, essentially fostering an approach that relied on the 
course instructors ``to think like a classroom teacher.'' Utilizing a 
research-based approach, course instructors were able to provide 
answers and information to support the premise of integrated STEM 
education, and also provided modeling of this approach through the 
method of instruction. The resulting buy-in of the new teaching 
methods, and of the premise of STEM's focus on engineering and 
mathematics, provided a solid foundation for effective curriculum 
development during the first year of the Morriss school.
    The teacher professional development produced some non-negotiables 
that were to be inherent in the integrated STEM culture when designing 
and delivering the curriculum. The non-negotiables are:

        <bullet>  Hands on learning

        <bullet>  Constructivism

        <bullet>  Leadership and articulation

        <bullet>  Daily engineering instruction

        <bullet>  Alternative forms of assessment

        <bullet>  Concept-based instruction

        <bullet>  Algebraic thinking

        <bullet>  Cooperative learning

        <bullet>  Accelerated mathematics

    Another key component is the monitoring and review process 
established to ensure the teacher professional development components 
are being supported. Through peer review, and collaboration during 
common planning time, feedback is provided on an on-going basis. This 
process is led by a curriculum coach, Denise Skinner, for the Morriss 
school. The curriculum coach is responsible for meeting with the 
Morriss teachers on a regular basis to continually tweak the design and 
delivery of the curriculum. Through classroom observations and 
research, the curriculum coach is able to adequately provide teacher 
support.
    Because of the successful integrated STEM education professional 
development model with the Morriss teachers, it was replicated with the 
more recent secondary STEM Academy teachers which started in the summer 
2009. Again the expertises of current ISD staff were utilized. Director 
of Curriculum and Instruction, Lori Ables, and Curriculum Coordinator, 
Ronda Jameson, delivered the content for the University based course 
work. Working with Texas A&M University-Texarkana was a vital component 
as they provided the adjunct status for the instructors. The University 
realized the need for more staff with practicum experiences. The 
professional development model was captured in recent study on the 
Morriss school by Dr. Monica Hunter from the PAST foundation. A full 
copy of the study can be obtained by following the link below.

    http://www.lulu.com/content/paperback-book/morriss-math-and-
enginerring-elementaryschool-a-case-study-of-k-5-stem-education-
program-development/7488985

4.  Once a student has completed the elementary grades at your school, 
do they have the opportunity to go on to a STEM-focused middle school? 
Are these programs in place to ensure these students maintain an 
interest in STEM subjects as they transition to middle school and high 
school?

    Texas A&M University-Texarkana and Texarkana Independent School 
District have established a vertically aligned kindergarten-16 
engineering education collaborative that will be executed at four 
levels:

        1)  A K-5 public elementary school (Martha and Josh Morriss 
        Mathematics & Engineering Elementary School) that provides a 
        mathematics and pre-engineering integrated curriculum, 
        Engineering Encounters (student-led, hands-on experiences 
        shared with parents and the community), and pre-engineering 
        thematic units (i.e., structures, forces, and gears) at each 
        grade level (opened in fall 2007)

        2)  The Math, Science, and Engineering Academy, a pre-
        engineering school-within-a-school at Texas Middle School 
        opened in fall 2008. Currently the STEM Academy services 
        interested students in grades 6 and 7 with plans to expand to 
        8th grade in 2010.

        3)  Texas High School currently offers selected mathematics and 
        science courses with pre-engineering content enrichment and 
        dual credit engineering courses at Texas High School. A STEM 
        Academy has recently been added to Texas High School in 2009 to 
        service 9th grade students with plans to expand through 12th 
        grade by 2012. The high school expansion of STEM Academies has 
        been made possible through a grant sponsored by the Texas High 
        School Project (THSP).

        4)  A choice of three engineering related programs of study at 
        Texas A&M-Texarkana: BS in Computer and Information Sciences, 
        BS in Electrical Engineering, and BS in Mechanical Engineering. 
        Texas A&M-Texarkana will be accepting their first freshman 
        class into the college of engineering in 2010.

APPENDIX A
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                       Biography for Rick Sandlin
    Rick Sandlin serves as Principal of the Martha and Josh Morriss 
Mathematics & Engineering Elementary School and is a Senior 
Administrator for Texarkana Independent School District (TISD) in 
Texarkana, Texas.
    He began his career with TISD in 1974 as an elementary teacher at 
Highland Park and Kennedy Elementary Schools. He became Assistant 
Principal of Wake Village Elementary School in 1992, served as 
Principal of Highland Park Elementary School from 1993-1996, Principal 
of Nash Elementary School from 1996-2003 and was Principal of Wake 
Village Elementary School from 2003-2006.
    In 2006, he was asked to lead the construction and development of 
TISD's newest state-of-the-art elementary campus--Martha and Josh 
Morriss Mathematics & Engineering Elementary School--which opened in 
August 2007. This new and innovative campus has instructional 
opportunities specifically in the areas of math, engineering and 
technology and is the foundation of TISD's collaborative effort in the 
development of a nationally recognized K-16 educational plan with 
direct ties to Texas A&M University-Texarkana College of Arts & 
Sciences and Education and College of Engineering.
    Rick is a distinguished member of the Tiger Family and is a proven 
and experienced principal. He brings wisdom and a strong desire for the 
educational betterment of children to the district that serves as an 
asset for students, parents and faculty.
    Rick graduated from East Texas State University at Texarkana which 
is now Texas A&M University at Texarkana with a B.S. in 1973 and a MBA 
in 1977. He is also an Adjunct Faculty member for Texarkana College 
where he teaches Accounting.
    Rick is a member of First Baptist Church Texarkana where he serves 
as a Deacon.
    He has been married to Kay, also an educator, for thirty-four years 
and they have two sons--Taylor who is the Pastor of Southland Baptist 
Church in San Angelo, Texas and Erick who is an attorney with the law 
firm of Bracewell and Giuliani located in Houston, Texas. He has two 
grandchildren, Sophie, age 4, and John Curtis, age 2.

                               Discussion

    Chairman Lipinski. Thank you, Mr. Sandlin.
    At this point we will begin our first round of questions, 
and the Chair recognizes himself for five minutes.
    Right now we are working--beginning to work on the NSF 
reauthorization and determine what is working, what could work 
better, so really focusing on NSF funding. So I wanted to start 
out by asking Dr. Peterson in this hearing here, what is the 
current level of support of NSF-funded research in other 
activities in K-12 engineering education, and how much of NSF's 
research support in this area is funded out of the engineering 
directorate and how much is funded through the education and 
human resources directorate?
    Dr. Peterson. Let me first of all begin, Chairman Lipinski, 
by talking about the investment that the Directorate for 
Education and Human Resources (EHR) has made. In 2008, about $9 
million, and in 2009, about $23 million in K-12 engineering 
projects were supported by EHR. These came in a variety of 
programs, and I can provide you those specific details with 
exact dollar amounts, but generally speaking, they were the GK-
12 Program, the NICE Program, the Math-Science Partnership 
Program, the Discovery for Research in K-12 and small amounts 
in other programs. Within the engineering directorate in 2008, 
we invested approximately $13 million, and in 2009, about $15 
million in K-12 engineering education products. And some of 
these were in partnership with EHR. Primarily three areas of 
support provided this level of support for engineering 
education: the RET, or Research Experience for Teachers 
Program; the GK-12 Program, which provides opportunities for 
engineering graduate students to interact with local schools; 
and the educational component for our Engineering Research 
Program. I think sometimes people who aren't very familiar--who 
are only superficially familiar with our Engineering Research 
Centers think that their primary focus and sole focus is on 
engineering research, but an important component of all of 
these centers is an outreach and education, and they often 
involve interactions with teachers and local school districts 
and provide them mechanisms to bring engineering concepts into 
their classroom. So approximately $8 million or $9 million over 
those two years was supported through the RET Program, about 
$7.5 million from the GK-12 Program and about $7 million from 
the Engineering Research Centers. And again, I can provide you 
other details on the smaller programs for the record.
    Chairman Lipinski. Thank you. And to follow up, is there a 
comprehensive approach to the funding in these different 
programs?
    Dr. Peterson. We obviously try to coordinate the support 
that is provided and, as I said, we do partner in a number of 
projects. I think this is a bit of a generalization but the 
support that comes from EHR primarily focuses on issues related 
to pedagogy and the support that comes from the engineering 
directorate focuses more on the specific engineering content 
aspects.
    Chairman Lipinski. I have--one thing I threw out there, I 
am not going to--I will wait until the second round to get into 
questions, but I just wanted to sort of put this out there to 
think about and maybe this will come up and I will get back to 
it--the definition of engineering, which is sort of where I 
started when thinking about this hearing because I remember 
when I got an undergrad degree in mechanical engineering, got a 
Master's at Stanford, a program called engineering economic 
systems, and when I was in this program at Stanford--and I had 
never thought about what is the definition of engineering. I 
just thought about the multiple different fields and how they 
are applied, how methods are applied, but at that point I was 
taught engineering is problem solving. But I think what you 
define as what engineering is has an impact on what we are 
talking about, engineering in K-12 or what can be done, what is 
defined as teaching engineering there. So I am just going to 
leave it at that and I am going to come back to it on the 
second round of questions, but my time is up so I am going to 
recognize Dr. Ehlers for five minutes.
    Mr. Ehlers. Thank you, Mr. Chairman. I have lots of 
questions and not enough time for all of them.
    Let me start with Dr. Miaoulis. First of all, thank you for 
your work in the museum. I happen to think museums are one of 
the most effective adjuncts to elementary schools that this 
nation can have, and in particular your museum has achieved a 
pinnacle in this nation along with the Exploratorium and the 
Chicago Museum of Science and Industry and so forth. They play 
a very important role, and I assume you get busloads of 
students in from all over your state. We do have, or I do have 
a little resentment against you for stealing Patti Curtis away 
from us and making her spend part of her time in Boston, but 
she has been very effective in our STEM efforts here and we 
appreciate her serving on the board that we put together.
    Also, a quick comment on Homer Simpson. Probably the reason 
that Homer is an engineer, at least I have been told by 
physicist friends, is that the Simpsons were started by two 
physicists, and it sort of fits the mentality of physicists, I 
think. I have never watched a complete program so I have no 
idea what it is all about but it certainly seems imaginative.
    You mentioned expanding and allowing math and science 
partnership grants to apply to engineering, and first of all, 
we have two types of math and science partnership grants here. 
The National Science Foundation has one type and the Department 
of Education has another type, more in the interest of getting 
out into the classrooms and developmental teaching. But I 
wasn't aware that these grants excluded engineering. Did I 
misunderstand you on that?
    Dr. Miaoulis. These grants--this is a general challenge we 
have with initiatives. There is usually language, initial 
language in legislation or this particular grant program, which 
starts in favoring STEM education, but then as you go reading 
further, they focus specifically on math and science teachers 
and math and science, so the T and E get dropped out, most 
times unintentionally. But once they are not in the rules, 
then, as the monies go to the states, the states allocate the 
money only for math and science programs and not for technology 
and engineering programs. So one of my recommendations is to 
direct, to be explicit in allocating funds such as through 
these programs to technology and engineering as well as math 
and science. So in new legislation, specifically spell out that 
curriculum in technology and engineering should be supported, 
as well as professional development of technology education 
teachers and, hopefully in the future, engineering teachers.
    Mr. Ehlers. Okay. I presumed that was the case. But I was 
instrumental in putting these programs together, and if we are 
missing something, then we have to work on that, and at this 
time it is difficult to get another bill passed but we might be 
able to do something through the appropriations process. Thank 
you for your comment on that.
    And then also just a quick response from each of the 
witnesses, I just wonder how--this idea of technological 
literacy is often discussed. How would you see that as relating 
to the K-12 engineering education that we are talking about 
here today? We will just go down the line very briefly, please, 
from each of you.
    Dr. Katehi. The ability to learn engineering and design, 
specifically in a younger age, and experiences that allow the 
kids to learn how to make things that are useful will help them 
also develop respect in understanding of technology and how 
technology affects quality of life and also understand the 
various aspects of it. And that is what we call technology 
literacy, the ability to use this information and--correct 
information--and use it to make important decisions. That, we 
believe, the Committee believes that that skill is fundamental 
to the ability of any citizen to make correct decisions, and 
then of course for our country to benefit from those decisions.
    Mr. Ehlers. Dr. Peterson.
    Dr. Peterson. I agree very much with what Dr. Katehi said. 
I think if you focus on, again, the primary elements of 
engineering as folded into an elementary and middle school 
curriculum focusing on design, the basic concept is to teach 
problem-solving skills and with a focus in the engineering case 
on design aspects, but I think it is something that is 
applicable to anyone and helps them understand technological 
aspects. So whether they are going into engineering or not, I 
think that using that curricular approach would be beneficial.
    Mr. Ehlers. Dr. Miaoulis.
    Dr. Miaoulis. What brings science to life in the classroom 
is engaging the kids in the way that scientists think, the 
inquiry process. In order to engage them in the technology area 
and make them technologically literate, we should also guide 
them to behave like engineers do, to go through the design 
process. So engineering in K-12 would bring to life 
technologies which are the result of the engineering process 
and significantly improve technological literacy.
    Mr. Ehlers. Thank you.
    Dr. Pines.
    Dr. Pines. In my opinion, you first start off with asking 
the question, for example, this particular mobile wireless 
device for a kid, they use it every day. My daughter is an 8th 
grader and my son is a 6th grader. They know more about 
technology than I do, or they know how to use it, at least, but 
they don't know where it came from. So first is asking the hard 
question, how was this made. As Dr. Miaoulis mentioned, 98 
percent of the things in this room were made by, in some sense, 
engineers or design, and it is really by making that connection 
that they can actually do that. They ask the first question, 
this thing that you are using, which is a mobile wireless 
device, how was it made, what are the issues that actually lead 
to making this, just fundamentally connecting something to the 
Gen Y generation that actually uses this device very feverishly 
today and doesn't know how it is made. And I think that is part 
of just the first step of technological literacy. And then, 
yes, the process, the analysis, the design tools and how you 
think about solving the problem to get to that type of device. 
I think we have to ask the first basic question.
    Mr. Ehlers. Thank you.
    Mr. Sandlin.
    Mr. Sandlin. I can certainly say in experience in 30 years 
that today's students--we call them the digital natives, we are 
the digital immigrants. They teach us. But anything that we can 
do that is hands-on and involves anything to do with 
technology, they are just like fish in the water. When they 
learn about robotics, that there is nothing magic about that 
robot, that it has to do with sensors, sound and different 
sensors, motion, then they have a better understanding of 
working together, and just as Dr. Pines said, you know, they 
understand that when we talk about bridges and buildings and 
roads, that is one thing, but when we talk about iPods and all 
their electronics, they get really excited about it.
    Mr. Ehlers. You really hit on something and let me just 
briefly comment on that. My wife is an excellent cook, an 
excellent baker. She had to assume those duties in her home 
when she was 12 years old because her mother passed away early, 
and she taught all of our children to learn that, and I would 
like to point out that that is really a type of engineering 
too, taking components, putting them together, experimenting. 
My wife, she doesn't look at recipes very often. She just likes 
to experiment. And she is very good at it. I can give you some 
brownies that would make you come back for more. I think that 
attitude, if we can convey that to kids, experiment, try 
different things, whether it is in the kitchen or in the 
basement or whatever. That is what we are really getting at 
here. Let the kids learn how to experiment at an early age and 
build things constructively out of the materials available.
    Thank you. I yield back.
    Chairman Lipinski. Thank you, Dr. Ehlers, and I think you 
hit on some of the things that I had been thinking about.
    The Chair now recognizes Ms. Johnson for five minutes.
    Ms. Johnson. Thank you very much, Mr. Chairman. First, I 
need to apologize for being late. I had to do a speech on the 
Hill. And secondly, I would ask for unanimous consent to put my 
statement in the record.
    Chairman Lipinski. Without objection, so ordered.
    Ms. Johnson. Thank you. And let me thank all of the 
witnesses for coming. This has been a passion of mine for a 
long time now, and I am not sure how well we are doing. A 
school in Dallas, Texas, in my district is doing very well, but 
that is only about 20 percent of the students in the Dallas 
Independent School District. So I guess what I need all of you 
to comment on is how you get kids past the 5th or 6th grade and 
keep that interest in these areas. I know that early on they 
seem to be easy to attract, but going through the 6th and the 
7th grade, the interest seems to wane.
    Ms. Katehi. Our committee discussed that very extensively, 
and we came to believe that there is great opportunity in 
starting the kids early thinking about problem solving and 
about design, and they can do that with simple things. When you 
start talking about design, you can build simple stuff that may 
make you do things that you could not do before at a very early 
age before they go to kindergarten. They can learn how to build 
things and they can learn how to optimize. They can learn how 
to solve a problem. And then you can layer on that the learning 
of math and science so then math and science become relevant 
because they become the tools towards solving something, 
towards doing something that works, and that direct feedback 
helps kids learn and then makes them like technology and then 
eventually a lot of these kids will select math and science as 
a profession. But the learning should start early, not at 5th 
grade. It is too late. Many of the girls----
    Dr. Peterson. Representative Johnson, I think this is a 
very important question, and it illustrates, I think, the 
challenge that we have in folding engineering concepts into the 
curriculum of finding material that is appropriate at each 
grade level. As Dr. Katehi mentioned, types of projects that 
would interest and encourage students in the elementary and 
middle schools would be different from one grade level to the 
next. So the challenge really is to find those types of 
projects that would appeal to students in each grade level to 
maintain their interest.
    Dr. Miaoulis. I also believe that relevance is the key. If 
you look at the science curricula and the math curricula at the 
middle school, they have nothing to do with the day-to-day life 
of children, and if you can connect them with the real problems 
that they work in teams to solve, then it all becomes relevant. 
I would argue that engineering should not be the last science 
discipline to be taught in high school. I would argue it should 
be the first, so in 9th grade everybody starts with 
engineering, realizing how you need math and science to solve 
the problems, and then getting hooked on math and science.
    I would like to comment on Dr. Ehlers' cooking example. 
When I was at Tufts, we created a whole curriculum to retain 
engineering students which stemmed out of their personal 
hobbies and interests, and I used to teach a cooking class we 
used to call Gourmet Engineering, where I would teach 
principles through cooking, and the experiments were in a real 
kitchen laboratory and it was a very popular class. Because of 
this curriculum that we developed, Tufts became and still is 
probably the only engineering school where more students 
transfer from liberal arts into engineering than the other way 
around, with excellent retention.
    Mr. Ehlers. If I may just comment, my assistant, who is a 
Ph.D. chemist, sent me a note saying it is really chemistry, it 
is not engineering. So we quickly compromised on chemical 
engineering.
    Dr. Pines. Representative Johnson, I think one of our 
challenges in engineering is that we have a marketing challenge 
to the kids of today and the kids of the future. I would like 
to argue with your definition of engineering. I like to always 
tell kids in high school and middle school that engineers 
create a world that never has been for the benefit of society. 
Scientists study the world as it is to help understand the 
society but engineers create a world that never has been. So I 
try to link that to how kids can get excited in engineering, so 
one of the challenges as I mentioned in my remarks is that I 
believe we need to make the links for them, make it very 
simple. Another way to do it is to link middle school kids with 
elementary schools as mentors, high school kids as mentors to 
middle school kids, provide the continuum of what they may see 
in high school, what they may see in middle school, why they 
should stay interested in math and science, how it relates to 
real-world problems. Making those links and letting our young 
people work for us as they work for our future is what we need. 
We do not have such a mentoring national program that we could 
easily leverage and make it happen. Remember, our best human 
capital are our kids, our kids in college and our kids in 
middle school to help the lower levels. So I think those links 
are important to make the connections.
    Mr. Sandlin. Ms. Johnson, that is a question that we asked 
three or four years ago when we had a blue-ribbon committee, 
you know, how we can get, how can we have that supply of 
engineers. Industry was asking us here in Texarkana, Alcoa and 
International Paper, you know, we don't have local students 
that are going into engineering, we are hiring people that 
don't live in our area and we don't have that good supply. And 
then A&M wanted to know how can we make sure we have students 
coming up through the pipeline where they can have those 
courses and be enough students to take the courses in 
engineering. So we started, we said, well, we need to beef it 
up in middle school and high school but we already had two 
courses in high school where students could get dual credit and 
college credit for it, so we decided to go down to the 
elementary and introduce them. So we are hoping that we are 
making it so exciting at the elementary age that there will be 
an interest in it. Our two groups have left us now and gone on 
to the middle school, and one thing that has taken place in our 
middle school, we have beefed up our robotics because we 
weren't offering that at the middle school two years ago, and 
then our children are going over there that were in this 
program, they are kind of demanding that. So it is a challenge 
that we try to work on every day, and it is an interest, and it 
is making kids aware of the different fields that they can go 
into.
    Ms. Johnson. Thank you very much. My time is expired. But I 
want to say that the rest of these people had accents but I 
understood what you said very well.
    Chairman Lipinski. Thank you, Ms. Johnson. I want to 
comment on Dr. Pines' characterization of science and 
engineering, scientists and engineers. We engineers are always 
trying to figure out ways to put ourselves above the 
scientists, so I will always remember that one.
    The Chair now recognizes Mr. Hall for five minutes.
    Mr. Hall. I guess my first question will be directed to Mr. 
Sandlin. I think you recollected Chairman Gordon, who chairs 
the big Committee that we are all Subcommittee Members on, and 
I got a glimpse of the Morriss Elementary School before our 
field hearing out there last year. I think Mike Ross was there, 
who participated. I had a guy named Thomas B. Pickens. I later 
learned that is Boone Pickens, III. I didn't know that was him 
or I would have asked him for some money for a campaign 
contribution. We got a glimpse of the Morriss Elementary School 
before our school hearing last time but I think the Committee 
might be interested in what a third grader's schedule is like. 
You touched on it in your testimony but kind of tell us what 
they may be doing in a typical 45-minute engineering time 
block. Now, I note in the morning they start with, I think, 45 
minutes or an hour of engineering and then on your schedule, 
Morriss third grade schedule, you show an hour and a half on 
EL, that's English, I suppose, and some kind of language, 45 
minutes on science and a 45-minute lunch and then 55-minute 
activity period and then an hour and a half on mathematics and 
then social studies. Give us an idea of that typical 45 minutes 
of engineering time block that is focused on civil engineering 
and how that relates to their other subjects that day. You have 
to tie it to them, I don't mean to be brutal, but to keep them 
from being nerds.
    Mr. Sandlin. Well, we do play basketball at Morriss. But 
that was a question that parents were asking, you know, as we 
were in the planning process, are you only going to teach math 
and science all day and engineering, are you going to have 
recess, are you going to have, you know, what are you going to 
do. And so we teach all the subjects that you find in any 
elementary school. We do teach a specific period of engineering 
in the mornings. We have it first period because the kids work 
on a team and they like to be there on the projects, especially 
when they get to the point when they are putting the projects 
together to share, and so they kind of have pressure to be 
there on time, so that has cut down on our tardies a little 
bit, and that is a good thing, you know, hurry up, Mom, get me 
to school. So we do take the template and lay it down on the 
other subjects throughout the school day. For example, this six 
weeks we are in civil engineering. In kindergarten they are 
making some tunnels out of cardboard boxes. They also get a 
paper towel cone and we put it in a plastic tub like a shoebox 
container, and they have to create a tunnel that the car can go 
through, a toy car can go through just like you mentioned 
Tinker Tots or Tinker Toys, well, Legos are the big thing now, 
and so they have to design it where they can drive that little 
car through. We pour water in the container and if water comes 
out into the tunnel, then they have to go back on the improve 
stage and put more duct tape on it, they say. So we things like 
that. Second grade, I mean, first grade, they are creating 
walls like the Great Wall of China. Third grade, they are 
making towers. Fourth grade is doing parking garage right now. 
Fifth grade is doing tar pools. So in third grade they are 
building towers so they might first of all do some research on 
towers, what are towers, where are some in the United States, 
where are the tallest ones, you know, where are the most famous 
ones, what materials do they use to build them, things like 
that in that first period. And then as they move on through the 
day in math class when the teacher goes over geometric shapes, 
they might recall that the triangular shape was probably the 
strongest of the shapes they used. They understand what a right 
angle is. They understand that an acute angle is shorter than 
the--smaller than the right angle and obtuse is greater. So 
they get that hands-on and that process of learning through the 
project. They might do grasping by taking the tallest tower to 
the shortest or vice versa. They use that information in their 
math, what was done in engineering for the six weeks. They also 
might have to create a budget for the tower, you know, make 
sure they are in the budget of building it. So they have to 
worry about, you know, decimals, you know, working with 
decimals. They might be teaching decimals that day and working 
with money. In science they might talk about the nature and the 
forces of wind, earthquake, movement of the ground----
    Mr. Hall. All that in that 45 minutes?
    Mr. Sandlin. No, sir, I have been going through the rest of 
the day now.
    Mr. Hall. We don't want to get on with the rest of the day 
because this chairman just gave me five minutes.
    Mr. Sandlin. But then one last thing----
    Mr. Hall. I have to be somewhere at 4:00.
    Mr. Sandlin. One last thing, and then I will be quiet about 
this. I was in a first-grade classroom the other day and the 
teachers had taken the different building materials, and they 
had sands and soil and granite, concrete, and she was doing a 
webbing, a writing exercise, and they were learning how to do 
adjectives and descriptive words so they were webbing off of 
those materials. So that is just an idea of how you can 
integrate the engineering concepts in the rest of your subjects 
during the school day, and the child kind of ties it all 
together and hears it again in a different way instead of just 
trying to repeat it and drill and kill.
    Mr. Hall. I wanted to ask you something about, you shared 
the qualifications of your teachers. What about the students 
and how are they selected to attend this institution that is a 
new thrust or breakthrough? Just tell us a little about the 
demographics of the student population. I would like to know 
more about cost and lack of funding. We hear that up here all 
the time, hear it from NASA. Norm Augustine is on the Hill 
today to tell us about money, about NASA, what they need. AIG 
can't get enough, and we don't have enough to do everything you 
guys want to do, but just give us an idea about how do you 
select these students? I see a red light over there so be 
pretty quick because----
    Mr. Sandlin. Well, everybody makes application to come. 
Three years ago when we were planning, we didn't know who was 
going to come or if anybody was going to be willing to leave 
their elementary school. We didn't want to go in and recruit 
kids or the principals would be highly mad at me. They would 
think I was trying to take all their good kids, all their good 
teachers. You know how competitive they are. So we didn't 
really know how many we were going to have. We signed up 
everyone from K through five that first year, the year prior to 
opening in 2007. We went out three years to register our 
kindergarten children because we wanted to make sure we had 
enough in the pipeline, and we had plenty. So this is our third 
year. We just started 2009. This is our last year of the 
students we registered a few years back. So this year we are 
going to a lottery system to where they had two weeks to sign 
up, about two and a half weeks to sign up from October 1st to 
October 16th, and their names would go into a lottery and we 
pull out a number according to that. We have--as far as our 
makeup of our students, we have about--our male and female 
ratio is amazing. You know, we didn't go in and try to do this, 
but we have 203 females and 197 males, and there is a stat 
right there that just fell 50/50 right down the line just 
about. We have about 23 percent, or 15 percent economic 
disadvantage. We have--we found, though, this is a way that we 
get more students back into our district. The middle class that 
was leaving our district, the urban district, are now coming 
back in because of what we are offering, and then we put all of 
our students together at grade six, so it is really building 
our diversity well at the middle school and the high school.
    Mr. Hall. Are we getting a second shot, Mr. Chairman? We 
are going to have a second----
    Chairman Lipinski. We will but we are supposed to start 
voting somewhere around 11:30, so we are not going to have much 
more time for the hearing.
    Mr. Hall. Dr. Peterson answered some of the things I wanted 
but I did want to ask Dr. Pines some, but I will take my 
chances.
    Chairman Lipinski. All right. We will do that, Mr. Hall.
    Let me quickly start a second round of questions here, and 
the Chair will recognize himself for five minutes. I just 
wanted to ask a lot of the things that I was leading up at the 
end of the first round of questions, Dr. Ehlers had touched 
upon it and asked there. One thing I wanted to ask is, what 
about teaching professional development? Do we need to have a 
different way of doing professional development for 
engineering, different from what we have now for science and 
math? Is it something that we have to newly develop? So I want 
to throw that question out there. Who wants to--we will start 
with Dr. Katehi.
    Dr. Katehi. Thank you. Yes, we need to have a different set 
of programs that will prepare teachers for teaching engineering 
design in the classroom, and engineering colleges need to take 
ownership in this regard. So our committee identified the need 
and also requested that the American Association for 
Engineering Schools start a national dialogue to that effect, 
and then trying to find ways to get engineering colleges 
involved.
    Dr. Peterson. I think that this is--just as the science 
colleges have taken ownership of the science curriculum in 
partnership with colleges of education, the engineering 
colleges really need to be able to step up and help in 
partnership with colleges of education to provide the course 
content, technical content for the engineering.
    Chairman Lipinski. Dr. Miaoulis.
    Dr. Miaoulis. At the elementary school level, I believe 
that schools of education should collaborate with engineering 
schools to introduce at least one course in engineering design 
for all prospective elementary teachers so they are familiar 
with the process; and for the middle school and high school, 
again, I think engineering schools should take the lead. Also, 
funding for professional development should be focused in 
engineering as well as math and science. And since Mr. Hall 
mentioned NASA, I served on the NASA Advisory Committee for two 
years under the previous Administrator, and now the new one 
invited me to be a member of the new education committee. I 
believe that we are going to miss an opportunity if NASA does 
not use its wonderful and powerful engineering presence in 
championing engineering education nationwide. NASA should be 
the one that boosts K-12 engineering. It is wonderful and 
magical what they do. It is inspirational. And I believe that 
NASA should increase its educational budget and focus it on 
this initiative.
    Chairman Lipinski. Thank you. Are you just saying that for 
the Texans up here on the dais?
    Dr. Pines, did you have anything to add?
    Dr. Pines. I just wanted to say that in colleges of 
engineering around the United States, there are at least four 
colleges, as it currently stands, that have programs in 
engineering education. They are Virginia Tech, Iowa State and 
Purdue, and I can't remember the last one--Clemson. Thank you. 
And they have instituted graduate programs in engineering 
education, of which they are in some cases interfacing with 
colleges of education, so that some of the people that come out 
of these programs will not necessarily become faculty at 
universities but actually will go into K-12 education to help 
stimulate educating teachers in the field to get them in 
engineering, which I think is great. But I think more needs to 
be done. So in terms of answering your question, the answer is 
yes, we do need a separate program for engineering educators 
that encourages colleges of engineering to interface with 
colleges of education to get more certified teachers in 
engineering, of the E in the STEM word. Because we do the 
science and the math really well but we are not doing the E 
very well.
    Chairman Lipinski. Thank you.
    Mr. Sandlin, do you have anything to add?
    Mr. Sandlin. Just at the elementary level, we have found 
over the years that most of our teachers are well versed in the 
language arts and the reading area but not so well in the 
mathematics, and most engineers, we ask them what we can do at 
the elementary level to help with engineering and they say 
teach as much math as you can. So we would like to see 
mathematics in the teacher preparation program. We certainly 
would be interested in any type of engineer in the teacher 
program. We would say on professional development, we have 
found the best model for us is to make sure it is something 
that is sustainable, ongoing and that is accountable, that we 
have to go back in and make sure that we are doing what we said 
we are going to do.
    Chairman Lipinski. Thank you. We have heard the bells. 
Votes have started but I think that means we have probably only 
seven or eight minutes here so I recognize Dr. Ehlers for five 
minutes.
    Mr. Ehlers. Thank you, Mr. Chairman, and I will try to be 
brief.
    Dr. Katehi, your committee recommended that the American 
Society of Engineering Education, better known as ASEE, should 
begin a national dialogue on preparing K-12 engineering 
teachers to address the very different needs and circumstances 
of elementary and secondary teachers, and the pros and cons of 
establishing a formal credentialing process. My question is 
simple. Has ASEE been receptive of this, and what is the 
current status?
    Dr. Katehi. Yes, they have been and from what I understand, 
they have already started the dialogue. But they need to be 
encouraged, and the engineering colleges--ASEE is an 
organization and this organization can develop a plan and can 
develop a framework, but the colleges, the individual colleges 
and the universities need to take ownership of that as well. 
Otherwise it is not going to happen.
    Mr. Ehlers. I spoke to a group of university presidents 
several years ago and one of them asked the question, what can 
we do as presidents of universities, and I said the most 
important thing is to get your departments of education to talk 
to your departments of science and math, technology, 
engineering, et cetera. My experience has been, visiting a 
number of campuses and residing on a couple, that there has 
been disdain between both departments, and we have just got to 
get them together. Thank you.
    Chairman Lipinski. Thank you, Dr. Ehlers.
    The Chair will--we don't have any questions down here? I 
just want to make sure. Okay. The Chair recognizes Mr. Tonko.
    Mr. Tonko. Thank you, Mr. Chair. I will make this brief so 
that Mr. Hall can get his question in. But I know there is a 
lot of focus on middle school and high school for developing 
the engineering connection, but my opinion as an engineer in 
both mechanical and industrial engineering majors is that you 
have to start earlier than that in the elementary setting, and 
the expertise of math is critically important. And how do we 
build, not only the human infrastructure, but how do we design 
the construct of education so that there is teamwork done in 
building projects, which is the workplace of today and 
certainly of the future, and how do we inspire that whole 
response of mathematics in the elementary setting that gets 
past fractions as a fear factor and gets past equations? There 
are fun things, I think, we can do in the elementary setting. 
If we don't start there, the fear of math and science, if you 
avoid it, the silent fear is just going to continue. How we can 
put a greater emphasis on elementary settings? Dr. Miaoulis.
    Dr. Miaoulis. Our broadest curriculum for K-12 is focusing 
on elementary schools. We have a curriculum which consists of 
18 now and 20 at the end of the project--NSF has funded this 
project--books, and each book focuses on a child from a 
different part of the world. The child talks about her 
community and the challenge the community faces. So the little 
girl from India, who is the hero of one of the books, talks 
about quality of drinking water and the challenge of quality of 
drinking water in her town and how an environmental engineer in 
the town saved the town by building a filtration system. Then 
we gave the kids with the teacher help in building a filtration 
system in the classroom. So through storytelling, world 
culture, connecting math and science through engineering, we 
bring the whole process to life. It is used in all 50 states, 
our curriculum. It has reached 1.2 million children, and a 
recent study showed not only that kids that use the curriculum 
perform better than kids that did not, but also that we closed 
the achievement gap because we engaged children that typically 
didn't get engaged in math and science through real 
engineering.
    Mr. Tonko. Anyone else want to take a stab at it? Yes, Dr. 
Katehi.
    Dr. Katehi. I would like to say that the Committee spoke 
about this. Obviously there is a great opportunity when we 
start this early, and there is something else we need to take 
into account: that the brain learns in a very sensitive way 
when the kids are very young, and then we abandon that and we 
go to very abstract learning and we start memorizing tables, 
and we leave away the reasons we do that and the kids cannot 
make the connection. So if we go back to a very early age, even 
before kindergarten, and start thinking about how to continue 
with that sensory learning and add to it a second layer of the 
more abstract, I think the combination of the two--which in 
fact can be done wonderfully through the solution of 
engineering problems through design--can help kids learn, and 
can help kids appreciate math and science as relevant tools.
    Mr. Tonko. Thank you.
    Mr. Sandlin. We would--I would certainly say that we--that 
is right on target with what we are attempting to do, which is 
have cooperative groups all the way through from kindergarten 
up and we give them--everybody has an opportunity, a job to 
perform and everybody has a responsibility, and we give them an 
open-ended problem, and they go about solving it and they learn 
by discovery basically. So we want to continue that as much we 
can, and that is an area that we really need help on from 
getting that training for our staff.
    Mr. Tonko. But your setting is particularly focused on math 
and engineering, your elementary school?
    Mr. Sandlin. No, it is focused on engineering and 
mathematics but we tie it into all the subject areas of the 
school.
    Mr. Tonko. Because I think we need it across the board at 
all schools, at elementary schools for a number of reasons: to 
encourage engineering perhaps as a career, but more 
importantly, to develop those analytical skills, those problem-
solving skills that all of society needs no matter what 
discipline you are going to follow in life.
    Chairman Lipinski. Thank you, Mr. Tonko. I can never say no 
to a Polish mechanical engineer over there.
    The Chair now recognizes Mr. Hall.
    Mr. Hall. Thank you, Mr. Chairman. I was trying to think of 
a way they could have ever got me interested in math when I was 
in school. The three years I took Math 1 were very tough years. 
And by the way, Mr. Miaoulis, Martha and Josh Morriss Middle 
School is a NASA Explorer School. Thank you for your--because 
NASA is in a bind now, as Norm Augustine just released in his 
report today, and that is going to hit the papers through the 
day as to what recommendations he has made. And NASA, everybody 
else I know needs more money but schools really do and that is 
where we ought to be looking first, probably second and third.
    Dr. Pines, I noticed that you testified that, quote, 
``middle school is probably the right time to weave in some of 
the basic engineering but too early to do any rigorous 
engineering-type classes.'' If middle school is probably the 
right time, are you suggesting that elementary level is too 
early for students to grasp the basics of engineering?
    Dr. Pines. By no means.
    Mr. Hall. Oh, okay. I didn't think so but I wanted to give 
you a chance because that is in your testimony.
    Dr. Pines. I am essentialy saying that more of the 
structure would probably show up in middle school, that is 
simply my comment, but absolutely, many of our kids that are in 
third, fourth and fifth grade that are elementary, those that 
are very much interested in mathematics also need to be exposed 
to the concepts of engineering at the very basic level. That 
really would be my statement. But more structure can show up in 
middle school where they really can connect and actually start 
doing some level of analysis because by that time they are 
learning algebra. When they are in elementary school, they are 
not. They are dealing with fractions and decimals and very 
simplistic things. You can bring out some general concepts. But 
as they transition into middle school, our experience, at least 
at the Clark School, is that they make that connection fairly 
strongly. We have programs for third, fourth and fifth graders 
that still is a little bit of struggle to make the connections 
for them and see what they are looking at in terms of 
engineering, but they are interested. We want to keep that 
continuum as we go into middle school.
    Mr. Hall. Anyone else want to comment on that?
    Mr. Sandlin. I will just make one comment, that, you know, 
we strive with--sometimes the teachers will say, well, they are 
just not developmentally ready for that or they are just not 
interested in it, but it is amazing what young children will do 
if you give them the opportunity to do it, and we are learning 
ourselves that they can go a long ways without us realizing 
what they can do if we just afford them the opportunity to 
explore, and we certainly--you know, we want to make sure when 
we get to the middle school that we have students that are able 
to take a pre-algebra, an algebra in the seventh grade, are 
going to take calculus in tenth and then be ready to take the 
engineering courses at grades 11 and 12.
    Mr. Hall. I thank you, and I yield back my time. Thank you, 
Mr. Chairman. You have been very generous.
    Chairman Lipinski. Thank you, Mr. Hall. And before we bring 
this hearing to a close, I want to thank our witnesses for 
testifying before the Committee today and also thank you for 
all the good work that you are doing at the Museum of Science 
in Boston. The Subcommittee has done a lot of work here on 
informal science education and I know you are doing a great job 
there, and Mr. Sandlin, I have to say, I wish I had been able 
to go to your school when I was in elementary school.
    Mr. Sandlin. We have had that comment, so you are welcome 
to visit, anyway.
    Chairman Lipinski. Thank you.
    The record will remain open for two weeks for additional 
statements from the Members and for answers to any follow-up 
questions the Committee may ask of the witnesses.
    The witnesses are excused and the hearing is now adjourned.
    [Whereupon, at 11:42 a.m., the Subcommittee was adjourned.]
                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Linda P.B. Katehi, Chair, Committee on K-12 Engineering 
        Education, National Academy of Engineering, National Research 
        Council/Center for Education, The National Academies; 
        Chancellor, University of California, Davis

Questions submitted by Representative Marcia L. Fudge

Q1.  In my district, we have experienced great success in partnering 
the first STEM school in the Nation within a corporate complex. In 
General Electric's Nela Park campus in East Cleveland we housed our 
first freshman class this past year. The students were able to shadow 
and be mentored by GE employees. This has shown to be very beneficial 
to both the corporation and the students. While our success is limited 
to only our first year's worth of data, do you think it would be 
valuable to raise awareness among our corporate engineering 
stakeholders to encourage them to also be advocates of STEM programs 
within their community school systems? Has there been any focus on your 
part to this approach? If not, how best can this type of corporate 
campaign be accomplished?

A1. The active participation of industry in the development and 
delivery of educational programs that support STEM literacy is 
absolutely critical and should be encouraged. Industry should be 
engaged visibly but this should be done in a way that 1) is sustainable 
(i.e., does not result in one-off initiatives that disappear once 
funding is gone), 2) takes into account what is known about the 
complex, systems nature of school reform, 3) builds on and strengthens 
existing networks and coalitions of higher education, industry, K-12, 
and 4) includes from the very beginning a plan and money for collecting 
outcomes data, so that the impact of interventions can be determined 
and programs can be modified to be more effective.
    Our committee did not focus on this type of industry participation 
but we extensively discussed how to utilize scientists and engineers to 
support teachers in teaching the STEM subjects. A campaign to encourage 
corporations in investing in these types of activities could be done in 
the form of a public-private collaboration and could be encouraged via 
State or federal initiatives.
                   Answers to Post-Hearing Questions
Responses by Thomas W. Peterson, Assistant Director, Engineering 
        Directorate, National Science Foundation (NSF)

Questions submitted by Representative Marcia L. Fudge

Q1.  In my district, we have experienced great success in partnering 
the first STEM school in the Nation within a corporate complex. In 
General Electric's Nela Park campus in East Cleveland we housed our 
first freshman class this past year. The students were able to shadow 
and be mentored by GE employees. This has shown to be very beneficial 
to both the corporation and the students. While our success is limited 
to only our first year's worth of data, do you think it would be 
valuable to raise awareness among our corporate engineering 
stakeholders to encourage them to also be advocates of STEM programs 
within their community school systems? Has there been any focus on your 
part to this approach? If not, how best can this type of corporate 
campaign be accomplished?

A1. The MC2 STEM High School an the Nela Park campus in East Cleveland, 
headquarters to General Electric's lighting and industrial unit, is 
truly a wonderful example of corporate involvement in education 
programs focused an science and engineering. I am in total agreement 
with her that this type of corporate engagement is crucial to the 
success of STEM education. This involvement serves many purposes.
    Certainly, corporate partners can provide critical financial 
support to augment support for education coming through conventional 
channels. These corporate partners can also advocate far STEM programs 
within their communities. They can touch student's imaginations by 
showing them the power of innovation and creativity using real world 
examples from their companies. Finally, they employ the creative 
engineers who can be positive role models and mentors far students.
    At the National Science Foundation, we encourage company 
involvement in all of our NSF education programs, because in addition 
to the points mentioned above, they wilt be employers of our students. 
We have many examples of educational partnerships between NSF and 
industry, both in the Engineering Directorate and in the Education and 
Human Resources Directorate.
    Here are two examples of corporate involvement in STEM programs 
which NSF funded.

        1.  ``Engineer Your Life'' which encourages young women to 
        pursue engineering. Its` backbone is a Coalition of over 50 
        companies (including GE), universities (including Ohio Slate), 
        and engineering professional societies. Companies contribute 
        rate models and mentors far students and teachers. See 
        www.engineeryourlife.org.

        2.  ``UTEACH Engineering'' which is preparing a new high school 
        engineering course and the teachers to deliver it. The program 
        builds upon the success of UTEACH Natural Sciences, which was 
        just named one of the Top 50 Innovations in American Government 
        today by Harvard's Ash Institute for Democratic Governance and 
        Innovation, Company involvement is key to the operation and 
        impact of the program. Also the Industrial Advisory Boards to 
        the 34 engineering schools in Texas are active in UTEACH as 
        advocates, role models and mentors.

    I would be happy to provide many more examples if there is an 
interest, but the direct answer to the question is yes, we strongly 
encourage and support corporate involvement in our K-12 STEM activities 
and have experienced many productive partnerships between NSF and 
regard.
                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
